<html>
<title> - PROMOTING SAFE AND STABLE FAMILIES PROGRAM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





               PROMOTING SAFE AND STABLE FAMILIES PROGRAM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2001

                               __________

                           Serial No. 107-18

                               __________

         Printed for the use of the Committee on Ways and Means




                    U.S. GOVERNMENT PRINTING OFFICE
73-532 PS                   WASHINGTON :  2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.GPO.gov Phone: (202) 512-1800 Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




_______________________________________________________________________




                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                               __________
                                                                   Page
Advisory of May 3, 2001, announcing the hearing..................     2

                               WITNESSES

American Public Human Services Association, Betsey Rosenbaum.....     8
Casey Family Services, Raymond Torres............................    41
Florida Department of Children and Families, Hon. Kathleen A. 
  Kearney........................................................    22
Maryland Department of Human Resources, Linda E. Mouzon..........    28
Merrill, Sonya, Connecticut Department of Mental Retardation and 
  Direct Care....................................................    46
Michigan Family Independence Agency, James E. Beougher...........    15
Wulczyn, Fred H., Chapin Hall Center for Children, University of 
  Chicago........................................................    36

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Center on Children and the Law, Eva J. 
  Klain, and Martha W. Barnett, statement........................    69
Conference of State Court Administrators, Arlington, VA, David K. 
  Byers, statement and attachment................................    74
National Family Preservation Network, Buhl, ID, Priscilla 
  Martens, statement.............................................    78
Prevent Child Abuse America, Chicago, IL, statement..............    79

 
               PROMOTING SAFE AND STABLE FAMILIES PROGRAM

                              ----------                              


                         THURSDAY, MAY 10, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:05 p.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE,

May 3, 2001

HR-4

                    Herger Announces Hearing on the

               Promoting Safe and Stable Families Program

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on the Promoting Safe and Stable 
Families program. The hearing will take place on Thursday, May 10, 
2001, in room B-318 of the Rayburn House Office Building, beginning at 
1:00 p.m.
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include program administrators, researchers, and other 
experts on child welfare issues. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.

BACKGROUND:

    The Promoting Safe and Stable Families program was authorized by 
the Adoption and Safe Families Act of 1997 (ASFA) (P.L. 105-89). This 
program expires in fiscal year 2001 and funds services designed to 
prevent child abuse and neglect. ASFA required that a child's health 
and safety be the paramount consideration in determining the placement 
and course of action for an abused or neglected child. This important 
legislation sought to ensure that the system did not put the goal of 
returning a child to his or her biological parents above the safety of 
the child. Changes were also made to address concerns that children 
were kept in the foster care system too long. Thus, among other 
provisions, ASFA imposed defined time limits on how long attempts to 
reunify a family can occur before the child must be legally freed for 
adoption.
    Prior to ASFA, States used these child welfare funds for family 
preservation services for families in crisis, and family support 
services to promote child and family well-being. ASFA added two new 
categories of State activities: time-limited family reunification 
services, and adoption promotion and support services. ASFA authorized 
funding for these services through the end of FY 2001. (Currently, $305 
million is available each year to States for program purposes, and the 
President's budget proposes an additional $200 million or a more than 
65 percent annual increase in each of the next five years.) Finally, 
ASFA renamed Title IV-B, Subpart 2 of the Social Security Act the 
``Promoting Safe and Stable Families'' program.
    In announcing the hearing, Chairman Herger stated: ``This will be 
our first hearing in the 107th Congress on issues affecting the most 
vulnerable children in our society--those in need of protection from 
abuse and neglect, often at the hands of their own parents. I am 
encouraged that the President has proposed an additional $1 billion for 
these important services to protect children at all times and reunite 
families whenever possible. In considering this request, we must first 
evaluate how current funds are being spent, and whether they are 
serving those in greatest need.''

FOCUS OF THE HEARING:

    The focus of the hearing is to explore how States have used 
Promoting Safe and Stable Families program funds, to learn which 
programs are more effective, and to consider issues for further review 
and action during reauthorization of the program.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Thursday, 
May 24, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.

FORMATTING REQUIREMENTS:

    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect or MS 
Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>


    Chairman  Herger. Good afternoon, and welcome to today's 
hearing on the Promoting Safe and Stable Families program.
    The purpose of our hearing today is threefold. First, we 
will explore how States have used Safe and Stable Families 
funds, for example, to help children at risk of abuse or 
neglect. Second, we will examine what services make the biggest 
difference for families at risk or involved with the foster 
care system. And, third, we will consider what this all means 
as we head toward reauthorization later this year.
    This Subcommittee played a key role in 1997 when, through 
the Adoption and Safe Families Act, we set the terms of the 
Safe and Stable Families program. That law sent a strong 
bipartisan message that children should not languish in foster 
care for so long that they have little hope of finding a 
permanent home. Since the Adoption and Safe Families Act was 
enacted, adoptions are up from 28,000 in 1996 to 48,000 in 
1999, and child maltreatment is down nearly 7 percent. So it 
appears we are heading in the right direction. I would like to 
thank Mr. Camp especially for his continuing service on behalf 
of children in foster care.
    We are pleased to have a number of extremely able witnesses 
with us today who know what happens when Federal dollars leave 
Washington and reach families in crisis. But in addition to our 
review of funding and services and the like, I hope we will 
also focus on what this all means for children.
    Consider the story of an infant whom I will call Trina. 
Trina was the fifth of six children born to a mother addicted 
to crack cocaine. Trina's mother made her living on the 
streets. When Trina was born, her older brothers and sisters 
were already in foster care after being found in a filthy and 
unattended apartment with no food, a butcher's knife on the 
floor, and no toilet paper or diapers in the house. But their 
mother insisted she would be back on her feet soon, she just 
needed some time. So Trina's older siblings remained in foster 
care for more than 6 years.
    Trina, however, has been adopted by a loving family. In 
contrast, two of her older siblings, after bouncing around the 
system, will age out of foster care without ever experiencing 
the safety and stability of a safe and permanent home.
    It is hard to imagine all the ways Trina's life and 
prospects will be improved by living in a permanent, loving 
home. Now imagine the heartache and hurdles her older siblings, 
without that simple advantage, will have to overcome. We surely 
do not want to give up on any parent, but with the clock 
ticking on childhood, time is crucial and must not be wasted. 
So we will be very interested in whether children at risk are 
benefiting from recent changes and what more can be done to 
help them.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    Mr. Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]
  Statement of the Hon. Wally Herger, M.C., California, and Chairman, 
                    Subcommittee on Human Resources
    Good afternoon, and welcome to the Subcommittee on Human Resources' 
hearing on the Promoting Safe and Stable Families program.
    The purpose of our hearing today is threefold. First, we will 
explore how States have used Safe and Stable Families funds, for 
example to help children at risk of abuse or neglect. Second, we will 
examine what services make the biggest difference for families at risk 
or involved with the foster care system. And third, we will consider 
what this all means as we head towards reauthorization later this year.
    This Subcommittee played a key role in 1997 when, through the 
Adoption and Safe Families Act, we set the terms of the Safe and Stable 
Families program. That law sent a strong bipartisan message that 
children should not languish in foster care for so long that they have 
little hope of finding a permanent home. Since the Adoption and Safe 
Families Act was enacted, adoptions are up from 28,000 in 1996 to 
48,000 in 1999, and child maltreatment is down nearly 7%; so it appears 
we're heading in the right direction. I'd like to thank Mr. Camp 
especially for his continuing service on behalf of children in foster 
care.
    We are pleased to have a number of extremely able witnesses with us 
today who know what happens when Federal dollars leave Washington and 
reach families in crisis. But in addition to our review of funding and 
services, I hope we will also focus on what this means for children.
    Consider the story of an infant whom I'll call Trina. Trina was the 
fifth of six children born to a mother addicted to crack cocaine. 
Trina's mother made her living on the streets. When Trina was born, her 
older brothers and sisters were already in foster care, after being 
found in a filthy, unattended apartment with no food, a butcher's knife 
on the floor, and no toilet paper or diapers in the house. But their 
mother insisted she would be back on her feet soon, she just needed 
some time. So Trina's older siblings remained in foster care for more 
than 6 years.
    Trina, however, has been adopted by a loving family. In contrast, 
two of her older siblings, after bouncing around the system, will age 
out of foster care without ever experiencing the safety and stability 
of a safe and permanent home.
    It's hard to imagine all the ways Trina's life and prospects will 
be improved by living in a permanent, loving home. Now imagine the 
heartache and hurdles her older siblings, without that simple 
advantage, will have to overcome. We surely don't want to give up on 
any parent, but with the clock ticking on childhood, time is critical 
and must not be wasted. So we will be very interested in whether 
children at risk are benefiting from recent changes, and what more can 
be done to help them.

                                <F-dash>


    Mr. Cardin. Thank you, Mr. Chairman; and I, too, want to 
thank you for holding this hearing today as we look at the 
Promoting Safe and Stable Families program.
    This Committee has a very proud record of trying to help 
our most vulnerable children. We were successful in the last 
Congress in working in a very bipartisan way to deal with 
children aging out of foster care. I think it is a result of 
the action of this Committee that we now have a stronger 
partnership with our States in dealing with this vulnerable 
group of children, and I would hope that we will have the same 
cooperation on this legislation. I am very encouraged by the 
President suggesting that we increase the funding by a billion 
dollars over the next 5 years.
    Mr. Chairman, I want you to know, speaking for the 
Democrats, we want to work with you to pass legislation quickly 
for this increased funding so it can get out and help the 
people that need this assistance.
    Currently this year, the program will be providing $305 
million to our States to provide programs for family 
preservation services for children and families that are at 
risk or in crisis, community-based family support services to 
help prevent abuse or neglect, time-limited family 
reunification services and adoption promotion and support 
activities. So it is a pretty broad availability of programs 
that can be funded through this Federal program, and we look 
forward with you to bringing out legislation that will increase 
the authorizations so that we can make extra money available to 
these programs.
    Mr. Chairman, I just want to mention one other area that I 
would hope that we would take a look at, and that is the link 
between substance abuse and child abuse. We have a crisis that 
we need to deal with, and we need to provide additional help to 
our States to deal with this issue. We know that somewhere 
between 50 to 80 percent of the parents of children who enter 
the child welfare system are substance abusers. We know there 
is a direct relationship between being a substance abuser and 
abuse of children. So I would hope that we would also figure 
out a way to provide additional help and resources in this 
direction.
    So, Mr. Chairman, I look forward to working with you in a 
bipartisan way so that we can bring legislation to the floor as 
quickly as possible.
    [The opening statement of Mr. Cardin follows:]
        Statement of the Hon. Benjamin L. Cardin, M.C., Maryland
    Mr. Chairman, I am pleased that we are focusing today on the 
Promoting Safe and Stable Families Program--a key part of the federal 
commitment to ensuring the well-being of our most vulnerable children. 
The Safe and Stable Families program will provide $305 million this 
year to States to fund four types of services: family preservation 
services for children and families that are at risk or in crisis; 
community-based family support services to help prevent abuse or 
neglect; time-limited family reunification services; and adoption 
promotion and support activities. This program is essential to 
improving child safety, stability, and permanence for at-risk and 
foster children.
    I was heartened by the Administration's proposal to increase 
funding for Safe and Stable Families by $1 billion over the next five 
years. I am hopeful this committee will quickly pass legislation to 
provide those requested resources, as well as new funding for the 
President's proposal on educational assistance for children aging out 
of foster care--an issue this committee worked on last year.
    But we should not stop there. We also need to examine more 
carefully the linkages between substance abuse and child abuse, 
particularly when we know that somewhere between 50 to 80 percent of 
the parents whose children enter the child welfare system are substance 
abusers. We must expand the substance abuse screening, prevention and 
treatment services available for families in the child welfare system, 
and provide funds to build partnerships at the state and local level 
between substance abuse and child welfare agencies.
    I look forward to hearing from our State witnesses on how they 
utilize funding from the Safe and Stable Families Program to improve 
family stability and child safety. Thank you.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Cardin.
    Before we move on to our testimony this afternoon I would 
like to remind witnesses to limit their oral statements to 5 
minutes. However, without objection, all the written testimony 
will be made a part of the permanent record.
    Will the witnesses please have a seat at the table. On 
today's panel we will hear from Betsey Rosenbaum, Director of 
Children and Family Services for the American Public Human 
Services Association.
    Mr. Cardin. If you can find your names. Fortunately, we are 
not videotaping this.
    While there is a break I want to welcome Linda Mouzon, if I 
might, who is the Executive Director of the Social Services 
Administration for the Maryland Department of Resources. It is 
a pleasure to have you with us.
    Mr. Camp. If I might also, James Beougher, who is the 
Director of Child and Family Services Administration for the 
Michigan Family Independence Agency, I would like to welcome 
him as well and look forward to his testimony. Thank you.
    Chairman Herger. Thank you, Mr. Camp.
    We do welcome you, Mr. Beougher; and we are very pleased to 
have the former chairman of this Subcommittee, Congressman 
Shaw. And Mr. Shaw--Congressman Shaw, would you like to 
introduce one of your constituents?
    Mr. Shaw. Yes, I certainly would. It is a constituent that 
we in Florida and certainly in my own city of Ft. Lauderdale 
are extremely proud of, and this is Judge Kathleen Kearney, who 
is no stranger to this Committee. She was very helpful to you 
in many areas of legislation having to do with adoption, having 
to do with foster care. She has a very distinguished record and 
now is the Secretary of the Florida Department of Children and 
Families, having been appointed in January 1999 by Governor Jeb 
Bush.
    I really got to know Judge Kearney very well during the 
period of very troubling time in Broward County, Florida, where 
we found that kids were lingering in foster care for 
extraordinarily lengths of time. I can tell you this is one 
lady you do not want to get on the wrong side of. And they got 
on wrong side of her, and she cleaned that mess up very, very 
quickly, both in her present position and also as a judge. She 
has been extraordinary. She has been just a tremendous resource 
and a spokesman for children.
    This particular Committee does wonderful work, and I think 
it is not known for what we do, the wonderful things we do for 
families and children in this Committee. I commend you for 
having this hearing. I compliment you for inviting Ms. Kathleen 
Kearney back to testify before us.
    Mr. Cardin. Would the gentleman yield for just a minute? I 
would like to join you in welcoming Judge Kearney. I was going 
to give her an honorary position in ourCommittee, she has been 
here so often testifying.
    Mr. Shaw. Well, I would accept that as your introduction. 
But I can tell you she was a great personal advisor to me when 
I chaired this Committee, and I am sure she is a wonderful 
resource for you to have with you here today.
    Thank you. Appreciate you giving me the privilege of 
introducing her.
    Chairman Herger. Thank you very much, Mr. Shaw.
    We appreciate having you with us, Judge Kearney. Also very 
pleased to have Linda Mouzon, Executive Director of the Social 
Services Administration for the Maryland Department of Human 
Resources; Dr. Fred Wulczyn of the Chapin Hall Center for 
Children, Chicago, Illinois.
    And, Mrs. Johnson, would you like to introduce----
    Mrs. Johnson. I would like to welcome Mr. Torres and Ms. 
Merrill to our hearing today.
    First of all, it is a great pleasure to have you here from 
the Casey Family Services. You have done such a wonderful job 
of a creative response and a kind of allied relationship to 
some of our teenagers. It is so important to their growing up 
to be adults. It was really a pleasure to sit at the--oh, 
shucks, what is the organization's name about adopted children 
that gives the dinner every year?
    Mr. Torres. North American Council on Adoptable?
    Mrs. Johnson. No, I will get it in a minute. But I sat with 
one of the kids in Connecticut who had come through your 
program--well, actually, he had been saved by your program. The 
problem is that he wasn't coming up through the foster care 
program. And really the opportunity that you give children and 
the support you give parents, adoptive parents and foster care 
parents and the independent living program, through those means 
to these children is really fantastic and has changed the 
course of life events for our young people in Connecticut.
    And, Ms. Merrill, I just am--it is a great pleasure to 
welcome you, but I really am in awe and admiration of your 
ability not only as a professional in the mental health area 
but also as a human being to be willing to not only provide 
foster care for older children, yourself adopt, devote yourself 
to foster care and adoption services to support families. They 
are very few out there who actually adopt older children from 
the foster care system. And you have done it with the not only 
great heart but from a professional--with professional training 
that has been a tremendous asset to the young lives that you 
have touched.
    Orphan Foundation, that is it. It is a name I hate. But it 
is true when you talk to these kids that is exactly what they 
are and what they have to contend with being.
    So I really appreciate both of your being here, and I know 
the Committee will benefit from your input. And, Judge Kearney, 
it is indeed a pleasure to welcome you. You have been a great 
service to this Committee.
    Chairman Herger. Thank you very much. With that, we will 
begin our testimony.
    Ms. Rosenbaum first, please.

 STATEMENT OF BETSEY ROSENBAUM, DIRECTOR, CHILDREN AND FAMILY 
SERVICES DEPARTMENT, AMERICAN PUBLIC HUMAN SERVICES ASSOCIATION

    Ms. Rosenbaum. Chairman Herger, Congressman Cardin and 
Subcommittee members, I am Betsey Rosenbaum, Director of the 
Children and Family Services Department at the American Public 
Human Services Association. APHSA has a longstanding interest 
in developing and promoting policies and practices that enable 
States to help our Nation's most vulnerable children and 
families.
    I want to thank you for the opportunity to testify today. 
We want to commend the Subcommittee for recognizing the value 
of the Promoting Safe and Stable Families program and for 
holding this hearing. We are pleased that the House and Senate 
and President Bush have included in their budgets an increase 
of $1 billion over 5 years for this program.
    Today's child welfare system serves some of America's most 
fragile and troubled children. In 1999, State CPS agencies 
received an estimated 2.9 million maltreatment reports, with an 
estimated 826,000 children found to be victims. As well, 
568,000 children were in foster care, 118,000 were waiting 
adoption, and 48,000 were placed for adoption.
    The Promoting Safe and Stable Families program is an 
important source of Federal funding for child welfare services. 
The 1993 enactment of the Family Preservation and Support 
Services program, later changed to Promoting Safe and Stable 
Families, offers States and communities a first-ever 
opportunity to begin fundamental reform of their child and 
family service systems. In the 7 years since, it has proven to 
be a vital source of support for vulnerable families. As you 
know, the four components of the program are family 
preservation, community-based family support, time-limited 
family reunification and adoption promotion and support 
services.
    For example, Mr. Chairman, in Chico, Safe and Stable 
Families funds a mentoring program that exposes young parents 
to healthy lifestyles and safe activities. In Gridley, funds 
provide education on parenting, health and safety issues. In 
fact, California is the largest recipient of these funds, with 
an allotment of $42 million, 15 percent of the total amount.
    The Safe and Stable Families program is an important 
funding source for post-adoption services, including child 
care, respite care, crisis intervention and educational 
support. It provides for family support services such as family 
resource centers, home visiting and parenting classes for 
teens. The program also supports intensive family preservation 
services.
    But, even with this program services to families remain 
underfunded. States have historically outspent the Federal 
government and it is time for a more equitable State and 
Federal financial partnership.
    When the child welfare financing structure was created over 
20 years ago, the assumption was that Title IV-B service 
funding would grow significantly, but it hasn't. Currently, 
over 6.5 billion Federal dollars are spend on out-of-home care, 
while $992 million are spent on prevention and intervention 
services.
    We believe that the following elements are essential for 
reauthorization:
    First, increased funding for the program as included in the 
House, Senate and President's budget.
    Second, additional funding is needed for other child 
welfare prevention sources, including CAPTA, which is also up 
for reauthorization, and the Social Services Block Grant.
    Finally, the law requires States to spend a significant 
portion of funds on each of the four service areas which HHS 
has divided into 20 percent per area. We urge to you change 
this definition to allow at least 50 percent of the funding to 
remain flexible.
    But, because there is no single comprehensive child welfare 
program at the Federal level but rather a collection of 
programs and requirements, the importance of the Safe and 
Stable Families program needs to be more broadly understood. 
Clearly, reauthorization of this program is critical, but other 
fundamental issues need to be addressed. These include the need 
for flexibility of Title IV-E funds for services other than 
foster care. We urge Congress to amend Title IV-E to give 
States the option to redirect Federal revenue for Title IV-E 
maintenance payments into their Title IV-B programs.
    Other priorities include making the child welfare waivers 
more flexible and addressing the connection between substance 
abuse and child welfare. These issues are addressed in 
Crossroads: New Directions in Social Policy, our transition 
report to Congress and the President, and as well is covered in 
my testimony.
    In conclusion, the current structure of child welfare is 
disproportionately directed toward out-of-home care and doesn't 
promote services that encourage child safety and family 
reunification. The Safe and Stable Families program provides 
agencies with the opportunity to direct funds to the challenges 
faced by individual families and fulfill important service 
system gaps. In summary, we support reauthorization with the 
needed funding and program flexibility.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Rosenbaum follows:]
 Statement of Betsey Rosenbaum, Director, Children and Family Services 
         Department, American Public Human Services Association

INTRODUCTION

    Chairman Herger, Congressman Cardin, Members of the Subcommittee, I 
am Betsey Rosenbaum, Director of the Children and Family Services 
Department at the American Public Human Services Association (APHSA), a 
non-profit bipartisan organization representing state and local human 
service professionals for more than 70 years. Thank you for the 
opportunity to testify today about the Promoting Safe and Stable 
Families Program, and the need for reauthorization of this vital 
program.
    As the national organization representing state and local agencies 
responsible for the operation and administration of public human 
service programs, including child protection, foster care and adoption, 
APHSA, and its affiliate association, NAPCWA, the National Association 
of Public Child Welfare Administrators, have a long standing interest 
in developing and promoting policies and practices that enable states 
to help our nation's most vulnerable children and families.
    On behalf of public child welfare administrators, I want to take a 
moment to commend this committee for recognizing the value of this 
program and for holding this hearing. I would also like to mention how 
pleased we are that the House, Senate and President Bush have included 
a significant increase ($1 billion over five years) for the Safe and 
Stable Families program in their budgets. Finally, I want to thank you 
and your staff for your continued willingness to work with APHSA on 
various issues of concern to our association and members.

BACKGROUND

    The child welfare system serves some of America's most fragile and 
troubled citizens--families in crisis and children who have been abused 
and neglected. Public child welfare agencies provide a broad array of 
services to children and families, including prevention and family 
support-services, early intervention and family preservation services, 
child protective services, foster care, and permanency and post-
permanency services. Public child welfare agencies also work closely 
with other public agencies that often deal with the same population, 
including TANF and Medicaid agencies, domestic violence programs, 
substance abuse treatment agencies and mental health programs.
    In 1999, state child protective services agencies received an 
estimated 2.9 million referrals alleging child maltreatment, with an 
estimated 826,000 found to be victims. As of September 1999, 568,000 
children were in foster care, and 118,000 children were awaiting 
adoption. In recent years, however, states have made great strides 
toward increasing the safety of children and moving them toward 
permanence. For example, in 1999, states found permanent homes for 
46,000 foster children, a 28% increase over the 36,000 adoptions in 
1998 and a 64% increase since 1996, when states found permanent homes 
for 28,000 children. States have been so successful in increasing 
adoptions that these numbers have exceeded Congressional budget 
expectations for the last several years.

THE PROMOTING SAFE AND STABLE FAMILIES PROGRAM

    The Promoting Safe and Stable Families Program, authorized as Title 
IV-B, Subpart 2, is an important federalsource of service funding for 
the child welfare system. The enactment in 1993 of the Federal Family 
Preservation and Support Services Program (FPSSP)--the name was later 
changed to the Promoting Safe and Stable Families Program in the 1997 
reauthorization--offered states and communities a first-ever 
opportunity to begin fundamental reform of their child and family 
service systems in order to better protect children and support 
families. It was intended as a catalyst for building a comprehensive, 
community-based service system for children and families that is more 
responsive to individual needs. The program provided funds for the 
first time for broad-based and ongoing planning to identify resources 
and needs in states and communities and to implement necessary system 
improvements, as well as for a range of community-based preventive and 
supportive services designed to strengthen families, to help prevent 
crises and to help families cope better when crises occur.
    In the seven years since this program was established, it has 
proven to be a vital source of support for vulnerable families. Since 
1993, important reforms have been instituted, including passage of the 
Adoption and Safe Families Act (ASFA), dramatic increases in adoption 
and new models for service provision to help achieve safe and permanent 
placements for children, whether they are with their families, other 
relatives, or adoptive homes. In short, the Promoting Safe and Stable 
Families Program is an important adjunct to the success of ASFA and we 
fully support reauthorization.
    However, even with the Safe and Stable Families Program, services 
that protect child safety and promote reunification remain underfunded 
by the federal government. The needs of the state child welfare systems 
far outstrips the resources that are now provided with federal funding. 
With states historically outspending the federal government, we believe 
it is time for a more equitable state-federal financial partnership, 
particularly in the area of services funded under Title IV-B, including 
the Safe and Stable Families Program--IV-B, Part 2. When the Title IV-E 
financing structure was created almost 20 years ago, the assumption was 
that Title IV-B service funding would grow significantly--an assumption 
that has been unfulfilled. The reality is that Title IV-B funding has 
not grown commensurate with practice and service needs. Under the 
current financing structure, the Congressional Budget Office (CBO) 
expects spending on removal and placement to average nine times as much 
as spending on services and prevention between 1999 and 2003. 
Similarly, over the same period, funding for the removal and placement 
system will grow from $4.8 billion to $6.5 billion, or by 35 percent. 
By contrast, funding of service and prevention activities will grow by 
only 9 percent, from $.57 billion to $.62 billion.
    The four components of the Promoting Safe and Stable Families 
Program--family preservation services, community-based family support 
services, time-limited family reunification services, and adoption 
promotion and support services--provide vital prevention, early 
intervention, reunification, and post-placement services and support.
    In its current form, the law requires states to spend a 
``significant portion'' (which has been defined by HHS as 20 percent) 
of funds on each of the four service areas. States believe that this 
interpretation does not provide sufficient flexibility, as states may 
need to spend more than 20 percent of this limited pot in more than one 
category to adequately respond to the spectrum of needs of children and 
families in their particular jurisdiction and to fill the gaps in 
service delivery systems.
    The following are some specific examples of how states are spending 
Safe and Stable Families funding to target the problems of their 
particular service populations:
California
    Mr. Chairman, your home state of California has a statewide 
Promoting Safe and Stable Families allocation of $42 million--15% of 
the total allocation--the largest recipient of these funds. This 
funding allows all of California's 58 counties to provide a spectrum of 
services to maintain safety and well being for the state's children. In 
smaller counties where resources are scarce, the program provides 
flexible funding that allows counties to meet the diverse needs of 
their populations. For example, Mr. Chairman, in your district, in 
Chico, Butte County targets young parents with a mentoring program that 
exposes the young parents to healthy lifestyles and safe activities for 
their families. In addition, the Family Challenge program helps young 
parents develop communication and conflict resolution skills. Another 
example in is the Gridley community, where the county offers education 
and networking on parenting, health, and safety issues. The program 
provides culturally relevant and informal support systems for the 
families in the community. The Gridley project also provides direct 
support services including home-visiting, assistance with qualifying 
for the Woman, Infants and Children Program, and assistance with 
immigration, taxes, housing and food. In Shasta County services are 
provided through an umbrella program called Great Beginnings. Great 
Beginnings provides a spectrum of services including home-based 
supportive services to families that have been referred through Child 
Protective Services. During the first six months of federal fiscal year 
2001, 17 families have received services and have been able to maintain 
their children safely in their homes. This program also provides early 
home-based prevention services for families with children aged 0 to 5, 
with an emphasis on 0 to 3 year olds. Referrals come from the major 
hospital in the county that provides maternity care. In the first six 
months of federal fiscal year 2001, 28 families have received services. 
Many other counties throughout California use funding from the 
Promoting Safe and Stable Families program to achieve safety and well 
being for children and their families.
Post-Adoption Services
    Money from the Safe and Stable Families Program is also often an 
important funding source for post-adoption services. According to a 
recent APHSA publication--Report on Post-Adoption Services in the 
States, services including child care, respite care, crisis 
intervention, educational support, medical services, individual and 
family therapy, support groups, residential treatment, day treatment, 
case management, in-home services and parent training--all important 
services for keeping families together--are funded through the 
Promoting Safe and Stable Families Program. With the tremendous 
increases in adoptions since the passage of ASFA, post-adoption 
services will be critical to ensure that these adoptions remain 
permanent and stable, and that services are provided to address the 
ongoing needs of some of these children, who often have serious 
emotional, physical, and behavioral problems.
Family Support
    We know from what states have been reporting for the last few years 
that a variety of family support services are supported by Promoting 
Safe and Stable Families funds. Among the types of family support 
services that are most frequently available are family resource 
centers, which offer such services as parent education, child care and 
parent support groups. Also available are home visiting for vulnerable 
families with children, school-based family services, supportive and 
intensive services to families, and nurturing programs. The funds are 
also used to provide structured social time for families, parenting 
education (such as training on child development), parenting classes 
for teen mothers, child care and respite care.
Family Preservation
    The Promoting Safe and Stable Families Program also supports family 
preservation services, including the development or expansion of 
intensive family preservation services; the expansion and strengthening 
of family preservation services; the provision of services to families 
that are not at imminent risk but who need help to prevent more serious 
family difficulties; the development and expansion of substance abuse 
treatment services for high-risk families, and the development of 
crisis hot lines and the provision of one-time help with housing, food, 
clothing and other basic needs.
    These examples illustrate the important role this program plays in 
keeping families together and children safe. The need for 
reauthorization is clear.

PROPOSALS FOR REATHORIZATION

    Child welfare agencies can and do serve an important role in 
keeping children and families out of the foster care system by 
providing prevention, services and family support. While we are 
supportive of the Promoting Safe and Stable Families Program, including 
resources being used for evaluation, research and training and funding 
going to Indian Tribes and court improvement, APHSA believes that the 
following elements are essential for reauthorization if Promoting Safe 
and Stable Families is to continue to be an effective program:
    <bullet> We endorse increasing the funding level for the Promoting 
Safe and Stable Families Program by the $1 billion over five years 
included in the President's Budget Blueprint and the House and Senate 
Budget resolutions.
    <bullet> While $1 billion over five years is an important first 
step toward providing resources to the front end of the child welfare 
system, additional funding is also needed in other prevention sources, 
including the Child Abuse Prevention and Treatment Act (also up for 
reauthorization this year) and Title XX--the Social Services Block 
Grant, which states often use for child welfare services.
    <bullet> We believe that the current four service components listed 
above remain appropriate, however we urge the committee to amend the 
HHS definition of ``significant portion'' from 20% to a level where at 
least 50 percent of the funding remains flexible, allowing states to 
make decisions on allocation of the funding among the four service 
areas based on children and family needs.

BROAD CHILD WELFARE CONTEXT

    As I stated earlier, the Promoting Safe and Stable Families Program 
exists within a larger framework of child welfare. Because there is no 
single, comprehensive child welfare program at the federal level, but 
rather a collection of programs, grants, funding streams, and 
legislative and regulatory requirements, the value and importance of 
Promoting Safe and Stable Families can only be understood within this 
larger context. While the reauthorization of this program is critical, 
there are additional fundamental child welfare issues that must be 
addressed.
The Adoption and Safe Families Act (ASFA)
    The Adoption and Safe Families Act (ASFA), passed by Congress in 
1997, which included reauthorization of the Promoting Safe and Stable 
Families Program, places numerous new requirements on states to move 
more children to permanence in shortened timeframes. ASFA holds states 
accountable for achieving outcomes for children with respect to safety, 
permanence, and well being, and requires an annual report to Congress 
on state-by-state performance. It also requires a new federal review 
system with penalties tied to outcomes. This review process has now 
begun, with the first six states being Delaware, North Carolina, 
Vermont, Minnesota, Oregon and New York.
    In the three years since ASFA's enactment, states have demonstrated 
significant progress, not only because of the new law but also because 
of state initiatives that were in place prior to the law. However, the 
federal government has not provided any additional resources to support 
state's efforts to meet these new mandates. These accomplishments have 
occurred despite the substantive effort required by states to implement 
the new ASFA requirements.
Flexible Funding
    In our work, particularly in Crossroads: New Directions in Social 
Policy, APHSA's transition report to Congress and the President 
released in February, we have written about and promoted extensively 
the need for investments in and increased flexibility for child 
welfare. We see these approaches (flexibility and increased resources) 
as interrelated--both are required for effective child welfare practice 
and to meet the demands of ASFA.
    In Crossroads, we proposed new approaches for Title IV-E 
flexibility because we believe the financing structure established in 
1980 no longer works. The current structure of federal child welfare 
funding does not adequately support the outcomes for the children and 
families that public child welfare agencies, Congress, the federal 
government, child advocates, and the public seek to achieve. The 
biggest share of this federal funding is disproportionately directed 
toward funding out-of-home care--the very part of the system that 
agencies are seeking to minimize to achieve greater permanence for 
children.
    APHSA's first priority is that Title IV-E be allowed to be used 
more flexibly for services other than foster care maintenance payments, 
such as front-end services, reunification, or post-permanency services 
for children who come to the attention of the child welfare system. 
Specifically, we urge Congress to amend the Title IV-E statute to give 
states the option to redirect federal revenue for IV-E maintenance 
payments into their Title IV-B programs. This transfer option would 
provide states with flexibility to reinvest federal revenue into other 
child welfare services that promote safety and permanency, whenever 
foster care caseloads are reduced, while maintaining accountability for 
outcomes.
Focus on Outcomes and Agency Capacity Building
    In recent years, public child welfare has increasingly focused on 
outcomes as a way to measure the achievement of positive results for 
children and families. The changes to federal law made under ASFA have 
heightened this attention to outcomes and accountability even more. The 
child welfare field has agreed upon safety, permanence, and well-being 
as desired outcomes for children in the child welfare system. The field 
also has emphasized increasing the number of adoptions, reunifications, 
and guardianships; decreasing the length of time in foster care and the 
length of time for achieving permanent placements; and reducing the 
number of children in foster care and the incidence and recurrence of 
abuse and neglect.
    Even with these substantial strides, the system lacks the full 
capacity for achieving outcomes. Child welfare practice has become more 
and more complex, with tremendous demands on the system, with 
increasingly challenging populations, high caseloads and scarce 
resources, interstate issues, overrepresentation of children of color, 
and increased expectations and requirements. In recent years, children 
and families who come to the attention of child welfare increasingly 
exhibit multiple problems that require a coordinated response from 
multiple public agencies and service systems outside of child welfare. 
It is not unusual for families to have serious substance abuse 
problems, mental illness, or domestic violence concerns; in fact, it is 
not unusual for a family entering the system to enter it with all of 
these problems.
    ASFA and the prevailing focus on improving outcomes make the need 
for comprehensive federal financing even more imperative. To improve 
outcomes for children and to attain positive results, the child welfare 
system must have the necessary capacity to achieve those goals and 
enough of the appropriate resources to conduct the appropriate 
interventions and best practices that will yield the best possible 
results for children and families.
Title IV-E Waivers
    Another priority area for APHSA, and an additional way to make 
federal child welfare funding more flexible, is to expand the Title IV-
E Child Welfare Demonstration Waivers authorized under ASFA and to 
increase their flexibility. According to state child welfare agencies, 
the current waiver process limits innovation and is not responsive to 
the sense of urgency to change the child welfare system. Other concerns 
include current policies prohibiting approval for multiple states to 
test similar innovations, such as subsidized guardianship; restrictive 
research, control groups, and random assignment requirements; cost-
neutrality methodology; and limitations on statewide approaches. While 
the waiver program has enabled some states to reinvest federal foster 
care funding in services and other activities to improve their systems 
and promote permanence, in its current mode of HHS implementation, it 
is a promise unfulfilled and will not meet state's needs for the 
flexibility necessary to achievebroad systems change.
    APHSA strongly supports making substantial modifications to the 
current Title IV-E waiver process to allow more flexibility and to 
foster system change, including eliminating the limited number of 
waivers HHS can approve; eliminating approval criteria that require 
random assignment and control groups that limit statewide approaches; 
eliminating the limited number of states that may conduct waivers on 
the same topic; eliminating the limited number of waivers that may be 
conducted by a single state; and enabling states to continue their 
waivers beyond five years.
    We plan to work with the Administration on this issue, as many of 
these limitations can be addressed through administrative policy and 
implementation changes. We do appreciate the interest this subcommittee 
showed regarding increasing the flexibility of IV-E waivers in the 
106th Congress, and hope that you can address the statutory barriers to 
successful implementation of the waivers, especially the limitation on 
the number of waivers HHS may approve.
Child Welfare and Substance Abuse Partnerships
    The connection between substance abuse and child abuse is another 
issue of concern for state human service administrators and the 
families they serve. Substance abuse is estimated to be a factor in 
over one-half of child abuse and neglect cases. In Crossroads, APHSA 
calls for enhanced federal resources to address this critical issue. To 
ensure safety and permanence for children in the child welfare system 
and appropriate alcohol and drug treatment and prevention services for 
their families, new cross-agency partnerships are needed. Child welfare 
and alcohol and drug prevention and treatment agencies must work 
together at federal, state and local levels and with other service 
providers, the courts, communities and families. While there are a 
growing number of best practice models being developed throughout the 
country, there are insufficient resources to address the magnitude of 
the problem. To fulfill ASFA requirements, it is critical that child 
welfare and substance abuse agencies and providers have the resources 
they need in order to collaborate and serve these families.
CLOSING COMMENTS
    Finally, let me repeat that the current structure of child welfare 
is disproportionately directed toward funding out-of-home care, and 
does not promote services that encourage child safety or promote family 
reunification. One of the important features of the Promoting Safe and 
Stable Families Program is that it provides the agencies serving these 
families with the opportunity to direct funds to challenges faced by 
the individual families being served.
    APHSA's vision for child welfare is a society where children are 
free from abuse and neglect, and living in safe, stable, permanent 
families--where children and families have needed supports and can help 
themselves. When children are at risk and come to the attention of the 
public agency, the agency can provide services and supports to them and 
their families to mitigate their problems and prevent them from being 
removed from their families and communities. When children must come 
into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where not possible, 
can find an alternative permanent placement expeditiously, while 
assuring their well-being in the interim. This is a vision where there 
is a family-centered, strengths-based approach to serving families; 
where the safety and protection of children is the shared 
responsibility of all parts of the human services agency and the larger 
community. If all parts of the human service system fulfilled their 
mission, the child welfare caseload could be greatly reduced.
    APHSA's vision for the child welfare program is a system that has 
the capacity to do the above and to improve outcomes for children and 
families and one in which the federal government and states are equal 
partners (along with communities) in serving all children in all parts 
of the system.
    In conclusion, APHSA and the public child welfare administrators 
support reauthorization of the Promoting Safe and Stable Families 
Program. Funding for this program must be preserved, increased and made 
more flexible in order to effectively address the needs of our nation's 
children and families.
    Thank you for the opportunity to testify. I would be pleased to 
respond to any questions you may have.
    Chairman  Herger. Thank you, Ms. Rosenbaum. Now we will 
hear from Mr. Beougher.

  STATEMENT OF JAMES E. BEOUGHER, DIRECTOR, CHILD AND FAMILY 
  SERVICES ADMINISTRATION, MICHIGAN FAMILY INDEPENDENCE AGENCY

    Mr.  Beougher. Good afternoon Mr. Chairman and Members of 
the Subcommittee. I am here representing the Michigan Family 
Independence Agency.
    I want to thank you for the opportunity to share Michigan's 
experiences and perspective on the reauthorization of Promoting 
Safe and Stable Families. This legislation enables States to 
develop programs that focus on the issues that most affect 
vulnerable children and families, protection from abuse and 
neglect.
    In Michigan, family preservation programs are key in 
providing an effective spectrum of intensive services to 
families with complex needs. These families can be birth 
families, foster families or adoptive parents.
    Utilizing family preservation programs comes with the 
critical responsibility to evaluate their effectiveness. 
Michigan has identified key design components that must be 
present if programs are to successfully achieve their goals. 
They are: The child and family must be active Members in the 
decisionmaking process and experience ownership in achieving 
the goals of safety and stability. Programs must be based on 
sound models working with the family and their community and 
building upon natural support systems. Uniform training of 
service providers is critical. Outcomes and expectations must 
be articulated and monitored. Quality assurance processes must 
be built into the program, and ongoing technical assistance and 
training must be mandated and provided.
    We have reviewed national studies that claim family 
preservation models show no significant differences between 
families who receive these services and those that do not. 
Michigan's experience casts doubt on that assertion.
    Our Families First of Michigan program began in 1988. 
Families First focuses on providing a broad variety of 
intensive home-based services for families to ensure child 
safety. Critical to its success, resources must be available to 
families 24 hours a day, 7 days a week; and we require 
comprehensive staff training and monitoring for strict 
adherence to the model.
    Since 1992, Families First has undergone a series of formal 
evaluations that haveconcluded the program is effective in 
reducing out-of-home placement and is cost effective as compared to 
foster care. The most recent study included only cases where the court 
had first found probable cause for placement into foster care as well 
as a rigorous experimental control design including random assignment 
to the control group or the experimental group. Empirical data 
established that these intensive services resulted in 93 percent of 
Families First children living at home, compared to 43 percent of those 
in the foster care control group 1 year after Families First case 
closure. Additionally, less than 1 percent of Families First families 
experienced a subsequent occurrence of substantiated abuse, when 
compared to 6 percent in the foster care group.
    A second program that we have is called our Family 
Reunification program. It also ensures integrity to the 
training and monitoring process. Again, an independent 
evaluation, in this instance funded by a foundation, found 
significant impact. At 12 months, 85 percent of the children 
completing the program had returned to and remained safely in 
their home, compared to 68 percent of the children who were 
placed in regular foster care. There was an additional savings 
of $5,000 per child due to reduced placement cost.
    Michigan's commitment to providing a broad spectrum of 
family preservation services is also evident in our Family 
Group Decision Making program, which ensures safety and 
stability within kinship placements and builds upon the family 
commitment to their children by using a team approach between 
the children's protective services worker, the Family Group 
Decision Making provider and the extended family.
    Michigan's Lenawee County has been nationally recognized 
for its success of using this model for Native American 
children. In 1999, out of 26 children in out-of-home care in 
this small county, 20 were of Native American decent, even 
though they were only 2 percent of the population. Currently, 
only two Indian children remain in foster care, and no new 
referrals of Indian children have occurred since the pilot 
began 18 months ago.
    Our universal commitment to the principles of assuring 
children's safety, providing a stable home environment and 
opportunities for growth and permanency is evident in all of 
our preservation programs. Though time does not permit an in-
depth accounting system, similar options can be found in 
Lenawee County where wraparound service has reduced the number 
of children housed in residential care from 24 to 2 and 
decreased the rate of placement into residential care from 18 
per year to 1.
    The common thread in the success of these programs is the 
intensive family-centered design of the service models, clearly 
defined outcomes and effective monitoring activities. I believe 
we have provided you some key evidence-based data to consider 
which presents the success of family preservation programs in 
achieving the goal of child protection stability. Thank you.
    [The prepared statement of Mr. Beougher follows:]
  Statement of James E. Beougher, Director, Child and Family Services 
          Administration, Michigan Family Independence Agency
    I am James E. Beougher, Director of the Child and Family Services 
Administration, the Michigan Family Independence Agency (MFIA), and I 
am submitting this statement for the record on behalf of the Michigan 
Family Independence Agency and the American Public Human Services 
Association (APHSA) regarding the reauthorization of Title IV-B, 
Subpart 2 of the Social Security Act, Promoting Safe and Stable 
Families.
    Promoting Safe and Stable Families enabled many states, Michigan 
among them, to develop programs and initiatives that focus on 
identifying those important issues most affecting vulnerable children 
and families; those needing protection from abuse and neglect. It is 
critical to continue this funding to promote opportunities for states 
to develop effective service delivery strategies if they are to achieve 
this overarching goal of child protection.
    In Michigan, our Family Preservation programs are a critical 
component in the state's ability to provide a broad spectrum of 
intensive services to families with complex needs. These families can 
be birth parents, foster-parents, or the adoptive families of these 
children.
    With the ability and encouragement to be creative in the 
development of Family Preservation programs came the responsibility to 
evaluate the effectiveness of these services in achieving the goal of 
protecting children, strengthening all families, and promoting and 
encouraging permanency for children. We have identified several 
components that must be present in the design of an intervention if it 
is to be effective.
    In Michigan, we have found that our Family Preservation programs 
are successful in achieving these goals based on the inherent design 
philosophy of providing access, voice and ownership to the children and 
families they are created to serve. Access provides the parent and 
child with valid options for inclusion in the decision-making process 
that impacts their family. Voice provides the parent and child with the 
opportunity to have their concerns heard and to ensure that their needs 
are addressed at all stages in the case planning. Finally, ownership 
provides that the parent and child agree with and, most importantly, 
are committed to the plan that is developed to assist them.
    Family Preservation programs focus on meeting the immediate needs 
of the family to promote stability. Traditionally, where child safety 
issues are present, parents are often referred to counseling as a 
primary service. In Family Preservation programs, those factors that 
result in risk to the child are identified and immediately remedied. 
For instance, if a family does not have housing, counseling will not 
make an appreciable difference in the family's ability to provide a 
safe and stable environment for their children.
    Equally as important in the success of these intensive intervention 
programs is the fundamental design of the service model itself. 
Services, and those that deliver these services, must view families as 
partners, as being part of the solution rather than being the problem.
    The programs must be based on sound ecological models, working with 
the family in their natural environment, utilizing their strengths, 
values, and beliefs and those of their community and natural support 
systems. Michigan has been aggressive in developing, monitoring, and 
evaluating programs that comport with these basic family centered 
philosophies.
    Another critical tenet of our Family Preservation continuum is to 
ensure that the communities in which our families live are active 
partners with the state, local human service providers, schools, faith 
community and families. To assure success in achieving the goals of 
protecting children or reuniting families, several critical operational 
mandates must be adhered to.
    In Michigan, these include:
    <bullet> Uniform training provided statewide to family preservation 
service providers;
    <bullet> Contractual service providers of these intensive services 
are community based to ensure relevancy of services;
    <bullet> Defined outcomes and expectations for family preservation 
programs are clearly articulated and monitored;
    <bullet> Defined quality assurance processes are built into the 
family preservation program models and are monitored to ensure 
adherence to the model; and
    <bullet> Technical assistance and training is on-going and is 
provided by state-level collaborative partnerships to ensure relevance 
and effectiveness.
    There are national studies that claim Family Preservation models 
show no significant differences between families who receive Family 
Preservation services and those that receive conventional services. I 
would like to highlight several family preservation programs in 
Michigan that are particularly effective and that have evidence-based 
findings which objectively measure those successes.
Families First of Michigan
    The Families First of Michigan program, which is based on the 
HomeBuilders model, is family-centered and home-based providing a broad 
variety of intensive services to families in need. Families First 
service providers are available to the families they serve 24-hours a 
day, 7-days a week for not more than 6-weeks. Families First of 
Michigan began in 1988 as a response to the upward trend in rising out-
of-home care placements.
    In 1988, Michigan's placement data showed that 70-80 percent of all 
Michigan children placed out-of-home were removed from their families, 
not because of abuse, but because of chronic neglect related to poverty 
and drug abuse. The primary goal of Families First has always been to 
ensure the safety and well being of children, with the secondary goal 
of decreasing the amount of dollars spent on out-of-home care.
    Families First began with a pilot in 1988 in 16 Michigan counties. 
By 1993, Families First had been expanded to all 83 counties in 
Michigan, including several federally recognized Indian Tribes, Family 
Courts, Community Mental Health agencies and Domestic Violence 
shelters.
    Since 1992, Families First has been the subject of a series of 
formal evaluations that conclude the program is effective in reducing 
out-of-home placement and is cost effective when compared to foster 
care. The most recent study utilized the following protocol to 
determine its' findings:
    <bullet> A rigorous, experimental/control design including random 
assignment to either a control group (foster care) or the experimental 
group (treatment at home by Families First); and,
    <bullet> Included only cases where the court found cause to order 
placement in foster care (or other out-of-home setting).
    Data from this study showed:\1\
---------------------------------------------------------------------------
    \1\Michigan Families First Effectiveness Study: A Summary of 
Findings. Betty J. Blythe, Ph.D., Boston College Graduate School of 
Social Work and Srinkika Jayaratne, Ph.D., The University of Michigan 
School of Social Work

------------------------------------------------------------------------
             Families first                        Foster care
------------------------------------------------------------------------
79% of families were contacted by        On average, 22-days passed
 workers within 24-hours of referral to   until workers made the initial
 Families First.                          contact with the family.
2-months after referral, no cases        2-months after referral, 88% of
 remained open. The average length of     the case remained open.
 intervention was 28-days.
Workers reported spending an average of  Workers reported spending an
 41-hours, 17-minutes in face-to-face     average of 4-hours in face-to-
 contact with families during program     face contact with the families
 involvement.                             over the first 6-weeks of
                                          service.
At the 12-month follow-up, 93% of the    At the 12-month follow-up, 43%
 children were living at home.            of the children were living at
                                          home.
For those children who did enter out-of- During the same 12-month
 home placement, the average length of    period, control group children
 stay was 67.3 days.                      averaged 182 days in
                                          placement.
Less than 1% experienced a subsequent    6% had subsequent reports of
 report of substantiated abuse.           substantiated abuse.
------------------------------------------------------------------------

    The Families First Effectiveness Study also found that to be 
effective strict adherence to a model is a critical component. To 
maintain the integrity of the program model, comprehensive staff 
training has continued to be a high priority for Families First. 
Additionally, the program provides family preservation specialists at 
the state level who support and monitor the work of the provider 
agencies. These specialists conduct monthly on-site visits to review 
referrals for appropriate targeting, provide case consultation along 
with clear guidelines, and monitor service delivery, program 
utilization rates and outcome data to ensure model integrity. The 
program also includes a quality assurance coordinator who regularly 
provides consultation and guidance to the agencies in the program 
operations.
    The Michigan Office of the Auditor General specifically cited what 
they identified as ``noteworthy accomplishments'' of the Families First 
Program in the Performance Audit of Families First released in July of 
1998. That audit specifically stated:
    The Program has shown that it can be a cost-effective alternative 
to out-of-home placement for certain eligible children. Intensive 
efforts to safely maintain a child in the parents' home when the child 
is at imminent risk of out-of-home placement can result in significant 
savings to the state. The program places a high priority on the safety 
of children. Also, these caseworkers spend, on a daily basis, a 
significant amount of their time in the families' homes working with 
the parents and monitoring the safety of children.
    Some of the data reviewed by the Auditor General establishing these 
findings related to Families First is a twelve-year review as follows:

                    HISTORICAL DATA ON FAMILIES FIRST
                     [September 1998--November 2000]
------------------------------------------------------------------------
                                                              Percent of
                                                               families
           Time period               Children     Families      intact
                                      served       served     after 12-
                                                                months
------------------------------------------------------------------------
Fiscal year 1995.................        9,948        4,218         83.3
Fiscal year 1996.................        9,453        3,926         86.1
Fiscal year 1997.................        9,308        3,803         83.9
Fiscal year 1998.................       10,246        3,979         83.0
Fiscal year 1999.................        9,642        3,918         84.9
Total since 1988.................       89,200       36,977         84.0
------------------------------------------------------------------------

Family Reunification
    Another key in Michigan's successful continuum of Family 
Preservation programming is the Family Reunification Program (FRP). The 
Family Reunification Program was created in response to growing public 
concern about the increasing numbers of children placed in out-of-home 
care and the lack of effective family-based alternatives. In an effort 
to prevent repeated out-of-home placement and safely return children to 
their families, MFIA initiated the FRP to provide intensive home-based 
services.
    The FRP was implemented from 1992-1996 by MFIA utilizing three 
contract agencies serving a 12-county area in southeast Michigan. All 
three sites administered the same model, which offered assessment, case 
management, 24-hour services, and at least two staff (one Bachelor and 
one Master degree level) working together to provide direct services to 
children and their families. Family Reunification Services required 
families to participate in strength-based assessment, family or 
individual therapy, parenting skill classes, and family workshops. All 
services were offered through the providing contract agencies. Staff 
also conducted on-going assessments of the risk to children throughout 
the program.
    The original pilot of the FRP underwent an evaluation by the 
Skillman Foundation.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ An Evaluation of the Michigan Family Reunification Program: 
1992-1997; the Skillman Foundation
---------------------------------------------------------------------------
    Synopsis of the findings from that evaluation are as follows:
    Finding No. 1.--The Family Reunification Program was effective in 
reunifying families by enabling 85% of the children completing the 
program to return and remain home safely without evidence of abuse or 
neglect. After 12-months, 85.4% of the children completing the FRP were 
able to remain in their homes compared to 68.6% of the statewide foster 
care children, and 68.5% of the 12-county comparison group who were 
still in their homes.
    Finding No. 2.--The children that experienced an additional out-of-
home placement after receiving Family Reunification services returned 
home in a shorter period of time than those not receiving services.
    Finding No. 3.--The FRP was cost effective. It saved the state 
$5,283 per child for the 18-month period following the return of the 
child from out-of-home placement. These savings result from a 
comparison of the cost associated with the treatment group for the 18-
month period following the child's return home (an average cost of 
$3,830 per targeted-completed child, which includes the cost of six 
months of FRP services). With the cost associated with the comparison 
group for the 18-month period following the child's return home (an 
average cost of $9,883 per child).
    Human cost was also positive by reducing abuse and neglect after 
children returned home.
    Finding No. 4.--The program was equally effective for families 
typically considered ``hard to serve'' (e.g. those with histories of 
substance abuse, domestic violence, poor health, and disabilities).
    As a result of the Skillman findings, we have established Family 
Reunification Services in fourteen of the largest and most populous 
counties in Michigan. The program has the capacity to serve 1,152 
families each year and the program will expand to other counties in 
Michigan as funding becomes available.
Family Group Decision Making (FGDM)
    Michigan's commitment to providing the broadest spectrum of Family 
Preservation services possible to address those multiple issues of 
families with complex needs continues with the Family Group Decision 
Making Program pilot.
    Over the past several years, MFIA has formally recognized that 
Kinship care provides continuity for abused or neglected children's 
familial and cultural relationships. Michigan recognized that what is 
needed, and is oftentimes missing, is a tool that can be utilized to 
ensure safety and stability within kinship placements that also builds 
upon the existing family commitment to children. Providing an 
opportunity for family to invest in and become active participants in 
ensuring child well-being is a critical piece of the Family Group 
model.
    FGDM acknowledges that families can, in most cases, make the most 
well informed decisions and find safe solutions to issues of abuse and 
neglect. It emphasizes that families have the responsibility to care 
for their children and to provide them with a sense of security and 
belonging. Family, within the FGDM model, is broadly defined to include 
blood and legal relatives (adoptive parent, stepparent or guardian), 
tribal elders, neighbors, a child's friend, godparent, teacher, clergy 
and anyone who has a significant relationship with the parent and/or 
child.
    FGDM utilizes a team approach between children's protective 
services workers and the FGDM contracted providers to identify 
concerned members of the child's family and community network. Family 
meetings are convened to develop a safety plan for the child. This plan 
becomes the cornerstone of support, assessment and casework services 
for families by creating a safe environment for the children in the 
kinship structure.
    The program objectives are to:
    <bullet> Support family decision-making regarding the care and 
protection of children and create a family support system focused on 
safety and stability;
    <bullet> Increase the role of family in the care and protection of 
children;
    <bullet> Increase the number of children remaining safely in their 
homes or with extended family;
    <bullet> Reduce the number of out-of-home placements; and,
    <bullet> Decrease the number of children's protective service re-
referrals and re-substantiations.
    In Michigan, there are currently six counties involved in the FGDM 
demonstration project. The Michigan model includes an after-care 
component that provides for a FGDM advocate to continue working with 
the family for up to one year to assist them in the on-going 
implementation of their safety plan.
    There have been 70 referrals made to FGDM involving 254 high-risk 
children. Of those referrals, 91% of the families agreed to participate 
in the process. In 98% of safety plans developed, the MFIA children's 
protective service worker approved the plan as meeting the needs of the 
child for continued safety. In the last year, 75% of the cases were 
closed as having successfully achieved their goal.
    One of the greatest successes of the FGDM model has been in 
Leelanau County in northern Michigan. Leelanau is home to the Grand 
Traverse Band of Ottawa and Chippewa Indians. In January of 1999, 
Leelanau County MFIA was supervising 26 children in foster care, 20 of 
which were Native American. In Leelanau, 77% of their placements into 
foster care have been historically children of Native American descent 
while the overall population of Native Americans in the county is less 
than 2%.
    The Grand Traverse Band embraced the concept of empowering families 
and tribal community members to self-determine a goal and plan to keep 
their children safely in their local community. As a result of this 
partnership and implementation of the FGDM model, only two (2) Native 
American children remain placed out-of-home in Leelanau County and 
there have been no new referrals for out-of-home placement since the 
pilot began.
    The MFIA Director, Douglas Howard, in his support of FGDM stated, 
``Family Group Decision Making is a program whose success has been 
proven time and time again. It is strength based, family driven, 
culturally appropriate and broadly embraced by families, service 
providers and the MFIA staff. We are encouraged with these pilot 
results and hope to continue to build upon these successes through 
expansion of this model.''
    In Michigan, we are strongly committed to the principles of 
ensuring children's safety. We provide them with a safe and stable home 
environment, opportunities for growth and permanency through the use of 
community based programming, and empowering them and their families to 
be partners in those critical decisions that impact them.
Wraparound
    In keeping with this philosophy, one of the most effective Family 
Preservation interventions available for working with children with 
Severe Emotional Disturbance (SED) is the Wraparound Process. 
Wraparound is a home-based inclusive model of service delivery that 
provides intensive services to families in need.
    As with the other Family Preservation programs highlighted here, 
Wraparound has been successful because the services are determined by 
the family in collaboration with professionals and support persons of 
their choice. It is family centered, strength based and community 
driven. Quality Assurance tools and adherence to the model is a key 
component of Wraparound's success. Michigan is a pilot site for the 
field testing of the Wraparound Quality Assurance Process that is being 
developed by John VanDenBerg and Jim Rast of Vroon--VanDenBerg, Denver, 
Colorado.
    The success of Wraparound is most apparent in counties that have a 
strong commitment to the provision of Wraparound services as a 
community philosophy. One such county is Lenawee County in southeast 
Michigan.
    In 1990, there were 200 children in family foster care. Twenty-four 
children, ages 6-12, were placed in a residential treatment facility 
and were diagnosed as needing residential services until they reached 
18 years of age. Wraparound was introduced to the community and 
immediately engendered a strong commitment within the community to 
implement this intensive service delivery process.
    Four conditions were present that inspired this community support:
    1. A perceived need for change--county officials noted a crisis in 
the escalating foster care caseload, a shortage of available foster 
homes, high costs for out-of-home placements and the harm to children 
while placed in care.
    2. Leadership in the MFIA, Community Mental Health and the Court 
were successful in convincing staff and the community that a new and 
better way to protect children and strengthen families could be found 
through collaborative community-based efforts.
    3. Wraparound, as a process, had proved success elsewhere in the 
nation and was easily replicable in any community.
    4. Resources were available to support the project effort. The 
county commissioners appropriated funds, as did MFIA, the Courts and 
the community Mental Health Agency. In addition to this funding, these 
agencies became partners in moving service delivery in the county from 
system driven, deficit based to family driven, strength based.
    As a result of this philosophical shift, out-of-home placements 
began to drop dramatically. In the first year of implementation, the 
number of children in care dropped from 200 to 166. This decrease in 
out of home care continued at a dramatic pace through 1997 when only 64 
children were placed in out-of-home care. Placements in the residential 
setting dropped from a high of 24 to only one child in a residential 
facility. Wraparound effectively netted a 78% reduction in the use of 
out-of-home care in only 7 years.
    Wraparound was successful in Lenewee County. The success in the 
County as well as across the State of Michigan continues because:
    <bullet> It truly meets the needs of children, families and the 
community for safety, stability and permanency;
    <bullet> The collaborative nature of Wraparound builds upon the 
strengths of the community to invest in protecting children and 
promoting safety;
    <bullet> Wraparound provides an effective way to identify and 
address the multi-agency need for services a family may experience 
(i.e. mental health, substance abuse, child protection, employment and 
health);
    <bullet> Funding sources are flexible and responsive permitting the 
state to target appropriate services as well as maximize dollars 
available;
    <bullet> The services work irrespective of the family make-up, i.e. 
birth families, kinship, foster-parent, and adoptive families; and,
    <bullet> The intensive nature of the service adapts to the most 
needy children and families.
    As persuasive as statistical information is relative the 
effectiveness of a treatment model, nothing compares to the power of 
witnessing the long-term impact an intervention such as Wraparound can 
have on keeping children safe in stable homes. I have personally 
followed five children over a period of eight years who were involved 
with Wraparound as a last alternative. Two of these children aged 
eleven and twelve at the time, were placed in residential care because 
no foster family home could keep them. Their combative behaviors, 
biting, spitting, hitting, sexual acting out and more, could not be 
controlled or eradicated. They routinely experienced physical restraint 
in the residential facility and they were predicted to remain in some 
form of congregate care until they aged out of the system. Their future 
at that point was uncertain.
    Because of the commitment to the philosophies of Wraparound in the 
community, these two children received the opportunity to return to a 
family home and received the support they needed to be successful at 
home from the family and community support system. Two weeks ago, I had 
the opportunity to meet with these young men, now 19 and 20 years old. 
Both of them are successfully living in the community, employed and are 
engaged in supportive relationships. They, and their families, credit 
Wraparound with their success.
    Both of these young men stated Wraparound made a difference 
because:
    <bullet> It supported their mothers and listened to her when the 
caseworker would not;
    <bullet> They were able to convince the judge to listen to the 
successes instead of the failures; and,
    <bullet> Wraparound gave the family, especially their mothers, 
power over their future.
    Each of the Family Preservation models highlighted above focuses on 
supporting children and families while ensuring that safety concerns 
are paramount. Significant effort has been expended to ensure program 
accountability. Universal outcomes and expectations for Family 
Preservation programming has been developed that meet the needs of the 
child and family while attaining the overarching programmatic mandates.
    Michigan has engaged in a stringent external evaluation of these 
Family Preservation initiatives in order to determine their 
effectiveness. These longitudinal studies have included a control 
group/experimental group design with random assignment protocol. These 
evaluations do more than assess the satisfaction of the parents and 
children with the services they receive. They take a critical look at 
the goals of the intervention, the outcomes achieved, and draw a 
correlation to those goals and outcomes achieved in the control group. 
The critical success Michigan has achieved with Families First, Family 
Reunification, Family Group Decision Making and Wraparound is 
indisputable.
    In 1992, when Michigan first embarked upon Welfare Reform, we 
achieved significant declines in caseloads immediately. By the mid-
point of our efforts, formal evaluation concluded that gains were not 
due to welfare reform. Despite that, Michigan persisted in its efforts, 
providing stronger supports, targeted resources, and utilized new and 
different ways to address issues of education, employability and 
childcare. As a result, we have continued to decrease the number of 
citizens dependent on public assistance. In fact, we achieved an 
approximate 70% reduction in cash assistance caseloads while promoting 
the formation of strong families who are active participants in 
determining their future. If Michigan would have listened to those 
whose studies decried our efforts, we would not have made the 
significant gains.
    On behalf of the Michigan Family Independence Agency and the 
American Public Human Services Association, I have attempted to provide 
the Subcommittee with a portrayal of the broad spectrum of intensive 
services available in Michigan and share our successes. Michigan, over 
the past twelve years, has committed financial, policy and programmatic 
resources to develop a range of innovative and effective programs to 
ensure that children are protected from abuse and neglect. That 
commitment is born out by the exceptional results we have achieved.
    The common thread among these programs that undergird their success 
is the intensive, strength-based, community driven, and family-centered 
design of service models. Each program requires intensive contact with 
the family, strict adherence to and effective monitoring of the model, 
establishment of clearly defined outcomes, and a quality assurance 
component that continuously measures the success of the program in 
relation to the expected outcomes.
    Reauthorization of Title IV-B, Subpart 2, Promoting Safe and Stable 
Families, is critical in all states ability to achieve the overarching 
goal of protecting children from neglect and abuse, strengthening 
families and promoting stability and permanency through effective and 
innovative programming. Michigan strongly believes in and desires the 
flexibility to address gaps in service and build upon proven successes 
to meet family needs at the state and local level.
    Reauthorization of Promoting Safe and Stable Families will have a 
significant impact upon not only Michigan's ability to achieve these 
mandates but on other states in the nation as well.
    Thank you for the opportunity to present Michigan's current efforts 
in these critical areas as well our vision for our continuing work with 
children and families in need.

                                <F-dash>


    Chairman Herger. Thank you very much. Now Judge Kearney to 
testify.

   STATEMENT OF HON. KATHLEEN A. KEARNEY, SECRETARY, FLORIDA 
              DEPARTMENT OF CHILDREN AND FAMILIES

    Ms. Kearney. Good afternoon. It is indeed a pleasure to be 
back in front of this Committee that has done so much for 
America's children.
    My role today is basically to encourage you to reauthorize 
the funds within the Safe and Stable Families Act that is 
designed for court improvement initiatives. I was involved and 
still am in the dependency court improvement effort in Florida. 
I chaired the Committee for 3 of its 6 years. Let me tell you 
what it was like in 1995.
    The judiciary--and at the time I was a circuit court judge 
hearing juvenile cases in Ft. Lauderdale--was at war with 
social services. The guardian ad litem program was at war with 
the judiciary and social services. Law enforcement was not 
engaged actively in protecting America's children, and no one 
spoke to one another. At the time that the court improvement 
initiative came together, it brought all of the stakeholders, 
all of the players to the table to look in depth at what the 
real problem was in processing these cases through the courts.
    In Florida, we gathered data for over a year. One of the 
things we found that was so shocking is that for a shelter 
hearing, the time when the court makes the determination of 
when a child should be removed from their home, the average 
shelter hearing in Florida took 4 minutes. Imagine that 
decision, what information you can actually analyze if you are 
the judge in that 4-minute period of time.
    We published all of the data from our 1-year in-depth 
analysis at a dependency summit where we pulled together 300 
stakeholders, and we gave them an overview of what their system 
looked like. It wasn't pretty. But that more than anything 
galvanized stakeholders in the State to join together and to 
really look in developing at the system. That formed the actual 
nucleus of the Adoption and Safe Families Act reform which we 
are so grateful to Congressman Camp for. That formed the 
nucleus for our reform.
    So, in 1997, when you passed APHSA, we had already looked 
at what we needed. We wove it in with APHSA, and we then 
changed Florida's statute for child protection.
    We would think that that would be enough. But the reality 
was it was not. Because we had learned then, too, that we had 
to look in depth at the results of APHSA and whether we could 
implement them. So we have continued over the years, and the 
reason I am encouraging you to reauthorize this is I do not 
believe you can successfully implement APHSA without the 
engagement of the courts as well as social services in 
achieving the outcomes that you have set for us and for our 
children. Let me give you an example.
    I asked Florida to be one of the first States to be audited 
by the Department of Health and Human Services; and they are 
coming this summer, in August. I did that because I know, 
frankly, we aren't doing very well; and I wanted the 
opportunity to look in depth with your help to see what needs 
to be done.
    We have done a preaudit for the last year using the Federal 
methodology to see where we really are with APHSA. The results 
of the initial preaudit weren't very encouraging. In Miami for 
judicial reviews of children that are required every 6 months, 
they were only reviewing them 39 percent of the time. 
Permanency hearings that are required at the 12-month period 
were only being done 30 percent of the time.
    Last year, at our fourth annual Dependency Court 
Improvement Summit, I published all of that data. People 
weren't very happy with me for making it very open and up 
front, but I really believe you can't solve problems unless you 
know what they really are.
    We went back this year. We are now at 79 percent of cases 
being judicially reviewed.
    Sometimes it helps to know that you are looking at the 
information. But when you think of the children whose cases are 
not being reviewed, that is the concern to me. I think it is 
important for this Committee to know that the court improvement 
effort is definitely used by the courts, and it is an 
opportunity for us to come together with social services. And, 
frankly, I think it would be impossible to do my current job 
without the full engagement of Florida's judiciary there 
helping to reform Florida's foster care system.
    Thank you again for inviting me to come.
    [The prepared statement of Ms. Kearney follows:]
Statement of Hon. Kathleen A. Kearney, Secretary, Florida Department of 
                         Children and Families
    Good afternoon, Mr. Chairman and members of the Human Resources 
Subcommittee. My name is Judge Kathleen A. Kearney. In January 1999 I 
elected senior judge status to serve as the Secretary of the Florida 
Department of Children and Families for Governor Jeb Bush. Prior to 
serving in this capacity, I served as a juvenile dependency court judge 
for ten and one-half (10\1/2\) years for the Seventeenth Judicial 
Circuit, Fort Lauderdale, Broward County, Florida. I have served as a 
member of the Florida Dependency Court Improvement Program Committee 
for six (6) years and chaired the program from 1996 until 1999. It is a 
pleasure to be asked to testify before this Subcommittee about the 
achievements of Florida's Court Improvement Program, and the continuing 
need of the State judiciary for the valuable services provided by this 
initiative. I would also like to speak in strong support of 
reauthorization and increased funding for child welfare services under 
the Promoting Safe and Stable Families Program, Title IV-B, Subpart 2, 
of the Social Security Act.
    First of all, I want to state unequivocally that the success and 
momentum of Florida's Dependency Court Improvement Project could not 
have been realized without the commitment of federal grant funding in 
the amount of $370,000 annually. Funding has been critical to Florida's 
success in developing and implementing performance standards for child 
welfare staff and dependency judges. This funding has aided Florida in 
designing secure permanent and safe outcomes for children in out-of-
home care.
Overview of Florida's Dependency Court Improvement Program (DCIP)
    The congressional charge, One Year to Permanency calls upon 
judicial leadership to collaborate with child protection professionals 
and construct meaningful court reform practices. This project has been 
deliberately crafted to challenge assumptions about Florida's child 
protection system by analyzing hard data and using the facts to engage 
all stakeholders in the need for change.
    The Legal Affairs and Education Division of the Office of the State 
Court Administrator, Supreme Court of Florida, staffs and manages the 
Court Improvement Program grant. The Chief Justice of the Supreme Court 
implemented the Dependency Court Improvement Committee, comprised of 
judges and representative stakeholders, in 1995 with the appointment of 
its members. The Committee was charged with oversight of the Dependency 
Court Improvement Program (hereinafter DCIP) and tasked to collect data 
on the existing juvenile dependency system, analyze the findings, and 
suggest necessary improvements to Florida statutes and court rules.
    In 1995-1996, DCIP staff observed and documented court proceedings; 
reviewed case files of 1,800 children in out of home care; and 
interviewed over 500 stakeholders. The data from these observations and 
interviews was collated and analyzed by workgroups under the auspices 
of the DCIP oversight committee. The findings were presented at the 
first annual Dependency Court Summit in 1997 to three hundred (300) 
invited participants. As a result of this collaborative Summit, the 
DCIP Committee developed a reform plan for improvement of Florida's 
child protection system. Proposed statutory changes were presented to 
the Florida Legislature by DCIP leadership for consideration and 
passage during the 1998 legislative session. The DCIP Committee 
recommendations were adopted in total by the Florida Legislature 
wherein Florida's two main child protection statutes were combined into 
a single chapter that, in turn, included the federally required 
mandates of the Adoption and Safe Families Act of 1997.
    Subsequent DCIP Summits were convened annually to train all 
stakeholders on the implementation of ASFA and the DCIP reform plan. 
Over 1200 judges and child welfare professionals attended the fourth 
annual Summit, held in August 2000, which was co-sponsored by the 
Florida Department of Children and Families. DCIP court liaisons have 
been established in each of the 20 judicial circuits of Florida to 
monitor court improvement activities throughout the state and share 
best practices. Each judicial circuit developed an inter-disciplinary 
plan for implementation of these best practices at the annual Summit. 
Local DCIP meetings are held monthly in each judicial circuit to track 
progress made on the local plans and provide a forum for problem-
solving and open communication between all stakeholders at the local 
level.
    The 2001 DCIP Summit is scheduled for August 29-31, 2001 in Orlando 
with anticipated attendance of 1,600 participants. Over thirty 
workshops are planned covering a plethora of legal, medical, 
psychosocial, and clinical issues inherent in the field of child 
protection. The challenges dependency court judges face are 
unparalleled in other divisions of the court system. These formidable 
challenges include: the complexity of the underlying psychosocial 
dynamics present in all cases appearing before the court; major 
limitations on the availability of resources to solve these societal 
problems; the unique needs of parents and their children; and the 
sorely needed coordination of many professionals who share 
responsibilities in the outcome of any single case. It is imperative 
that Congress continue to assist the Courts in bringing all child 
protection professionals together to develop and implement strategies 
to carry out the requirements of state and federal law in the 
protection of children.
    Additional Accomplishments of Florida's Dependency Court 
Improvement Initiative:
    <bullet> Production of an annual reference guide on statutory and 
court rule revisions.
    <bullet> Statewide training and strategic planning events led by 
the judiciary.
    <bullet> Evaluation of the use of Foster Care Citizens Review 
Boards in lieu of judicial review.
    <bullet> Revisions to the Guardian Ad Litem Program (GALP) training 
manual.
    <bullet> Automation of the GALP case and volunteer management 
system.
    <bullet> Submission of annual amendments to the Florida Rules of 
Juvenile Procedure.
    <bullet> Annual technical statutory revisions for further 
refinement of dependency laws.
    <bullet> Development of local court improvement liaisons to lead 
monthly multi-disciplinary meetings in each of the twenty judicial 
circuits.
    <bullet> Compilation of checklists to govern conduct of hearings 
for judges and advocates.
    <bullet> Professional development of judges through judicial 
management meetings.
    <bullet> Continued collaboration with the Department of Children 
and Families, local Child Protection Teams, and Children's Medical 
Services on legislative issues of mutual concern.
2001-2002 Court Improvement Initiatives
    In Florida, the Dependency Court Improvement Project has 
facilitated or is currently engaged in the following projects in 
collaboration with the Supreme Court of Florida's Family Courts 
Steering Committee, the Guardian Ad Litem Management Subcommittee, the 
Department of Children and Families, and the Judicial Management 
Council of the Supreme Court:
    <bullet> Bench Book for Dependency Judges.--With sweeping changes 
to our child protection statutes, resulting in increased review of 
cases by judges, the production of a guidebook is essential. DCIP has 
already provided checklists for judges to use at each stage of a 
dependency case. These checklists will serve as the framework for the 
bench book. A compliment of relevant case law and tips from experienced 
juvenile judges will be included. This project will be ready for 
distribution by the end of this year.
    <bullet> Assessment of Appellate Court Processing of Dependency 
Cases.--The initial DCIP assessment, which concluded in 1997, provided 
a comprehensive data-based analysis of dependency cases from the 
initial stage of a proceeding when the child and family is first 
involved with the Court to the final permanency outcome at the trial 
court level. Anecdotal evidence received from DCIP stakeholders 
suggested the need for in-depth study of the appellate court process 
and its impact on children when permanency decisions depend on the 
response time of the appellate court either affirming or overruling the 
trial court's decision.
    <bullet> Standards of Operation for Foster Care Citizens Review 
Programs.--DCIP staff undertook a comprehensive evaluation of the role 
and function of Foster Care Review Board Programs (FCRB) in 1999 at the 
request of the Florida House of Representatives. Although volunteer 
review panels, in lieu of judicial review, operate in only ten (10) of 
Florida's sixty-seven (67) counties, their reported variations in 
administration and operation prompted the study. Evaluation findings 
revealed the need for the development of performance standards to 
establish consistency in volunteer training for this quasi-judicial 
function. Standards have been developed and will be implemented later 
this year.
    <bullet> Juvenile Justice Court Improvement Initiative.--The 2000 
Florida Legislature authorized the state court system to use Family 
Court Trust funds to conduct an assessment of Florida's delinquency 
court system. The study is to be modeled after the dependency court 
improvement assessment because of that program's recognized success. 
The Florida Supreme Court has renamed the Dependency Court Improvement 
Program the ``Children's Court Improvement Program'' and has appointed 
an oversight Committee. The Committee is charged with guiding this 
study which includes detailed analysis of court files, structured court 
observation, surveys and interviews of key stakeholders. The assessment 
is expected to conclude by fall of 2001.
Additional Court Improvement Activities
    1. Convening court improvement liaisons from every judicial circuit 
to monitor the statewide implementation of local initiatives; and 
providing a forum for information sharing.
    2. Providing staff support to the Supreme Court Children's Court 
Improvement Committee, charged with the court-related oversight of 
children involved with the dependency, delinquency, and children-in-
need-of-services systems.
    3. Publishing a quarterly bulletin for distribution statewide to 
all dependency court stakeholders featuring court improvement 
innovations.
    4. Managing a Web site and a Web Conferencing System for various 
groups to encourage information sharing and collaboration among child 
protection professionals.
    5. Providing on-going technical assistance to the Guardian Ad Litem 
Program volunteers with an automated case and volunteer management 
system, revisions to the volunteer training manual, and development of 
an accompanying instructor' guide.
    6. Distributing bi-monthly packets for chief judges and dependency 
court judges to keep the courts updated on current child protection 
issues.
Promoting Safe and Stable Families Program
    With the time I have left, I would like to briefly touch on 
Florida's utilization of Title IV-B, Part 2, child welfare services 
funding. In Florida, Promoting Safe and Stable Families Program funding 
is currently used to provide a wide array of services designed to:
    <bullet> Help families alleviate crises that might lead to out-of-
home placement of children;
    <bullet> Maintain safety of children in their own homes when 
possible;
    <bullet> Support families preparing to reunify or adopt;
    <bullet> Assist families in obtaining services and other supports 
necessary to address multiple needs and in a culturally sensitive 
manner; and
    <bullet> Support and assist families who have adopted foster 
children.
    Major services currently funded under IV-B include an array of in-
home counseling, case management, and support services. As a result of 
this funding, success rates in several major IV-B programs (defined as 
meaning no abuse, neglect or threatened harm at case closure) climbed 
to 98 percent in the year 2000. Through March 2000, several major 
providers improved their performance for no re-abuse during the one-
year follow-up by 85 to 90 percent of their caseloads.
    We are very proud to report that the Neighborhood Partnership for 
Child Protection Program is currently being expanded through the use of 
IV-B funds. This program is a community partnership located in 
Jacksonville, Florida and funded with the help of the Edna McConnell 
Clark Foundation, which has demonstrated the effectiveness of 
neighborhood and family involvement in keeping children safe. The 
premise of the Neighborhood Partnership is that protecting children is 
the collective responsibility of the community--including neighbors, 
area businesses, churches, schools, other agencies and ``grass roots'' 
groups. This project, with support from the Edna McConnell Clark 
Foundation, and a State investment of $3 million from the federal Safe 
and Stable Families Grant, is in the process of replication in eleven 
(11) sites, as the first phase of statewide implementation.
    The Adoption and Safe Families Act of 1997 is the most important 
federal child welfare legislation since the Adoption Assistance and 
Child Welfare Act of 1980. The importance of Title IV-B support for the 
goals and requirements of ASFA cannot be overemphasized. A recent study 
conducted by the Department of Children and Families, in partnership 
with the Child Welfare Institute, established a direct correlation 
between compliance with critical ASFA requirements and the amount of 
time a child remains in an out-of-home placement.
    During the summer of 2000, Governor Jeb Bush and the Department 
identified the need to address the prolonged length of stay of 
Florida's children in foster care. Dependent children remain in care 
too long, exceeding the 12-month timeframe set forth in Florida law. A 
quality improvement team was deployed to analyze the root causes of 
this problem and recommend countermeasures for improvement. Team 
representatives were selected from the Family Safety Program Office 
staff and from experienced frontline workers from Tampa, Orlando, Ft. 
Lauderdale and Miami. These geographic areas were chosen because 
combined they contain more than 50% of the state's dependent children 
in care. We charged the team with completing a Quality Improvement and 
Control (QIC) Story<Register> to address this critical problem. As a 
point of comparison, the team requested the help of four districts with 
the best statewide performance in length of stay. Critical ASFA items 
were detailed along state data reports. The data analysis clearly 
indicates that there is a strong relationship between length of stay in 
care and compliance with critical items in the ASFA review: the better 
a district performed on the ASFA requirements, the shorter the length 
of stay.
    The only funds made available for States to implement the intent of 
ASFA are the Title IV-B, Part 2, funds under this Program, which were 
designated for time-limited reunification and adoption promotion and 
support services. Florida uses this funding source and can only report 
that more funds are needed to fully implement the intent of ASFA. 
Without adequate funds to fully implement the intent of ASFA permanency 
goals, hard-to-place children will languish in the system.
    The intent of ASFA is to place each child in a permanent, safe, and 
stable home within sixty days of termination of parental rights. While 
Florida is meeting the federal adoption placement outcome, we still 
have too many children awaiting placement post-termination of parental 
rights. Additional funding is needed to support recruitment efforts and 
other services essential to maintain placements once they are made.
    Current federal regulations establish inflexible grant reporting 
requirements for the Promoting Safe and Stable Families Grant. Although 
the federal law does not require it, the regulations require that 
States spend a minimum of twenty percent (20%) in each of four (4) 
service categories: Family Preservation, Community Based Family 
Support, Time-Limited Family Reunification, and Adoption Promotion and 
Support Services. This does not allow States any discretion to commit 
IV-B services funding to state-specific problems. States need funding 
flexibility in order to serve children and families in the best 
possible ways. When Title IV-E is taken into consideration, the vast 
majority of federal funding is dedicated to removal and out-of-home 
care. States need the ability to transfer IV-E funds to IV-B in order 
to increase the range of services for families in crisis, for 
expediting reunification, and for substance abuse, mental health and 
domestic violence services found in so many of the families which come 
into contact with the child welfare system.
    Thank you for the opportunity to offer comments to you on these 
very important initiatives. All of Florida commends you for your 
continued efforts to protect the most vulnerable among us--our nation's 
children.

                               EXHIBIT 1

    A Child's Journey Through the Child Protection System.
    An Analysis of Multiple Funding Streams.

------------------------------------------------------------------------
     Child protection action taken                Revenue source
------------------------------------------------------------------------
1. Neighbor calls hotline with concerns  State Tobacco Settlement. Child
 about Jason, a newborn. Mother has       Abuse Prevention and Treatment
 different men coming and going from      Act. Community Based Family
 apartment. There is loud music at        Resource Grants. Promoting
 night. Mom is young and immature.        Safe and Stable Families
 Hotline refers caller to Healthy         (Family Support).
 Families.
2. Hotline receives another call,        Temporary Assistance for Needy.
 months later, from relative who is       Families (TANF). Funded and
 concerned that Jason's mom is using      allocated to all sources by
 drugs and neglecting Jason.              Random Moment Sampling or time
 Investigation is initiated.              study methodology (IV-E Admin.
                                          Claim).
3. Some neglect is found, and intensive  Social Services Block Grant.
 in-home services are put in place.       General Revenue-Maintenance of
                                          Effort (TANF). General
                                          Revenue, Tobacco Settlement.
                                          Promoting Safe and Stable
                                          Families (Family
                                          Preservation).
4. Substance abuse assessment and        TANF funding through Alcohol,
 treatment are arranged..                 Drug Abuse and Mental Health.
                                          General Revenue. Substance
                                          Abuse Block Grant. Medicaid.
5. Mom stops treatment and home          Title IV-E, Title IV-B, subpart
 situation deteriorates. Jason is         1, Social Services Block Grant
 removed and placed in emergency          and Title IV-A/Emergency
 shelter. Board Payments. Protective      Assistance (the fund source
 investigator and services counselor      driven by child's
 working the case. Child Welfare Legal    eligibility). Funded and
 Services.                                allocated to all sources by
                                          Random Moment Sampling or time
                                          study methodology. Title IV-E
                                          General Revenue, Tobacco
                                          Settlement and Social Services
                                          Block Grant.
6. Jason and family receive special      Medicaid.
 Comprehensive Assessment.
7. Parent referred for substance abuse   TANF funding through Alcohol,
 treatment and mental health services.    Drug Abuse and Mental Health.
                                          General Revenue. Substance
                                          Abuse Block Grant. Medicaid.
8. Jason placed in foster care, and      Funded and allocated to all
 receives ongoing counseling services.    sources by Random Moment
 Foster care counselor. Licensure         Sampling or time study
 activities. Board and care payments to   methodology. Funded and
 the foster parent. Child Welfare Legal   allocated to all sources by
 Services.                                Random Moment Sampling or time
                                          study methodology. Title IV-E,
                                          IV-B, subpart 1, General
                                          Revenue, Tobacco Settlement,
                                          Social Services Block Grant,
                                          Title IV-A/Emergency
                                          Assistance. Title IV-E,
                                          General Revenue and Social
                                          Services Block Grant.
9. Mom again quits treatment, fails to   Funded and allocated to all
 meet terms of case plan. Termination     sources by Random Moment
 of parental rights proceeds. Adoption    Sampling or time study
 counselor. Child Welfare Legal           methodology. Title IV-E,
 Services.                                General Revenue, Tobacco
                                          Settlement and Social Services
                                          Block Grant.
10. Placement and supervision of Jason   Funded and allocated to all
 in an adoptive home. Adoption            sources by Random Moment
 finalized. Adoption Counselor.           Sampling or time study
 Supportive services to the adoptive      methodology. Promoting Safe
 parent. Maintenance Adoption Subsidy.    and Stable Families (Adoption
                                          Support). Title IV-E, General
                                          Revenue.
------------------------------------------------------------------------

                                          [GRAPHIC] [TIFF OMITTED] T3532A.001
                                          
                                <F-dash>


    Chairman Herger. Thank you, Judge Kearney. Now Ms. Mouzon, 
please.

   STATEMENT OF LINDA E. MOUZON, EXECUTIVE DIRECTOR, SOCIAL 
SERVICES ADMINISTRATION, MARYLAND DEPARTMENT OF HUMAN RESOURCES

    Ms. Mouzon. Good afternoon, Mr. Chair, Congressman Cardin 
and Members of the Committee. I am delighted to be here this 
afternoon.
    I particularly wanted to hone in on some of the successes 
that we have had in Maryland as a result of receiving monies 
from the Safe and Stable Families program. And we strongly 
support its reauthorization. Under our family support programs 
we have taken our monies and given them to local communities so 
that they could design services that would meet the needs of 
the families and children that they see prior to them entering 
into our system. So, actually, these are prevention dollars.
    Through these prevention efforts we have a number of 
programs which are highlighted in my testimony, but they range 
from healthy families, which means we are working with mothers 
who have just given birth, all the way through teen moms, to 
moms who are under 25, to parents who have been parents longer. 
We also include our adoptive parents and our foster parents.
    One of the things that we have noticed is that the families 
who are served by these programs are able to stay away from our 
particular front doors, I would say, from the various systems. 
This includes not only the Department of Social Services but we 
also find out that these children are not entering the juvenile 
justice system, and we are very, very pleased with that.
    In addition, we have our family preservation dollars which 
we have taken and utilized them in such a way that we can get 
referrals from our State Department of Education through the 
local school systems, through our Department of Juvenile 
Justice, through our mental health services as well as through 
local departments and self-referral. This means that we focus 
our efforts on family preservation once again prior to a family 
coming formally into our system.
    Through utilizing these dollars this way, we have noticed 
there has been a decrease within the last year and particularly 
I would say a continuing decrease in the number of families 
that are entering into the formal system through our local 
Departments of Social Services; and you do have these charts in 
my testimony.
    Another thing that we have done is we have utilized the 
funds to enhance our reunification efforts of children who are 
placed in foster care, and we use the family to-family model 
that was promoted by the Casey Foundation in which we use 
community-based services. By utilizing some of these dollars 
for substance abuse, some to promote some community supports, 
we have been able to have an increase in the number of children 
who are reunited with their families. We have increased that 
from 39 percent to 42 percent, and we hope to continue that 
increase because we know this is a positive outcome for the 
children and for the families.
    We have also utilized some of our dollars for our adoption 
services. We have a Statewide recruitment campaign that 
includes some of our faith-based congregations, and we also 
have utilized some private agencies so that we would have 
support groups for those who are interested in adoptions. And 
in Maryland we have been a leader in increasing the number of 
adoptions.
    But I do want to address one area that is not covered, and 
that is the whole issue of substance abuse. Although as a 
required and mandated service through the ASFA legislation, no 
monies were sent to the State in order to support this 
particular service. As a result of that, we have had to do some 
innovative things in Maryland.
    One thing is that we have what we call the Drug-Exposed 
Infants project in which we work with moms who deliver infants 
who are drug exposed at the time of birth. We collaborated with 
the Health Department, private hospitals, with our sister 
agency, the Alcohol and Drug Abuse Administration, as well as 
some of our social service agencies and treatment providers so 
that when a baby is born drug addicted we can provide services 
immediately.
    One of the challenges is getting service upon demand, 
though, and that is an issue.
    We also have some legislation that was passed in Maryland 
that indicates that we have to integrate our child welfare 
services along with our substance abuse services; and, 
therefore, we have established a protocol in which the courts 
are a partner and they order assessment and also some kind of 
comprehensive screening in order to ensure that mothers or 
fathers who come to our attention receive treatment services if 
indeed they are in need of those services.
    We utilize substance abuse treatment providers also who 
will work in the local departments, and they make referrals to 
the appropriate setting so that the parents can receive their 
services. In addition, we receive the Federal waiver, a 
demonstration project in which we utilize collaborative teams 
that includes the parent and includes a caseworker. It includes 
those who are involved in the substance abuse community. It 
includes those who are former users of both systems, meaning 
the while welfare system and the substance abuse system, in a 
team format so that we can provide services to families who 
come to our attention and are in need of substance abuse 
services.
    Indeed, I thank you for this opportunity to testify. You 
have my full testimony before you, and you can look at the 
results we have had in Maryland at the end.
    [The prepared statement of Ms. Mouzon follows:]
   Statement of Linda E. Mouzon, Executive Director, Social Services 
         Administration, Maryland Department of Human Resources
    Good afternoon, Chairman Herger, Congressman Cardin and Members of 
Congress. My name is Linda E. Mouzon, and I am the Executive Director 
of the Social Services Administration for the Maryland Department of 
Human Resources. I serve as Child Welfare Director for the State. Thank 
you for allowing me the opportunity to speak to you today about the 
Promoting Safe and Stable Families Program and its reauthorization by 
Congress this year.
    The Maryland Department of Human Resources is a member of the Child 
Welfare League of America (CWLA), an eighty-one year old association of 
over eleven hundred public and private non-profit community-based 
agencies that serve more than three million children, youth, and 
families each year across the United States.
    The mission of the Social Services Administration in Maryland is to 
employ strategies to prevent child abuse and neglect, protect 
vulnerable children, support family stability and promote family 
independence. The Social Services Administration operates on the 
guiding principle that all children deserve to live in violence-free 
families where they are safe from physical and mental injury.
    There are times when a child's needs cannot be met at home, or we 
determine that the child is not safe in the home. These children must 
be removed and placed in foster care. When a child is placed in out-of-
home care (foster care) our two primary considerations are: 1) the 
child's safety, and 2) assurance that the placement meets the child's 
needs. The Department aggressively pursues concurrent permanency 
planning for foster children which include services for reunification 
and/or guardianship/adoption.
    The Promoting Safe and Stable Families Program is an important 
federal source of funding for an array of services for families with 
children. It is especially critical because it represents one of the 
few sources of federal funding which states can use to provide needed 
prevention and support services for families involved with the child 
welfare system. This program is also central to meeting the goals 
established by Congress and this Committee with the passage of the 
Adoption and Safe Families Act in 1997, giving states additional 
capacity to provide preventive, reunification, and permanency services.
    I am delighted to be here today to discuss the impact of the 
Promoting Safe and Stable Families Program funds for Maryland's 
children and families. These dollars enhance our efforts to support 
troubled families, to preserve families when possible, to provide 
services to achieve reunification, and to promote adoption. Without 
federal financial participation, critical gaps in service would exist 
throughout the child welfare continuum, not just in Maryland but in 
every state in the nation. The State of Maryland has worked diligently 
to develop community-based resources that serve children and their 
families. These initiatives use federal dollars to preserve families 
and serve needy families before they reach the child welfare system.

                    FAMILY PRESERVATION AND SUPPORT

    Federal dollars fund Family Support and Family Preservation 
services through Maryland's network of Local Management Boards. These 
boards represent the community's priorities and are comprised of 
representatives from education, juvenile justice, health, local 
government, mental health, social services, and the general public. The 
unique aspect of board membership is its representation of the private 
sector. This includes representation by parents, advocacy groups, and 
private providers of children and family services. Although the 
programs differ from county to county, the goal remains the same: 
``Keeping Families Together.''
    One community's strategy for community support is The Family 
Junction in Allegany County. The parent education workshops are in 
their fourth year of operation and have engaged over 439 parents 
through September 30, 2000. The demographic data suggest that nearly 
one-half of these participants are at high risk to enter the child 
welfare system. Eighteen percent of these families already have a 
child(ren) living in an out-of-home placement setting, while 2% of the 
families are foster/adoptive parents.
    The statistical findings from the Systematic Training for Effective 
Parenting (STEP) Parent Survey suggest that the parent education 
workshops are effective at increasing positive parenting skills. By 
obtaining increased knowledge and practice of positive parenting 
skills, parents gain a greater competency and empowerment to take on 
the responsibility of ensuring that their families are safe, healthy, 
and nurtured. The participants themselves also noted some significant 
differences in their parenting styles. Listed below are two comments 
that were gathered from participants after a recent parenting workshop:
    ``You learn how to understand them more so you listen to each other 
instead of yelling.''
    I learned ``different ways to discipline my child in a positive 
way.''
    Through the family enrichment workshops, partnerships have been 
developed among the Family Junction and agencies, families, and 
businesses throughout Allegany County. Together they create and foster 
a community which supports and enhances parent, youth, and child 
development.
    Safe and Stable Families funding enables Maryland to serve children 
effectively in their own homes. Our success with these high risk 
families is demonstrated in Exhibit 1.

            FAMILY PRESERVATION-KINSHIP CARE SUPPORT GROUPS

    Maryland is one of very few states with an established Kinship Care 
Program and remains in the forefront of planning and developing 
resources that sustain and stabilize our kinship care families. There 
are 5.4 million children living with grandparents or other relatives. 
Despite the stability and permanence that relatives provide, children 
living with these families may be denied access to services they need.
    Through Safe and Stable Families Program funds, we were able to 
expand our community-based kinship care support groups. Support 
services to kinship care families began with a grant from the Brookdale 
Foundation. Currently there are twelve support groups, including five 
that operate in community schools. These groups provide stipends for 
day care and respite care services. Our goal is to expand kinship care 
groups to all 24 jurisdictions in Maryland.

          FOSTER CARE: USE OF TIME LIMITED REUNIFICATION FUNDS

    Maryland's child welfare system promotes the ``Family to Family 
Case Management Model'' as the best practice of foster care services. 
This paradigm was developed by the Casey Foundation and is implemented 
throughout our State.
    In the Family to Family model, the foster parent acts as a mentor 
to the birth parent and remains in contact with the child and parent 
for three to six months following the closing of a case. The Department 
involves community agencies and groups in the planning for families and 
children. A positive working relationship among the agency, the foster 
family and the birth parent leads to easier permanency planning for 
children. In our foster care program, birth parents and foster parents 
have responded positively to this model. Supports for foster parents 
and birth families include respite care to maintain families and 
prevent re-entries, home-based family
    therapy, crisis nursery clinics, and the use of community family 
advocates to coordinate services to the family.
    Maryland used funds to provide time-limited reunification services 
in creative ways: for substance abuse services to parents whose 
children are at-risk of or in out-of-home placements; and addiction 
recovery groups to work with families. We have instituted community 
parenting classes and other activities that promote bonding between 
foster children and their birth parents. The Department has also used 
vouchers for securing housing and instituted effective absent parent 
and relative locators.
    The Family to Family model has resulted in an increased rate of 
reunification. From 1999 to 2000 reunification rates increased from 
39.1% to 42.3%. This represented a 3.2% overall increase in 
reunification rates. In addition, Maryland has used gatekeeping 
practices to reduce the number of children entering out-of-home care by 
ensuring that all alternatives to placement have been explored.
    Time limited reunification services and extensive aftercare 
services have resulted in a leveling of Maryland's reentry into foster 
care. For FY 2000, the rate was 18.7%. Maryland expects to achieve our 
goal of 15% by FY 2004.
    Exhibit 2 demonstrates the results of time-limited reunification 
services on our foster care system. Exhibit 3 shows Maryland's increase 
in planned reunifications and other permanency outcomes for children.

              ADOPTION: USE OF PROMOTION AND SUPPORT FUNDS

    Federal funds are used to support and enhance Maryland's aggressive 
campaign to find homes for our children who need adoptive families. 
Local departments receive Promotion and Support funds based on 
recruitment and other activities for adoption. Examples of the critical 
supports that federal funding provides include counseling to adoptive 
families and children, individual and family counseling for adoptive 
families, adoptive support groups, for children, adoptive family 
support groups. Maryland uses federal dollars to procure post-adoption 
support services, sponsor matching conferences, and adoption matching 
parties. We also use technology to break down geographical barriers to 
adoptions. The Maryland Adoption Resource Exchange is a web enabled 
tool that promotes adoption throughout the State.
    As a result of our efforts, local department staff increased the 
number of finalized adoptions by 12% since 1998. The number of 
adoptions increased from 645 in FY 1998 to 682 in FY 2000. Exhibit 4 
demonstrates Maryland's adoption success.
    Maryland has also used adoption promotion money to develop 
partnerships with private sector and faith-based social service 
agencies. In February 1999 we began to contract with private adoption 
agencies to recruit and study prospective families. These agencies join 
with the public sector in the challenge of finding permanent homes for 
our most needy children.
    Local departments use the incentive money for child specific 
recruitment, respite care and camping opportunities for adopted 
children, critical transportation to needed services, services that 
prevent disruption and in many other creative ways that help make 
adoption work for children.

   ADOPTION PROMOTION AND SUPPORT FAITH-BASED ADOPTION SUPPORT GROUPS

    Through Promoting Safe and Stable Families Program funds, the 
Social Services Administration has forged new partnerships with faith-
based organizations in the recruitment of adoptive families for 
children, particularly African-American children, waiting for a home 
and a family. Maryland's faith-based organizations have 
enthusiastically embraced this partnership and have already begun to 
produce results. Since 1987, Maryland has supported a partnership with 
faith-based organizations through the One Church One Child adoption 
recruitment program originated by Father Clements in Chicago in 1980. 
Faced with the daunting challenge to do something about the burgeoning 
numbers of black children in foster care without families, Father 
Clements made a plea to black churches for each to be responsible for 
finding a family for just one child. This unique program continues to 
recruit African-American families through places of worship for the 
thousands of African-American children in foster care systems across 
the nation. Many of these children are older, part of a sibling group, 
and have special medical needs.
    Beginning in October 2000, using nominal amounts of Promoting Safe 
and Stable Families Program funding, Maryland developed partnerships 
with fourteen places of worship throughout the State for the purpose of 
establishing adoption support groups within each place of worship. It 
is recognized that supports are often critical to adoptive and 
prospective adoptive parents who care for children that have 
experienced the trauma of abuse, neglect, and the many disruptions of 
life as a foster child.
    Each of the fourteen places of worship provides meeting space 
within the place of worship to accommodate a support group and monthly 
informational meetings, a child care area for parents who bring their 
children to the meeting, and storage space for adoption materials, 
supplies, and literature. Each officiating officer of the place of 
worship offers confidential counseling, as requested, to adoptive and 
prospective adoptive parents. Celebrations for new adoptions and 
special events are held by each group. Each place of worship appoints 
an adoption support group coordinator and child care assistant to 
implement the activities of the group. Since October 2000, over 15 
prospective adoptive parents have been recruited through these faith-
based adoption support groups.
    Maryland's adoption support groups provide: 1) an opportunity for 
families and individuals interested in adoption to share and support 
one another at monthly group meetings; 2) an accessible and 
confidential location for adoptive families and individuals interested 
in adoption to meet to discuss similar parenting concerns and issues, 
and strategies to meet the challenges of parenting children with 
special medical and behavioral needs; 3) collaborations with community 
resources to supplement the needs of adoptive families; 4) access to 
information and experts in the area of adoption through informational 
meetings; and 5) an informal network for adoptive parents to establish 
buddy systems.
    Currently, 14 adoption support groups are located in six 
jurisdictions of the state. The goal is to serve all 24 jurisdictions. 
Financial stipends ranging from $6,000-$12,000 per year are provided to 
each place of worship.

                   SUBSTANCE ABUSE AND CHILD WELFARE

    Although not a specific part of the Safe and Stable Families 
Program, this issue has recently received national attention. Maryland 
is taking steps to provide families with an effective array of services 
when substance abuse issues are present. Part of ensuring the safety of 
Maryland's children involves partnering with other agencies to provide 
needed services. One such collaboration is with the Department of 
Health and Mental Hygiene (DHMH) to ensure an integration of Child 
Welfare and Substance Abuse Services. A protocol was developed that 
places substance abuse experts in each local department of social 
services. The courts are to order substance abuse assessment and 
treatment services for a parent at the time a child is placed in the 
agency's custody and concerns of substance abuse are noted.
    A waiver under federal Title IV-E funds allows Maryland to purchase 
foster care services to cover the cost of substance abuse treatment. 
The project is designed to prevent unnecessary out-of-home placements 
and to reduce the length-of-stay of children in foster care. The 
project is conducted in three jurisdictions that experience a high 
number of foster care placements due to parental substance abuse. 
Substance abuse treatment services will be provided using three 
treatment modalities--inpatient treatment for women and their children, 
intermediate care (28-day residential facility) and intensive 
outpatient treatment.
    Maryland is pleased with the President's budget request that would 
increase annual funding for this program from its current level of $305 
million to $505 million this year. We believe that the President's 
proposal is an important vote of confidence in this program and the 
vast array of services and programs its supports across the country. It 
is also an important step in recognizing the need to increase our 
country's federal commitment to children in the child welfare system in 
all areas including prevention, supportive services and adoption.
    We would like to recommend that Congress significantly increase 
funding for the Promoting Safe and Stable Families Program and that 
Congress also provide new federal resources to increase the 
availability of substance abuse treatment for families involved in the 
child welfare system.

                               Exhibit 1
[GRAPHIC] [TIFF OMITTED] T3532A.002


                               Exhibit 2
[GRAPHIC] [TIFF OMITTED] T3532A.003

                               Exhibit 3
[GRAPHIC] [TIFF OMITTED] T3532A.004


                               Exhibit 4
[GRAPHIC] [TIFF OMITTED] T3532A.005

                                <F-dash>


    Chairman Herger. Thank you very much, Ms. Mouzon. We have 
been notified we are expecting to have three votes on the 
floor. I would like to--if we could maybe begin with Dr. 
Wulczyn, and as soon as we finish your testimony we will recess 
and then return as soon as possible following the third vote. 
Dr. Wulczyn.

 STATEMENT OF FRED H. WULCZYN, PH.D., RESEARCH FELLOW, CHAPIN 
        HALL CENTER FOR CHILDREN, UNIVERSITY OF CHICAGO

    Dr. Wulczyn. Thank you, Chairman Herger, members of the 
Subcommittee. Thanks for inviting me here. It is a pleasure not 
only to testify but to be joined here in the company of so many 
people who work day to day with children and families. It is a 
rare opportunity for an academic such as myself.
    I work for the Chapin Hall Center for Children at the 
University of Chicago. We are an independent research and 
development center devoted to bringing sound information, 
rigorous analysis and an independent perspective to the public 
debate about the needs of children and the ways those can best 
be met.
    I have three points that I would like to make this 
afternoon.
    First, as others have already done, I want to acknowledge 
that the commitment of 200 million additional dollars in 
Federal support is certainly a welcome development. A year ago, 
the future of the Title IV-B, Subpart II, program was not as 
clear; and I think everybody understands how important these 
revenues are to the program.
    Second, I think it is important that, as you contemplate 
reauthorization, that you understand a bit about context in 
relationship to broader social trends. As a nation, we face 
something of a conundrum in that many of the positive social 
gains of the last decade have yet to be reflected in the size 
of our foster care population. For example, it has already been 
mentioned that child poverty levels have declined, and child 
maltreatment rates as measured using the NCANDS data are down. 
Yet the foster care population continues to rise. Since 1990, 
the number of foster children has grown from 400,000 to 
568,000, an average of about 4 percent per year. In my written 
testimony, I compared the growth of the foster care population 
to the size of the population of children receiving TANF and 
AFDC. As you will see, there is a striking contrast in the 
direction of those two trends.
    I don't want to make more of the relationship between cash 
assistance and foster utilization than is warranted. Clearly, 
many families on cash assistance are providing adequate care 
and supervision for theirs kids. Nevertheless, the connection 
between poverty and child maltreatment, foster care treatment 
is one to pay attention to, particularly as time limits begin 
to come to the States.
    But it is clear that, despite welfare reform and the 
positive economic cycles that we have all enjoyed over the last 
decade, they have little impact one way or the other on the 
foster care population; and given the substantial investments 
in child welfare services since 1993 the snapshot of data tells 
much about how difficult it is to manage the child welfare 
system, particularly from Washington.
    I would like to point out two questions that you might want 
to address as you are going forward. The first has to do with 
the question of flexibility, and the question there is that in 
many States the local picture is quite different than the 
national picture. That is, there are States and localities, New 
York City and Illinois among them, that have successfully begun 
to reduce their foster care population. As you contemplate 
Federal legislation you will want to be careful so as to avoid 
circumstances that might undermine those positive gains.
    Second, the Federal funds received in the form of board and 
maintenance payments cannot as a rule be redirected. So it is 
very hard for States to reinvest money in those programs that 
might reduce the foster care population. That is alleviated 
somewhat by the 200 million extra dollars, but there is still a 
structural rigidity in how Title IV-E revenue from HHS reaches 
States.
    The second question I want to call your attention to is the 
issue of targeting of dollars more wisely. There is a structure 
for targeting dollars in the current legislation. It is focused 
around types of services and outcomes. But I would ask that you 
contemplate whether or not this is a complete picture when it 
comes to the question you asked, Mr. Chairman, in your 
announcement: Are we meeting the needs of those children who 
are most in need? I think the answer to that question is a 
qualified no. It is qualified in that, every day, there are 
children in real danger who get the services they need. But it 
is not as clear that we do all that we can to target services 
effectively.
    Consider, for example, that slightly more than 20 percent 
of all first admissions in the 12 archive States that we use to 
track trends involve children under the age of 1--20 percent. 
Of those, nearly half enter before they are a month old. Other 
high-risk groups include 15-year-olds. The children most likely 
to be returned home are between the ages of 1 and 12. The 
children most likely to be adopted are children admitted as 
babies. Adolescents are very likely to run away. However, if 
they spend some portion of their 16th year in placement, half 
of those children go home. It is actually relatively rare that 
a child grows up in foster care.
    We don't target services in a way that takes full advantage 
of all that we know about the utilization of care. In June--on 
the 18th of June, next month, a group of scientists are going 
to be meeting here in Washington to discuss these issues, what 
we know about the utilization of foster care and what works; 
and I am hoping that members of your staff will be able to join 
us for that.
    Also, on the issue of flexibility, I think it is important 
that the Congress consider creating a permanent structure for 
taking waiver demonstration projects to scale. I think the 
transferability proposals that were in the ASFA proposal last 
year are an ideal mechanism for creating what I indicated was a 
permanent structure for this notion of flexibility.
    Finally, I want to add that going forward, targeting 
services efficiently and promoting flexibility will require the 
participation of the scientific community so that we learn more 
about what works and what doesn't work so that in 5 years these 
dollars can be accounted for with respect to outcomes for 
children and families.
    Thanks very much for the time.
    [The prepared statement of Dr. Wulczyn follows:]
   Statement of Fred H. Wulczyn, Ph.D., Research Fellow, Chapin Hall 
               Center for Children, University of Chicago
    Chairman Herger, members of the Subcommittee, thank you very much 
for inviting me to speak with you today. My name is Fred Wulczyn. I am 
a Research Fellow at the Chapin Hall Center for Children at the 
University of Chicago, an independent research and development center 
devoted to bringing sound information, rigorous analysis, and an 
independent perspective to the public debate about the needs of 
children and the ways in which those needs can be met. I want to thank 
you for the opportunity to address the issues raised by these hearings.
    I have three points that I would like to make this afternoon. 
First, as you acknowledged when you announced these hearings, everyone 
here today has to be encouraged by the Administration's willingness to 
commit 200 million additional dollars in federal support in each of the 
next five years for the Safe and Stable Families Program. As recently 
as one year ago, the future of Title IV-B, Subpart II was not as clear 
as it now appears. Surely everyone here today understands how important 
the new revenue is.
    Second, I think it is important for you to understand a bit about 
context. As a nation, we face something of a conundrum in that many of 
the positive social gains of the last decade have yet to be reflected 
in the size of our foster care population. For example, child poverty 
levels have declined, child maltreatment rates as measured using the 
NCANDS data are down; yet the foster care population continues to rise. 
Since 1990, the number of foster children has grown from 400,000 to 
568,000, an average of about 4 percent per year. To better illustrate 
my point, I have included a graph in my testimony that shows the number 
of children living in families receiving cash assistance and the number 
of children in foster care. Although I do not want to make more of the 
relationship between cash assistance and foster care utilization than 
is warranted, the data do suggest that welfare reform and the positive 
economic cycles that accompanied the federal law have had little impact 
on foster care, one way or the other. Also, given the substantial 
investments in child welfare services since 1993, this snapshot of data 
reveals how difficult it is to manage the child welfare system, 
especially from Washington.
    In my view, the new federal revenue will help states manage, but a 
host of important questions remain. On that list of questions, two 
stand out. The first concerns the issue of targeting and is closely 
connected to the question, Chairman Herger, that you asked in your 
announcement: ``Are we serving those children and families in greatest 
need?'' The second concerns the issue of state flexibility. State 
flexibility is important because, in contrast to the national picture, 
a number of states and localities are experiencing positive changes in 
their child welfare program. New York City and the state of Illinois 
are two examples that come to mind, there are certainly others. 
However, as the federal government contemplates policy changes, it is 
important to keep in mind that the impact of policy changes on states 
can vary widely and not always in the direction intended, sometimes 
undermining accomplishments that are ``local'' in nature. Also, the 
federal funds states receive in the form of board and maintenance 
payments cannot as a rule be used for purposes other than foster care. 
Among other things, this restriction means that states can not use 
those federal funds to make investments in services that might reduce 
the need for foster care. It also means, that as states improve their 
performance, as they presumably will under the Child and Family Service 
Reviews now underway, a greater share of the much-needed community and 
family-based services will be shouldered by the states themselves.
[GRAPHIC] [TIFF OMITTED] T3532A.006


    With respect to the question of targeting dollars more wisely, I 
would call your attention to the following. First, it is important to 
understand that federal funding under Title IV-B, subpart II is in some 
sense targeted now. Federal policy developments since 1993 have 
generally stressed investments in family support, family preservation, 
time-limited reunification services, post-adoption services, and a core 
set of outcomes: safety, permanency and well-being. In other words, 
using a variety of mechanisms, HHS directs state spending in those 
areas that are thought to be related to a fundamental set of purposes.
    As a means for structuring federal spending, the connection between 
the inputs (services) and outcomes is an essential one. Yet as a 
framework for guiding investment, federal policy as it now stands is 
incomplete. Missing is the set of answers that comprise the response to 
the Chairman's question: Are the programs serving those in greatest 
need? The answer is, I think, a qualified no. The answer is qualified 
in that everyday children who are in real danger receive essential 
services and there can be little disagreement with that fact. However, 
if we think in terms of child development and whether some children 
belong to high risk categories, and then ask whether federal dollars 
are efficiently targeted to those groups, then I think the answer is 
that we are not as judicious as we might be.
    <bullet> To understand why I think this is true, first consider the 
following facts developed from the Multistate Foster Care Data Archive, 
a source of tracking data that social scientists use to describe the 
placement experiences of roughly 1.25 million children:
    <bullet> Slightly more than 20 percent of all first admission in 
the 12 Archive states involve children under the age of 1. There is 
some variation across the states; however, the pattern is generally 
quite stable over time.
    <bullet> Among these infants, nearly half enter care before they 
are more than three months old. Again, there is some variation across 
the states that has to be understood, but the findings are generally 
stable.
    <bullet> Other high-risk groups include adolescents, with 15 year 
olds the largest group, typically. This finding is also consistent 
across the states; however in some rural areas, adolescents make up a 
much larger share of total foster care admissions.
    <bullet> The children most likely to be returned home are between 
the ages of 1 and 12. Infants are much more likely to be adopted than 
other, older children are. The very youngest children (under 3 months 
at the time of admission) are the children most likely to be adopted. 
This is true regardless of race and ethnicity.
    <bullet> Adolescents are the children most likely to runaway; 
however, of the children who spent some portion of their 16th year in 
placement, one-half went home to their families.
    Now ask whether the federal dollars are targeted in a manner that 
is consistent with these data. Moreover, consider whether federal 
spending reflects what we know about the risk of child maltreatment 
(highest amongyoung children) or what we know about what happens to 
children once they leave placement. In each of these instances, I think 
the answer is no, not to the extent that might be possible, even 
desirable, if we were to work more diligently on the alignment of 
policy and these ``clinical'' realities.
    With regard to targeting, then, the challenge facing the 
Subcommittee has to do with finding the legislative mechanism for 
adding a new layer of structure to the services and outcome framework 
already in place; a layer that directs federal spending to these high 
risk groups. As a step in this process, a group of scientists has been 
working over the past several months compiling what is known about the 
children and families who use child welfare services with the hope that 
these data might be of some use to the Subcommittee as it addresses the 
targeting question. Presently, we plan to review our findings at a 
meeting here in Washington on June 18th; we are hopeful that staff from 
the oversight committees and others will be able to join us.
    Turning now to the question of flexibility, I would make the 
following observations. When considering how to target federal spending 
more efficiently, Congress will immediately confront the issue of 
flexibility. To direct state spending in this or that way is the same 
as telling states that they can not spend it for purposes the state 
deems important. In other words, state discretion is limited. I believe 
the best way to handle this targeting issue is through the use of 
incentives. That is, states should be ``invited'' or otherwise 
encouraged to direct federal resources (along with the state and local 
share) toward critical need areas in their state provided they do so 
within the context of the federal outcomes. Some portion of the new 
Title IV-B allocation could be set aside to stimulate such investments 
and to provide the federal resources for evaluating state efforts.
    Also, I think the Congress should return to the legislation 
proposed by this Subcommittee during the closing weeks of the last 
session. There is little doubt in my mind that federal funding for 
foster care forces a structural rigidity into the child welfare system 
that limits state and local innovation. If that rigidity were to be 
relieved, the shift would itself lead to better targeting of service 
dollars, again within the context of the federal outcomes. In the past, 
the issue of flexibility has been tied to genuine concerns about a 
federal block grant. However, the flexible funding model contained in 
last year's legislation resolved an important policy objective: 
preserving the federal entitlement to foster care while granting the 
states greater latitude in their use of Title IV-E funds. In our work 
with the City of New York, I think we have demonstrated that it is 
possible to design programs using an approach nearly identical to the 
model proposed last year.
    From a more practical perspective, federal law needs a permanent 
structure for those states that are reaching the end of their first 
cycle of waivers. In those instances where a state used the waiver 
authority to pursue meaningful reform and the evaluation results show 
bonafide progress, it makes little sense to operate those programs 
under the same waiver conditions going forward. If the flexible funding 
proposal were adopted, then the successful waiver demonstration 
programs could be operated under guidelines that are developed pursuant 
to the flexible funding provisions. In short, the waiver program 
provides a unique opportunity for states to test selected approaches 
while the flexible funding model creates a mechanism for taking 
successful waiver demonstrations to scale.
    Finally, I believe it is important for Congress to realize that 
operating programs that provide states greater flexibility while 
stimulating more efficient targeting of services so that children and 
families are better off in the future requires the active participation 
of the scientific community. Over the past decade, investments in 
information and to a lesser extent research and evaluation have been 
substantial. More importantly, those investments are beginning to pay 
dividends. For example, I believe that one reason why federal programs 
today are not more effectively targeted has to do with the fact that 
the knowledge needed to support appropriate legislative language did 
not exist in 1993 when the first Family Support and Preservation Funds 
were authorized. Today that knowledge does exist, albeit in limited 
areas, and it is up to us all to apply that knowledge wisely. It is 
also up to us, in our collective stewardship, to make sure investments 
in knowledge building continue. Going forward, in five years the 
Congress will want to know whether the targeted dollars it authorized 
in 2001 had their intended effects. That is, did the services work? 
Were children and families better off as a result of our efforts? These 
are serious questions that demand a serious commitment of resources. 
Without the investment, our evidence base will be shrinking at a time 
when it needs to grow.
    Chairman Herger. Thank you very much, Dr. Wulczyn. This 
Committee will recess until three votes have been completed. 
Then we will convene as soon as possible afterward--thank you 
very much--and return to our remaining two witnesses and then 
for questioning.
    This Committee stands in recess.
    [Recess.]
    Chairman Herger. The Subcommittee will come to order, 
please. And we will resume testimony with Mr. Torres.

 STATEMENT OF RAYMOND TORRES, EXECUTIVE DIRECTOR, CASEY FAMILY 
               SERVICES, BRIDGEPORT, CONNECTICUT

    Mr. Torres. Thank you, Mr. Chairman and members of the 
Committee on Ways and Means, Subcommittee on Human Resources. 
My name is Raymond Torres. I am the executive director of Casey 
Family Services. Casey Family Services is a private, non-profit 
agency that has served numerable children and families for 25 
years. We have worked primarily with older children and teens 
who are in foster care and in need of transitioning supports 
and with children who are adopted from foster care. It is based 
on that experience that I would like to speak today on the 
importance of post-adoption services.
    Casey Family Services is the direct services arm of the 
Annie E. Casey Foundation, the largest foundation exclusively 
assisting disadvantaged children and families in the United 
States today. We are quite aware of the fact that the number of 
children in foster care has almost doubled in the last decade 
while the number of foster families has decreased by one-third. 
We have had a larger number of kids become eligible for 
adoption to the tune of 118,000 kids awaiting adoption.
    Our experience in the field of foster care has taught us 
that youngsters who are coming into care today are more 
traumatized than in the past. They are the victims of abuse, 
neglect, and sexual abuse. They are the youngsters who have the 
most difficulty while in the foster care system; and they are 
the youngsters who remain behind, because they are not prime 
candidates for adoption, and often these are the very same 
youngsters who stay in the system because they come from family 
situations that do not allow them to be reunified with their 
birth families.
    As an agency, we are very committed to doing everything we 
can to help these youngsters transition out of foster care. But 
what we also have learned over the years that if you are able 
to provide a solid array of services and supports to adoptive 
families, even the most difficult youngster become a candidate 
for adoption.
    This afternoon we will hear from one of our adoptive 
parents, Sonya Merrill, whotook the giant step of adopting a 
group of siblings, three sisters, who had been in foster care with some 
significant issues. Her story supports our experience as an agency: If 
you are interested in moving those 118,000 youngsters now awaiting 
adoption out of foster care, we all need to do more than simply promote 
awareness about the need for adoption.
    We need to recognize that the needs of these youngsters are 
often complex, and that these needs do not change automatically 
by the mere fact of the child becoming adopted. Children who 
have been traumatized, who have grown up in the foster care 
system, have severe needs--and they have the same needs the day 
after they become adopted. Unless we begin to take active steps 
to provide a safety net of services for these youngsters and 
their adoptive families, then it will be very difficult for 
these youngsters to first, become adopted and second, to stay 
adopted--a simple premise, but, one that merits a great deal of 
attention and one that we are very pleased to be able to 
address.
    The way that the foster care system has operated because, 
of the urgency of abuse and neglect, is that those youngsters 
waiting to be adopted have received the least attention, not 
because of any negative sentiment toward them, but because 
there has been a sense that they are safe. Well, because of 
that sense there has been a lack of attention given to their 
need for permanent homes with the kind of supports they need. 
If we do not take active steps to provide those supports for 
the families, then many families will remain hesitant to bring 
older children into their homes, knowing that the following day 
after they adopt that youngster, all the child's needs become 
their sole responsibility.
    We take pride in the fact that there have been active steps 
in advancing adoptions of children in care. As it has been 
stated at this hearing today, more youngsters are being 
adopted. At the same time, there are 118,000 children still 
waiting to be adopted. Our interest is for us to do more to 
provide a safety net, provide services that will allow people 
considering adoption to be able to step forth and adopt these 
children, confident that they will receive the support that 
they deserve.
    [The prepared statement of Mr. Torres follows:]
Statement of Raymond Torres, Executive Director, Casey Family Services, 
                        Bridgeport, Connecticut
    Thank you, Mr. Chairman and members of the Committee on Ways and 
Means, Subcommittee on Human Resources.
    My name is Raymond L. Torres, executive director of Casey Family 
Services. Casey Family Services is the direct service arm of the Annie 
E. Casey Foundation.
    Founded in 1976 in Bridgeport, Connecticut, Casey Family Services 
operates service programs for vulnerable children and families in each 
of the New England states and in Baltimore, Maryland. We started as a 
foster care agency. Today our programs include foster care, treatment 
foster care, transition services for youth leaving foster care, post-
adoption services, family preservation, family advocacy and support, 
family resource centers, assistance to teen parents and to families 
affected by HIV/AIDS. Our post-adoption programs currently operate in 
Connecticut, Maine, New Hampshire, Rhode Island, and Vermont.
    I have come here today to share with you what we have learned about 
the critical need for post-adoption services and its importance as part 
of a comprehensive approach to strengthening adoptions. The need is 
especially acute among families who have adopted children from foster 
care.
    In the past decade the number of children in foster care has nearly 
doubled, while the supply of foster homes has decreased by one-third. 
For many foster children who cannot return to their birth families, 
adoption is both a desirable and viable solution. Yet, despite the 
passage of the Adoption and Safe Families Act with its impetus to speed 
the passage of children from care into adoptive homes, 118,000 foster 
children eligible for adoption remain in the foster care system. These 
children are generally considered ``hard to place'' because they are 
older than the infants usually favored by prospective adoptive parents, 
and after years in care, they are all-to-frequently further burdened 
with significant emotional, physical and/or psychological challenges. 
When families have come forward to take these children into their 
homes, they have come face to face with problems that are 
insurmountable without outside help.
    For more than 10 years, Casey Family Services was at the forefront 
in the field of child welfare in the identification of the need for 
continuing services and supports among foster parents who adopted the 
children in their care. In 1991, Casey instituted one of the nation's 
first formal post-adoption services programs to assist those families. 
Over the years, staff from Casey's Divisions in Bridgeport and 
Hartford, Connecticut, Maine, New Hampshire, Rhode Island and Vermont 
have engaged in collaborative efforts within their states to share 
their knowledge and experience. Today they offer technical assistance 
and training to colleagues in private and public agencies, and are 
reaching out to the communities in which adoptive families live.
    In December, Casey Family Services hosted the first National Post-
Adoption Services conference in Washington, D.C. The conference drew 
more than 500 administrators, state adoption managers, practitioners, 
policy-makers, advocates, attorneys and judges, mental health 
professionals and educators from all 50 states, the District of 
Columbia, Puerto Rico and the U.S. Virgin Islands.
    The event marked a pivotal point in efforts to draw upon experience 
and innovation across professional disciplines previously not 
accustomed to conferring on issues affecting the children and families 
in their care orunder their jurisdiction.
    Casey's Post-Adoption Services program grew out of the agency's 
experience providing assistance to our foster families who adopted the 
children in their care. Recognizing that the emotional and psychiatric 
difficulties of foster children did not end when they were adopted, we 
concluded that adoptive families needed continued contact with social 
workers and access to services to be able to stay together. Because 
very few public or private agencies offered services to families after 
their adoptions were finalized, Casey also began extending post-
adoption services in 1992 to adoptive families in communities in which 
we are located. Without these services, I am convinced that many 
families would not have been able to maintain the adoption or would 
have maintained the adoption at the cost of the marriage.
    Over the years we have come to appreciate the strengths and 
resiliency of families who adopt children with very challenging 
behaviors and very complex emotional problems. We have also seen the 
stress, frustration and desperation of families who have struggled to 
obtain help for their adopted children, when no help was available. The 
primary focus of child welfare agencies has been on placing children 
with adoptive families and finalizing their adoption. The longer term 
needs of these children and families has not been an equal priority. 
Without such ongoing support, however, many adoptions are at risk of 
failure.
    Let me offer you just one example of the benefit of post-adoption 
services to families with special needs children.
    Sonya Merrill, who is here with us today, is a licensed foster care 
provider. In 1995, Casey Family Services asked Sonya if she would be 
able to care for four children: three sisters and their brother. 
Sibling groups are normally difficult to place together. Other attempts 
to find a suitable foster home had not been successful, but we at Casey 
were determined to keep the children together. Sonya listened and 
answered, ``I'll try.''
    The three sisters, now ages 6 through 9, have been with Sonya ever 
since. Their brother has returned to his paternal grandmother, but is 
still in touch.
    Casey social workers had worked with the birth family over the 
years in the hope that all the children could eventually return home. 
Family reunification is an important goal of Casey's foster care 
program. But that was not to be.
    Just this year, Sonya and her three girls officially became a 
permanent family. However, with the legalization of the adoption 
process the need for services and supports did not end. Sonya and her 
children have taken part in many of our programs and services, from 
respite care to counseling and after-school programs.
    For Sonya Merrill, knowing that the Casey support team and the 
services would always be there for her made a difference in her 
decision to adopt. What she has done is especially significant on two 
counts. A dedicated foster parent, her commitment to four challenging 
siblings has been extraordinary. Moreover, she has been willing and 
able to partner with the children's birth family--to include them in 
the parenting process. She's clearly the parent, but she's really very 
open to sharing an open adoption arrangement so that the children have 
a connection with their birth family.
    The strength of families like Sonya's and what they bring to the 
lives of children who need a permanent home is a constant source of 
reaffirmation for all who work in Casey's Post-Adoption Services 
Program.
    Recent public policy initiatives such as the Adoption and Safe 
Families Act (ASFA) have brought increasing momentum to effecting 
adoptions for children in foster care who cannot return to their birth 
families.
    Since 1997 the number of children in foster care whose adoptions 
have been finalized has increased dramatically. Between 1998 and 1999 
alone there was a 28% increase in the number of finalized adoptions of 
children in foster care, according to the U.S. Department of Health and 
Human Services. These statistics point to the critical need for post-
adoption services to insure the stability of these many new adoptions.
    The children, who remain in foster care after intensive efforts to 
find adoptive homes for them have failed, are those with the most 
challenging needs. Without the assurance of ongoing help and support 
after adoption, families are less likely to come forward. Post-adoption 
services can be key to enabling these children to have a permanent 
family through adoption.
    As a mother in our Vermont program so simply and eloquently 
expressed it: ``People think that adoption is happily ever after, but 
it's not always that way.''
    Children being adopted from the foster care system often have 
special needs that parents are not equipped to deal with on their own. 
Most children enter foster care because of physical or sexual abuse or 
neglect. Additionally many face ongoing instability and disruption in 
their lives due to multiple moves while in the foster care system. As a 
result of such trauma in their young lives, children often present 
significant emotional, physical, and psychological problems. Research 
has repeatedly shown that children in foster care are 
disproportionately affected by a range of chronic health problems; many 
younger children suffer from delayed development, many school age 
children have significant educational difficulties that warrant special 
education intervention; and some children have severe psychological and 
behavioral difficulties. These conditions often mean that children in 
foster care who are adopted have physical, emotional and behavioral 
problems that can create significant challenges for them and their 
adoptive families.
    Casey developed its Post-Adoption Services Program a decade ago 
both to address the lack of help available for families after adoption 
and to serve as a model for other agencies interested in developing 
this service. The program is open to any adoptive family and serves 
families with a range of needs--families seeking information as well as 
families at the brink of disruption. When families and children are 
overwhelmed by troubles they are unprepared for and can't find help, 
they may feel that the dissolution of the adoption is the only 
solution. Yet that is an outcome that can be avoided, for the benefit 
of both the child and family.
    Every adoptive family has different needs based on the past 
histories of their children; the age at which they entered foster care 
and their foster care experience; the intensity of the children's 
physical, social, and emotional needs. We recognize, therefore, that 
adoptive families need a broad range of services and supports. A 
family's needs may change as the child develops, requiring a different 
constellation of supports.
    Our program provides a range of services from prevention to early 
intervention to treatment. Our staff in Connecticut pioneered the 
program that now provides: information and referral (families and 
community professionals can call and obtain information about adoption 
and post-adoption resources); community education about adoption (staff 
go out to schools, mental health facilities and other community 
agencies to raise awareness about adoption and create a more supportive 
environment for families); education and training for adoptive parents, 
pre-adoptive parents and community professionals; support groups for 
adoptive children and for the biological children within those adoptive 
families; case advocacy and systems advocacy; and counseling.
    Adoption-related issues may surface for a child at different stages 
of development. For example, children who have been sexually abused may 
not even be able to share this information with their adoptive parents 
until several years after the adoption when they have learned to trust 
their parents. Oftentimes families are not aware at the time of the 
adoption what services they will need in the future.
    They cannot predict what kinds of adoption-related issues may 
surface as their children move through childhood and adolescence.
    One Connecticut family described their experience with our program 
this way:
          ``The social workers' expertise has been invaluable to us, 
        especially with our special needs teenage son. If it weren't 
        for their support, guidance and education, I don't think we 
        would have made it this far. Nowhere else have we been able to 
        get the support we need so much.''
    Another adoptive parent told us that her social worker came to a 
meeting with her child's teachers. She said she ``had so many things 
going on with both my girls that I just needed someone there to help me 
hear what the teachers were saying, to ask questions that I wasn't 
thinking of, and help explain how my older daughter's therapy was going 
to impact her school activities.''
    Our services are available whenever a family needs them and 
families are encouraged to come back for help if the need arises. We 
shape the services according to what the families tell us they need.
    A recent study of 300 families who received services from our 
program, found that the median length of time between their children's 
adoption and their seeking services at Casey was five years. It also 
found that after families left services, they often returned for 
additional assistance at a later time. These findings further point to 
the need for services and supports to be available throughout a child's 
development, as the need for help arises.
    Because we have a recognized track record in delivering excellent, 
effective post-adoption services that work, Casey Family Services has 
been invited to work in partnership with other private and public 
agencies. We promote the development of networks of community supports 
for adoptive families, which include service providers that are 
knowledgeable and sensitive to issues of adoption.
    In the State of Maine we are working with the Department of Human 
Services and the University of Southern Maine on a federally funded 
Child Welfare Demonstration Project. The federal resources supporting 
this five-year project come from funds (Title IV-E) usually dedicated 
to providing services to children in foster care. Maine is the only 
state chosen to use these resources to serve adoptive families. In 
Vermont, through an Adoption Opportunities grant, we are part of 
collaboration with the Department of Social and Rehabilitative Services 
and private agencies to extend post-adoption services across the state, 
particularly in rural areas in which services are often lacking. In 
Connecticut, also as part of an Adoption Opportunities grant we are 
working with the Department of Children and Families and the state 
Foster and Adoptive Parent Association to extend services to the 
southeastern part of the state.
    These experiences have underscored the need for cross-system 
collaboration in order to truly address the complex issues and problems 
that families face that overlap social services, education and mental 
health.
    At the groundbreaking December 2000 National Post-Adoption Services 
Conference in Washington, D.C., it was evident from the conference that 
child welfare agencies and professionals across disciplines recognize 
the growing need to support the increasing numbers of adoptions. They 
are hungry for information about how to finance, design and implement 
the range of supports that are needed.
    We know that there are very good services being offered and 
expanded in many states, including Connecticut, Maryland, Oklahoma, 
Pennsylvania and more. Texas has a particularly impressive statewide 
comprehensive post-adoption services program, which was presented 
during the conference. It is important to disseminate information about 
such efforts as widely as possible.
    We're now in the process of implementing the Casey Center for 
Effective Child Welfare Practice, which will help to provide 
information about best practice models in the field particularly in the 
area of post-adoption services. We are fortunate as an agency that is 
part of a national foundation to be able to fund these services as well 
as provide technical assistance at no cost to adoptive families or the 
agencies that serve them. However, our resources are not sufficient to 
fill the gap alone. Additional public and private funding is needed to 
insure that services and supports are available and accessible.
    We must all work together to acknowledge, understand and solve the 
often complex issues that accompany adoption. The children--too often 
victims of past abuse and neglect--need our continued help in making 
what for them may well be the most important transition of their lives. 
The families who have opened their hearts and homes to them deserve 
more than our admiration. They need our support.

                                <F-dash>


    Chairman Herger. Thank you very much, Mr. Torres. And now 
we will hear from Sonya Merrill, who is an adoptive parent and 
recipient of post-adoption services. Ms. Merrill.

    STATEMENT OF SONYA MERRILL, MENTAL HEALTH PROFESSIONAL, 
 CONNECTICUT DEPARTMENT OF MENTAL RETARDATION AND DIRECT CARE, 
  AND ADOPTIVE PARENT AND RECIPIENT, POST-ADOPTION SERVICES, 
                   SOUTH NORWALK, CONNECTICUT

    Ms. Merrill. Thank you, Mr. Chairman and members of the 
Committee. I have been with Casey for over 10 years; but in 
1995 that is when my journey really began with them, where I 
really experienced all the services that Casey doesprovide. I 
took in a sibling group originally of four, one of which, the male 
child, was treatment level, with severe behavioral problems. The girls 
all came with their own baggage. They were crack addicted.
    This is Patricia; she was crack addicted. This is Semaj, 
who was crack addicted. This is Shakoya, who was sexually 
molested; and this is Joseph, who is treatment level with a lot 
of baggage. I personally have a 15-year-old daughter. These are 
all of us. So I went from one child to five instantly, 
overnight. And my outlook on it was that I didn't know if I 
could adequately take care of all of these children and provide 
for them what they needed. Even though I worked in mental 
health and I knew how to do some of the behavior modification 
and things like that, I was afraid that I could not facilitate 
their needs off of my income and just being one person. And 
Casey promised to me that they would not leave me, and they 
would help provide resources for me and that they did.
    Mary Miller was my social worker at the time. The children 
were in my care for 4 years because the program that they 
originally came to me under was reunification and that is where 
the foster family works with the biological family, and we try 
and do parenting skills to help develop relationships with the 
biological parents to eventually get the children back to their 
parents. After 4 years it did not work. The mother was an 
addict.
    So it became a revolving door, and the children were TPR'd 
and they came up for adoption. I knew I wanted the children, 
but at the same time again the question came up could I 
facilitate their needs, would I be doing them an injustice to 
bring them into my household knowing I was a single parent and 
I worked and I had other responsibilities and even though they 
were with me for 4 years they still had needs.
    Semaj does not display any signs of crack in her system 
right now. Patricia is experiencing some problems with 
attention recall, and I knew that there had to be services that 
had to be provided; and I wasn't sure I had the means to meet 
them. Casey told me that through their post-adoptive services 
if I adopted them that they would provide these services. At 
present, Patricia is at Yale Children's Study Center undergoing 
a neurological psychological evaluation, which Casey is 
providing. I do know they were there for my other girls. My 
children are able to participate in Casey's after-school 
enrichment programs. They need tutorial sessions; Casey 
provides that.
    There are just so many services that Casey has continued 
even since my adopting them that I know if it had not been for 
Casey that I could not have made this transition. Casey social 
workers, even though I have adopted the children, still keep in 
touch with us. I still get weekly calls; I still get visits; 
and they have become my children's extended family. When we 
have problems, they have problems. When we have fun, they have 
fun. Whatever the situation I am going through, Casey goes 
through.
    I feel as a parent, a single parent, speaking for adoptive 
parents that--not so much becoming an adoptive parent, is the 
exciting part; but the other part that makes you want to be a 
parent is when you know you have the resources of the post-
adoptive programs to help, because you can't do it alone, 
because the children's needs don't disappear once you adopt 
them and give them a name. Even though they are stable, they 
still have problems.
    In my case, I know there will still be more problems to 
arise because of conditions they came with. And I have also 
known when they arise I am going to need help. For me the post-
adoption programs and services that have been provided have 
sustained my household. It also was a major factor in my 
decision whether or not I could be an adoptive parent and 
provide for the children. Love is good, but you also have to be 
real and meet the needs medically, psychologically, and 
emotionally for these children.
    [The prepared statement of Ms. Merrill follows:]
  Statement of Sonya Merrill, Mental Health Professional, Connecticut 
 Department of Mental Retardation and Direct Care (Adoptive Parent and 
    Recipient of Post-Adoption Services, South Norwalk, Connecticut)
    Thank you, Mr. Chairman and members of the Committee on Ways and 
Means, Subcommittee on Human Resources.
    I am Sonya Merrill. I am a mental health professional with the 
State of Connecticut Department of Mental Retardation and Direct Care. 
I am a licensed foster care provider. And today I am something more: an 
adoptive mother of three girls, ages 5 through 12.
    In 1995, Casey Family Services asked me if I would be able to care 
for four foster children: three sisters and their brother. I know 
sibling groups are normally difficult to place together. In fact, other 
attempts to find a suitable foster home for these children had not been 
successful. So, when Casey Social Worker Mary Harris Miller pleaded 
with me to take them in, I said, ``I'll try.''
    Shequoia, Patricia and Seima have been with me ever since. Their 
brother Joseph chose to live with his paternal grandmother, but I make 
sure the children stay in touch. Casey guidelines call for working with 
the birth family.
    My adoption of the girls became final in January of this year. 
Throughout the process and to this day, I have taken advantage of just 
about every service that Casey offers. The treatment programs, for 
example, are particularly helpful because they are designed for 
children with severe psychological, emotional, physical or behavioral 
needs. And all my children have needs; they were born addicted.
    I've used Casey's after-school enrichment programs, and the respite 
care has proven a godsend. I do need respite. I've taken part in a lot 
of the foster parenting support groups, and we've had a physician come 
in and serve, as needed, as a liaison with the birth parents.
    Knowing that the Casey support team and services would always be 
there for me made a huge difference in my decision to adopt. I'm a 
single parent, and if the services Casey provides were not extended to 
me once I had adopted the children, I know that I could not adequately 
have taken care of these kids. The children need tutorial sessions and 
a counselor; I could not afford those services on my own. Sometimes the 
medical bills are astronomical. It is so important for families like 
ours to know we can find help when we need it. The average person 
cannot cope with their needs by themselves.
    It was Casey Family Services that brought us together. It's Casey 
that supports us and keeps reinforcing that support. We think of the 
social workers as part of our family. We eat together. We laugh 
together. We cry together. We work out problems together.
    I am very aware that we are fortunate that the services that Casey 
provides are available to us. But we should not be the exception. I 
believe that every adoptive family should have the same opportunities 
that my daughters and I have had to cope with the challenges before 
them.
    Chairman Herger. Thank you for your testimony, Ms. Merrill 
and I want to thank each of our panelists for testifying.
    At this time, we will turn questioning over to the members; 
and I would like to remind the members that we do have 5 
minutes for witness questioning. Ms. Merrill, I note in your 
testimony that you became a foster parent in 1995, and the 
adoptions were finalized in January of this year. Could you 
walk us through, please, the time line. When did you decide you 
wanted to adopt? How long did the adoption process take--was 
that an appropriate length of time? Is there anything that you 
would suggest for speeding up the process?
    Ms. Merrill. Okay. Initially, like I said, they were in 
reunification. It was after the fourth year of the mother 
revolving back and forth into rehabilitation and then 
disappearing, that the agency along with me realized that they 
were going to be reunified. For me that was a long process 
because emotionally my children were on a roller coaster. 
Shakoya, the oldest one, her nerves totally collapsed. She 
wound up losing her hair because she feared she had to go back 
into that environment with her mother.
    The baby, Semaj, never bonded with the mother as a result 
of the mother not even coming into my home to learn to bond 
with her. She never knew her. And Patricia, she is an 
introvert. She did not want anything to do with it. So for me, 
4 years was a long time seeing that the mother was not going to 
get better. As far as the adoption process, I believe my 
situation was a special one because it did not take long. They 
started the TPR, the Termination of Parental Rights, I believe 
that June. And we had thought it was going to take 18 months, 
but it did not. The paperwork went through, and that January we 
were notified that it was final. So that in itself was a very 
special situation because it did not take as long as they 
thought it was going to take for us.
    Chairman Herger. Well, thank you. Is this typical, the 
shorter time period with you--would anyone like to comment--or 
does it normally take longer? Does anyone have any comments on 
that? Any suggestions what we might do for speeding up the 
process, Dr. Beougher?
    Mr. Beougher. I will say a couple of things, if I could. 
First of all, Michigan has a fairly rapid adoption process once 
parental rights are terminated, and we have also had legal 
changes in Michigan that have sped up the process compatible 
with what the Adoption and Safe Families Act expects. But 
Michigan began in 1991 to reimburse private agencies based on 
results. So adoption agencies only get reimbursed when they 
actually accomplish an adoption, and the more promptly they 
accomplish an adoption, the greater the payment.
    That has caused our adoptions to increase to the point 
where--we now have more kids receiving adoption subsidy than we 
have in the foster care system. Adoption subsidies now total 
about 157 million a year for a little less than 20,000 children 
to put the impact of performance based contracting into 
perspective, in 1996, we had 2 percent of the kids in foster 
care; and we did nearly 10 percent of all the adoption of abuse 
and neglected kids in the country. We directly attribute that 
to contracting on the basis of outcomes and results. Finally, 
we have a public/private partnership; State adoption workers 
also do adoption services.
    But it took us a while to figure out that if we set outcome 
performance expectations for them they would also increase. So 
adoptions in the public sector increased 22 percent last year 
over the previous year. Of the children who are adopted in 
Michigan, in fiscal year 2000 8,990 were adopted within a year 
after parental rights termination.
    Chairman Herger. Judge Kearney.
    Ms. Kearney. Mr. Chair, I think that Ms. Merrill's story 
indicates a couple of issues, one that Mr. Cardin indicated 
earlier on, the need for substance abuse services for families 
early on, especially in the prevention aspect. But I also think 
it indicates clearly what the goals of APHSA were designed to 
do and that is, number one, make sure that children are safe 
and also to ensure their safety, their well-being and the 
permanence--and it was designed certainly to prevent 4 years of 
children languishing in care.
    I think what is so critically needed here and what Congress 
should look at is the assessment at the front end that when the 
children come in to look and see--just listening to Ms. 
Merrill's story right now, as listening to it in my dual role 
sort of as judge and as the secretary of Department of Children 
and Families, there were risk indicators so high right at the 
very beginning. The fact that she had three children that were 
all cocaine dependent or exposed at birth--where were we at 
child one? Why did we wait until child three for intervention. 
The fact that there was sexual abuse of a young male child. The 
risk indicators were all there for much earlier intervention 
and termination of parental rights, frankly, so these 
childrencould be cleared.
    So I think you need to look at the needs for mental health 
services, the needs for substance abuse services, the 
integration of those services, and also a very strong risk 
assessment right at the front end so you don't have children 
and families languishing like this.
    Chairman Herger. So in other words, once the adoption began 
it seemed to move fairly rapidly. But, there is a lot more that 
could be done efficiently and effectively up front.
    Ms. Kearney. Yes, Mr. Chair. And frankly that is what 
Congress did with APHSA, and so as you see when the children 
first came in in 1995, that law did not exist. So that is the 
beauty of it and what your work means for the country.
    Chairman Herger. Thank you very much. Mr. Cardin.
    Mr. Cardin. Thank you, Mr. Chairman. I really want to thank 
all the witnesses. This has been a very, very helpful 
presentation on the issues. And I couldn't help but think, Ms. 
Merrill, I am sorry you were not at our Committee markup 
yesterday when we took up the adoption credit and the special 
attention for special needs children. At least some of us want 
to get special attention. We have made a lot of progress on 
adopting children that have been in foster care, but there is 
still 118,000 that are eligible for adoption right now that are 
waiting. Most of those children are special needs children.
    And, Ms. Merrill, you put a face on the problem for us, 
that this is not an easy task we have and those who step 
forward really are making a great--doing a great service to our 
community and we thank you for that. And for the children, 
particularly, we thank you.
    It is clear to me that there is general consensus that we 
should reauthorize the program, that there is still need for a 
Federal role in dealing with this issue, that we should support 
the President's request for an additional $200 million a year. 
That money is needed. And most of us have spoken to additional 
flexibility. You don't particularly like the regulation that 
mandates that you spend a certain amount in a particular 
category. So let me take the prerogative of a Member of 
Congress and say we have now increased the program by $200 
million, we have given you the additional flexibility. Where 
would you spend the money? You can spend the money anywhere you 
want. Where are you going to spend it?
    Ms. Mouzon. First, I believe that we need more money in our 
child protective service program. So with flexibility we can 
now do some things at that end that we have not been able to 
do. We have never been given enough money to have either an 
adequate workforce for a population that is very challenging in 
the problems that are presented. I think it is there also that 
we can really start looking at some of the substance abuse 
issues that most of us have alluded to, because we want to 
catch them early on and we do need treatment on demand.
    The other thing I think we would have to emphasize is a 
really good recruitment campaign. As Ms. Merrill and many of 
our adoptive families are, these are our foster parents. We are 
starting to eat up our foster resources, so we need a 
professional campaign in which we start introducing the system 
in a more holistic way to people to let them know that they 
need to be a part of whatever it is that we would plan to build 
upon.
    The other thing, I think, is we need some good prevention 
dollars to increase our family supports. We only are able to 
have family support systems in 17 out of 24 jurisdictions in 
Maryland. As you know, we are a much smaller State than some of 
the other States. We need to have those supports available 
across the board. Everyone who comes to us with an issue should 
be able to receive a service. Right now that does not happen. 
If you come to us and you get there while the dollars are 
available, then you get one type of service; but those dollars 
do run out. And unfortunately then they are forced into 
services that are not as specialized. Those are some of the 
things we would do in Maryland.
    But I know we would definitely pour a lot into substance 
abuse. And I should say, last, we will also look at mental 
health services. There are many children who are in need of 
mental health services because their parents' private insurance 
runs out. These children then become attached to the child 
welfare agency, and we have to take these children into care 
just so they can receive mental health services. There has to 
be a better response than us taking these children into care. 
We need to get the service to them that they need without 
having them fall under the APHSA requirements. And I think that 
is what we would do in Maryland, at least if I am still there.
    Mr. Cardin. Mr. Torres.
    Mr. Torres. As I stated before, I believe we are taking 
active steps to move more kids into adoptions. We need to do 
more to be able to support these families. We need to do more 
than pat them on the back; we need to have services available 
to them for when they need them. Adoptive families need 
counseling; they need respite. They need treatment. They often 
may need treatment-level care for short periods of time. And if 
the families knew in advance that the supports would be 
available for them whenever the need arises, then they would be 
more likely to step up and adopt these youngsters, because they 
would know there would be a safety net to support them for when 
issues come up with the youngsters. We support a continuum of 
care for these families, based on the needs of the youngsters.
    Mr. Cardin. Mrs. Rosenbaum.
    Ms. Rosenbaum. Yes. I think there are four categories of 
opportunity for spending right now, and I think that they 
provide for both remedial sorts of intervention, aswell as for 
prevention. Maybe not primary prevention in the scope that everyone 
would like to see. I think the categories have worked well, and one of 
things that we are particularly interested in is allowing even more 
flexibility to provide the opportunity for Maryland to focus on family 
resource centers whereas Florida might want to look at something else. 
There are some administrative constraints right now. Each State seems 
to have fashioned very localized community approaches to serving 
families and recognizing that the money has limitations.
    Mr. Cardin. Let me, if I might, just talk on the substance 
abuse issue. You heard that I emphasized that on my opening 
comment, and I thought Judge Kearney's point about prevention 
in the early stages is right on target to save an awful lot of 
resources and we will have much better results the earlier we 
get into the issues. I know that Maryland is using some of the 
money for substance abuse, but I believe you also have a waiver 
so you have a little more flexibility in that regard. I guess 
my question is, is there broad enough authority within the 
current statute to use money for the purpose of substance 
abuse? Is it an issue of not enough resources, or is it the 
program is too restricted in the way that it is configured to 
be able to get the money out for early prevention issues such 
as substance abuse or other related problems? Do we need to 
amend the statute, or is it just a matter of resources?
    Ms. Mouzon. Well, I would say a little of both. One of the 
issues is once a parent has their child removed from them, they 
are no longer eligible to receive any of the Medicaid services 
that would pay for substance abuse treatment. So it presents a 
challenge in how are you going to engage that family in 
treatment. And that is part of the reason we ask for the 
demonstration waiver. What we are able to do now is to transfer 
some of the placement dollars into treatment resources.
    The other things that needs to be developed is a capacity, 
particularly for mothers, to go into treatment with their 
children. And presently that capacity is not there within the 
treatment-provider network. As a result of that, if we remove 
the children, we no longer have that bonding that needs to take 
place. And we have found through our drug-exposed infant 
projects, if we don't take advantage of that window of 
opportunity, then what happens is those moms will continue to 
be disconnected from those babies. The babies, as Ms. Merrill 
pointed out, are easy to get adopted; but unfortunately that 
mom will end up having another baby, and we end up taking these 
children cyclically through the child welfare system, and we 
certainly don't want to do that.
    Chairman Herger. Thank you, Mr. Cardin. Mr. Beougher, as 
Federal policy makers, what lessons should we draw from what 
you have learned from the Families First program in Michigan? 
And how about other States as well? And could they be expected 
to repeat your results?
    Mr. Beougher. I think I can't speak for what other States' 
experience is, but from ours only I think the only reason that 
we have any credibility and results is, one, because we feel we 
owe it to the taxpayers. I mean, we always have to take into 
account that we use the people's money wisely. If you are going 
to use the people's money wisely, you have got to set outcomes. 
You have got to hold people to outcomes. If you can't measure 
something, you do not know if it is successful.
    And you also have to have uniform training, and you have to 
have accountability procedures in place so you can monitor 
whether the model you put in place is truly being used the way 
it was intended. And you have got to have uniform training. 
Those things seem to work time and time again in Michigan. If 
you have a hundred different models of something in a State, 
there is no way to measure whether it is being done in the way 
you have defined it. And there is no way to train uniformly, 
and there is no way to explain the story to the public in such 
a way that they can accept that a positive outcome has 
occurred.
    Chairman Herger. Thank you. Mr. Cardin.
    Mr. Cardin. Judge Kearney, I just wanted to follow up on 
the last question I raised and that is, are the statutes 
sufficiently broad to allow early intervention? I agree with 
accountability. I think we need to have accountability, but I 
think we should allow the flexibility necessary so you can get 
at a problem as efficiently as you can; and to me that means 
early intervention. And I guess my point is, is the statute 
broad enough to allow you to get at the issues at an early 
stage?
    Ms. Kearney. I believe--and I agree with my colleague from 
Maryland---that it is a little bit of both. There are problems 
with the statute, I think, that can be amended and I also 
believe that it is a resources issue. Attached to my testimony 
is a chart that you will recall from before which is a child's 
journey through placement, where you literally will see next to 
the events in this young child's life all of the different 
Federal funding sources and streams that will go to fund this 
child's journey through child protection.
    Right now--we did not seek a waiver for our Title IV-B 
because, frankly, it was too difficult to obtain. We ended up 
withdrawing our IV-E waiver because after 3 years of not having 
heard anything, it became very difficult. So I really believe 
that Congress needs to act and address the flexibility issue 
because I do believe that you have seen great results in States 
where they demonstrate that they can be accountable, but at the 
same time take care of needs of the children within those 
States.
    Chairman Herger. Thank you very much.
    Dr. Wulczyn. I wanted to comment, if I could, on the 
question of early intervention and how to best proceed and 
return to my remarks in my testimony. I think in order to 
succeed in developing early intervention programs, one has to 
take into account the contours of the population that are 
served in the child welfare system and understand that early 
intervention will mean different things, depending upon whether 
you are talking about intervening in the lives of families with 
15-year-olds as opposed to families with infants, and it is 
that lack of focus interms of how best to structure these 
programs to these target populations.
    If 20 percent of the children coming into foster care are 
under the age of 1 month, it has a very specific meaning for 
the kinds of programs that will constitute an early 
intervention effort. And we do not have that kind of focus or 
that kind of direction emanating from Federal policy. And it 
would be useful if the Federal government could incentivize 
States to take these much more focused perspectives on the 
programs they develop. In the context of outcomes and 
flexibility, I think you have a much better chance of seeing 
reductions in the national foster care population over time.
    Chairman Herger. Thank you very much, Dr. Wulczyn. And I 
want to thank each of our panelists for the very good testimony 
that each of you has presented to us today, and I would trust 
that the witnesses would respond in writing to any additional 
questions on these issues. It has been a very informative 
hearing. I appreciate the work that each of you has done and 
the time that you have given us today. And with that, the 
hearing stands adjourned.
    [Whereupon, at 2:44 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to the panel, and 
their responses follow:]

        American Public Human Services Association,
                                  Washington, DC 20002-1267
                                                       May 22, 2001
Representative Wally Herger,
Chairman, Subcommittee on Human Resources, Committee on Ways and Means, 
        B-317 Rayburn House Office Building, Washington, DC 20515
    Dear Congressman Herger: Thank you again for the opportunity to 
testify at your committee's recent hearing on the reauthorization of 
the Promoting Safe and Stable Families Program. This is an important 
program that has proven to be a vital source of support for vulnerable 
families. Following are answers to your follow up questions regarding 
my testimony.
    1. Do you believe the four current categories of services--(1) 
family preservation, (2) family support, (3) time-limited family 
reunification, and (4) adoption promotion and support--are the right 
areas of focus?
    APHSA is satisfied with the four categories listed above and we 
believe these components provide families with vital services and 
support. They provide necessary coverage to two service areas that are 
relevant to child welfare--early intervention and remedial services. 
The categories allow communities flexibility in creating responsive 
services that can be tailored to individual family needs, while at the 
same time supporting a broad continuum of services.
    2. I note from your testimony that your association supports 
allowing 50 percent of the funds available under the Safe and Stable 
Families Program to be used at State discretion for programs that meet 
State-specific needs.
    A. How does that compare with the current program policy?
    The HHS interpretation of ``significant portion'' as 20 percent of 
the funds being spent on each category creates an artificial situation 
in which services are selected to fit into a spending category rather 
than being reflective of the service needs and emphases of a particular 
state or community.
    B. Why not allow all of the funds to be flexible?
    APHSA's proposal calls for 50 percent of the funds to be used 
flexibly and for the remaining 50 percent to be allocated by 12.5 
percent going to each of the four categories. Such a proposal assures 
minimum coverage of each program area while allowing a higher 
concentration of funds to be targeted to areas of greatest need. But we 
note, HHS currently permits states to spend less in a particular area, 
should a state present a compelling reason as to why this is necessary.
    3. In your written testimony, you make some specific suggestions on 
the need for increased waiver authority and waiver flexibility. How 
much could be done administratively and what do you recommend 
legislatively?
    APHSA's position is that substantial modifications to the Title IV-
E waiver process should be made in order to allow more flexibility, a 
broader scope, and to foster system change. States believe that the 
current waiver process limits innovation and is not responsive to the 
sense of urgency to change the child welfare system.
    The following changes to the waiver system should be made 
administratively:
          <bullet> Expand the limited number of states that may conduct 
        waivers on the same topic (such as guardianship);
          <bullet> Eliminate the limited number of waivers that may be 
        conducted by a single state;
          <bullet> Enable states with the option to continue their 
        waivers beyond 5 years;
          <bullet> Eliminate approval criteria that require random 
        assignment and control groups that limit statewide approaches;
          <bullet> Loosen the rigid evaluation process; and
          <bullet> HHS should approve alternative baselines, such as 
        the use of historical baselines based on foster care use, to 
        calculate cost-neutrality.
    The following changes should be made through legislation:
          <bullet> Eliminate the limited number of waivers HHS can 
        approve--thereby extending the waiver option to as many states 
        as want to participate; and
          <bullet> Reauthorize the Title IV-E Child Welfare 
        Demonstration Waivers for an additional 5 years.
    Additionally, the Federal government should continue to evaluate 
the wavier projects to determine whether or not legislative changes are 
needed in terms of how Title IV-E dollars can be used. For example, 
perhaps the use of IV-E dollars for subsidized guardianship should be 
expanded to all states. Also, perhaps we have we learned enough from 
flexible financing waivers to warrant a Federal financing change.
    4. You mention in your testimony the need for increased resources 
for and collaboration with substance abuse providers. As you know, the 
Adoption and Safe Families Act requires coordination with substance 
abuse agencies. And, substance abuse treatment and prevention funding 
has quadrupled since the early 1980's when substance abuse was at its 
peak.
    A. Do you believe of the problems with resources reaching these 
families is the lack of collaboration with substance abuse programs?
    Substance abuse among families served by the child welfare system 
is a serious concern. As discussed in Crossroads: New Directions in 
Social Policy, APHSA's transition report to Congress and the 
Administration, with parental substance abuse is one of the major 
reasons children come into the child welfare system, it is one of the 
most pervasive problems confronting today's child welfare system. The 
new permanency timeframes mandated by ASFA, along with welfare reform 
and changes to Medicaid and managed care that affected state and local 
governments have made it vitally important that child welfare and 
substance abuse treatment systems work together and reexamine their 
current service practices.
    As you know, as a result of ASFA, judges are required to hold a 
permanency hearing within 12 months of a child being placed in out of 
home care, and a permanency goal must be set at this hearing. States 
must file petitions to terminate parental rights if a child has been in 
foster care for 15 of 22 months unless a compelling reason is 
documented. If parents don't show progress toward correcting the 
condition that led to the removal of their child (very often, substance 
abuse) the agency or court may move to terminate parental rights. To 
prevent this from happening when it shouldn't, substance abuse and 
child welfare systems need to collaborate and share information 
regarding treatment so that child welfare workers and the courts have 
the information they need to make decisions.
    Unfortunately, there is limited funding set aside for agencies to 
collaborate and strategies to share information under the current law 
are too limited to effectively address the needs of the child welfare 
agency to carry out its responsibilities. Without appropriate 
information sharing regarding treatment progress, child welfare workers 
and the courts have inadequate or inaccurate information with which to 
make important placement decisions. While there are exceptions, most 
state and local child welfare and substance abuse treatment systems 
function independently of one another even when administrative 
responsibilities for both systems are located within the same 
department. Some jurisdictions have made efforts to coordinate services 
or collaborate on cases, but the two systems predominately focus on 
``their'' clients, either the abused and neglected child or the 
substance abusing parent. Recent studies have indicated a high failure 
rate (75 percent) for engaging and retaining women with children in the 
foster care system in treatment.
    B. If so, what do you recommend should be done to encourage 
collaboration?
    We recommend that the following be done to encourage collaboration 
between the substance abuse and child welfare systems:
          <bullet> Provide new Federal resources to address substance 
        abuse within families in the child welfare system.
          <bullet> Provide Federal funding through a new child welfare/
        substance abuse partnership grant program to be administered 
        jointly by state child welfare and substance abuse agencies. 
        The focus of the grant would be on families with alcohol and 
        drug programs who come to the attention of the child welfare 
        system and would encourage joint activities designed to 
        increase the capacity of both the child welfare and alcohol and 
        drug systems to address comprehensively the needs of these 
        families to improve child safety, family stability, and 
        permanence and to promote recovery from alcohol and drug 
        programs.
          <bullet> Amend the Federal substance abuse confidentiality 
        statute and regulations to enable child welfare agencies and 
        the courts to obtain the information from substance abuse 
        treatment providers necessary to make permanency and safety 
        decisions for children who are in the child welfare system. 
        Confidentiality rules need to require sharing and redisclosure 
        of information between the two systems, specifically to assess 
        progress in treatment, assure safety, and make informed 
        decisions regarding permanence.
          <bullet> Remove barriers to Medicaid funding to ensure that a 
        previously eligible Medicaid family retains eligibility while 
        their child is in foster care so that caretakers can access 
        services that help them overcome the problems that led to the 
        child being removed from the home.
    Substance abuse is a significant factor in over one-half the child 
abuse and neglect cases. Unless there are enough quality substance 
abuse services available to engage and retain parents in treatment, 
while helping them progress, so they can care for their children safely 
and to ensure that information is shared to help agencies and courts 
make informed decisions about safety and permanence, the goals of ASFA 
cannot be met.
    We believe that S. 484, the Child Protection/Alcohol and Drug 
Partnership Act, is a positive approach to addressing many of our 
concerns.
    Thank you again for your attention to this matter. Please feel to 
contact me or Jennifer Grayson at 202/682-0100 if you have additional 
questions.
            Sincerely,
                                          Betsey Rosenbaum,
                             Director, Children and Family Services

                                <F-dash>


               Michigan Family Independence Agency,
                                    Lansing, Michigan 48909
                                                       May 23, 2001
Re Follow-up Question Responses.

Mr. Wally Herger,
Chairman, Committee on Ways and Means, Subcommittee on Human Resources, 
        Washington, DC 20515.
    Dear Mr. Herger: The following are responses to those questions 
asked in your May 16, 2001 letter regarding my testimony on Promoting 
Safe and Stable Families.
    1. To what extent are TANF funds used or important to the Families 
First model? How much does Michigan spend from its TANF block grant for 
child welfare? From its Title XX funds?
    Currently, TANF is the funding source for Families First. This 
change occurred as a result of modifications to Michigan's state plan 
in April of 2000. At that time, Michigan submitted a TANFState Plan 
amendment that included a number of programs that encourage the 
formation and maintenance of two-parent families. These programs do not 
require a financial eligibility determination. Families First was 
included in this group.
    In Michigan, we spend $169.8 million dollars of TANF funds for 
Child Welfare programs. These dollars are allocated among staff wages 
and fringe benefits, Family Preservation Programs, the Teen Parent 
Program, Youth in Transition Program, Adoption Subsidy Programs and 
funds out-of-home care for non-Title IV-E eligible children or 
placements under our former title IV-A Emergency Assistance Plan.
    Our projected claim for Title XX for Child Welfare Services is 
$13.7 million dollars with additional cost allocation for staff 
bringing the total projected claim to $17.8 million for 2001.
    2. I understand that research conducted for HHS on family 
preservation programs that followed the HomeBuilders model showed no 
significant positive results. Yet you have seen positive results under 
this model in your State. Why do you think your program has been 
successful and others have not?
    In Michigan, we believe our Families First Program, and other 
family preservation models, are successful in achieving their goals due 
to the State's stringent adherence to those critical factors of model 
integrity, establishment of clear outcomes, monitoring performance, and 
on-going training. Additionally, Michigan is committed to Family 
Preservation Program models that provide key decisionmaking roles to 
the families they are intended to serve. Michigan's Family Preservation 
Programs view families as partners, as part of the solution rather than 
the problem.
    Tangential to this philosophical intent is Michigan's commitment to 
ensuring that the basic needs of families are met, specifically; 
shelter, food, clothing and medical care. We have found that families 
experiencing crisis related to homelessness, hunger or medical 
treatment are not able to focus on improving and sustaining change in 
their family relationships. In our Family Preservation programs, our 
goal is to assist families in meeting these critical basic needs in 
order to promote family stability and safety.
    Our models are also based on inclusiveness of all community 
partners who have a stake in child protection. For instance, local 
human service providers, faith-based organizations, and the educational 
system are but three of the integral community partners involved in 
providing a responsive continuum of service to families in need.
    In brief, I would assert that the following critical components 
must be present in Family Preservation programs for them to be 
successful:
          <bullet> Parent/child/family participation in individual 
        service plan design and implementation
          <bullet> Uniform training provided to all family preservation 
        service providers
          <bullet> Contractual service providers must be community 
        based to ensure relevancy of services
          <bullet> Defined outcomes and expectations for family 
        preservation programs are clearly articulated and monitored
          <bullet> Defined quality assurance processes are built into 
        the family preservation program models and are monitored to 
        ensure adherence to the model
          <bullet> Technical assistance and training is on-going and 
        provided through collaborative partnerships to assure relevance
    3. If you received a block grant of child welfare funds with 
minimal Federal rules or could transfer funds across child welfare 
programs (from Title IV-E to Title IV-B) in a cost-neutral way, how 
would your child welfare programs change? What impacts would this have 
on at-risk children in Michigan?
    Michigan supports the concepts of transferability and de-linking in 
the award of federal funds utilized for child welfare services. 
However, it is critical that funding levels of Title IV-B or Title IV-E 
not be decreased to accomplish the goal of block granting funds to 
promote flexibility. Should Michigan be permitted to transfer funds 
from Title IV-E to IV-B, we would invest a portion of the dollars into 
expansion of those programs where we have identified superior outcomes.
    Another important aspect of this flexibility is that it would 
permit Michigan to offer Family Preservation Programs to families that 
are transitioning between more categorically funded services, 
specifically, returning home from an out-of-home placement. Due to 
funding restrictions, we are often unable to provide the full continuum 
of services to families that we believe is necessary. This often 
results in a disconnection in service continuity and a lack of cohesive 
service planning. Flexibility in funding would enable states to enhance 
their family preservation strategies to focus on providing the most 
appropriate services versus providing services that are determined by 
available funding.
    Relative to the impact upon at risk children, flexibility in 
funding would require the state to ensure adequate funding was 
available for all out-of-home placements that are necessary to protect 
the child from abuse or neglect. Protection and safety must always be 
our first priority. Determining the dollar reserve necessary to 
adequately cover out-of-home care costs would need to be made on 
historical data coupled with cost projections and it would require the 
state to develop and utilize a sophisticated cost methodology.
    Another consideration relative to child safety is that an out-of-
home placement is not always the safest option for children. Abuses do 
occur in these settings, though not as frequently as in the family 
home. Our commitment to Family Preservation programming places child 
safety as a priority and we would take steps to ensure this commitment 
continued should we be permitted to transfer funds between Title IV-B 
and Title IV-E.
    Finally, one of the basic tenets of our Family Preservation program 
continuum is the focus on providing intensive, home-based services to 
the family. For Family Preservation programs to be effective in the 
long term, families must learn how to develop natural support systems 
within their community. These resources can be the schools, churches, 
local service clubs, neighbors and family Members. The key is teaching 
families that when a crisis occurs, there are resources available to 
them that can assist them in addressing their immediate needs while 
keeping the family intact and children safe.
    In the long term, I believe that funding family preservation 
services at an enhanced rate will ultimately reduce the number of 
children at risk of abuse or neglect. Family preservation programs are 
inherently teaching models. They teach families and communities the 
value of ensuring child protection and safety through intensive 
intervention. These services delivered ``up front'', before the risk of 
abuse or neglect reaches a critical level, enables safety planning and 
community supports to be implemented. This early intervention 
effectively teaches families and communities new strategies to employ 
in protecting their children.
    In Michigan we believe this fundamental change would provide better 
protection for at risk children rather than decreasing these 
protections.
    4. At several points in your testimony you describe how your 
programs have resulted in program savings, for example by reducing out-
of-home (that is, foster care) placements. Please tell us more about 
this--where is the money saved, how much has been saved and how have 
those savings been reinvested?
    The following data is specific to the Families First of Michigan 
Program.
    While interventions provided by foster care and Families First are 
quite different, the ultimate goal of each is to ensure the safety of 
children. In July 1998, the Office of the Michigan Auditor General 
completed a 3-year performance audit of Families First. The Auditor 
General found that Families First places ``a high priority on the 
safety of children.'' The Auditor General also found that Families 
First can be a ``cost effective alternative to out-of-home placement 
for certain eligible children.''
    In this audit, the reported cost of a family receiving Families 
First program services averaged $4,367 in fiscal year 1996-1997 
compared to the reported per child cost of foster care of $12,384 and 
institutional care of $56,206.
    In the Families First Evaluation Summary Report,\1\ the researcher 
looked at the costs associated with Post Treatment Services as a 
continuation of total costs associated with an out-of-home placement. 
They found the following:
---------------------------------------------------------------------------
    \1\ Evaluation of Michigan's Families First Program, Summary 
Report, March 1993, University Associates, Lansing, MI.
---------------------------------------------------------------------------
    The cost of Foster Care services for children who re-entered foster 
care during the 12-month period following the date of their return home 
was $3,302 per child, averaged across the 225 children in the study. By 
comparison, the cost of Families First children who entered foster care 
during the 12-month period post intervention was $2,123 per child, 
averaged across the 225 children in the study. This results in savings 
of $1179 per child.
    Michigan has experienced similar results through the use of the 
Family Reunification Program. The Skillman Evaluation \2\ tracked the 
costs across three comparatives for 12 months prior to Family 
Reunification services and 12-months post services. The table below 
illustrates savings longitudinally over that 24-month period of time 
among groups of children and families who received the services and 
those that did not.
---------------------------------------------------------------------------
    \2\ Evaluation of the Family Reunification Program, University 
Associates/The Skillman Foundation--1999.

FAMILY REUNIFICATION PROGRAM (FRP)--12-MONTHS BEFORE AND 12-MONTHS AFTER
 RETURN HOME COST COMPARISONS FOR ALL GROUPS OF CHILDREN AGE 16 OR LESS
------------------------------------------------------------------------
                                Average cost                    Percent
            Group                 per child      Total cost       cost
                                Before/After    Before/After   Reduction
------------------------------------------------------------------------
Non-FRP Statewide Foster Care         $16,418     $41,505,508
Family Reunification.........           5,377      13,591,788       67.3
12-County Non-FRP Foster Care          19,037      21,360,014
12-County Family                        6,043       6,780,795       68.3
 Reunification...............
------------------------------------------------------------------------

    As this table illustrates, the savings over the length of the study 
were significant. More importantly, however, is the human cost. The 
largest category of children placed out-of-home are those who 
experience abuse and/or neglect. The evaluation of the Family 
Reunification Program showed its greatest effectiveness with helping 
these families reunite and remain together.
    In response to your question of reinvestment of savings, the 
savings from reducing the costs in out-of-home care paid for by Title 
IV-E were not reinvested into Family Preservation programs due to our 
inability to utilize Title IV-E dollars for costs other than placement. 
However, should we be afforded the opportunity to reinvest Title IV-E 
dollars from savings achieved through the use of Family Preservation 
Programming, we would develop a comprehensive strategy focused on 
maximizing available funding to achieve the desired outcomes of 
protection, safety and stability for children.
    I trust these responses adequately address your questions. Thank 
you for the opportunity to provide you and the Subcommittee with this 
additional information regarding Michigan's programs. If you have 
additional questions, please do not hesitate to contact me.
            Sincerely,
                                 James E. Beougher,
        Director, Child and Family Services Administration,
                               Michigan Family Independence Agency.

                                <F-dash>


            Florida Department of Child & Families,
                            Tallahassee, Florida 32399-0700
                                                       May 22, 2001
    1. One of our purposes today is to determine what programs are 
successful. Please describe how court improvement programs measure 
success. Has this changed over time? Are any states (other than 
Florida, of course) operating highly successful programs?
    The Court Improvement Program (CIP) in Florida has several key 
indicators that attest to success in the implementation of meaningful 
enhancements to our child protection system. Florida's CIP has 
developed these initiatives:
    A. The CIP obtained funding from the state legislature to develop 
model dependency pilot projects designed to supplement judicial 
resources that will result in more timely outcomes for children and 
their families. The Court Improvement Program's assessment of Florida's 
dependency process provided hard data to support the need for these 
additional moneys. CIP funds allow for the analysis of the model pilots 
to explore the value of statewide implementation.
    B. The CIP analyzed the need and recommended certification of 
judgeships based in large part on the delays children and their 
families now experience in achieving permanency. The judicial branch 
was successful in obtaining more judges this recent legislative session 
and their assignment to dependency court divisions will be a priority. 
The CIP grant activities are strongly supported by the Florida Supreme 
Court and this has led to a statewide call for action within our local 
dependency court judiciary to implement necessary reforms for the child 
protection system.
    C. The CIP instituted annual Dependency Court Improvement Summits, 
which bring together the judiciary and child protection system 
professionals to develop local court improvement plans under the 
leadership of the judges. These plans are reviewed and monitored by the 
state CIP staff. Annual reports are published that highlight innovative 
plans to improve local courts. TheseSummits have become so popular that 
the number of attendees has grown from 300 participants four years ago, 
at the first Summit, to 1200 participants last year.
    D. The CIP, working in concert with the courts and our Department, 
helped to guide a complete rewrite of Florida statutes affecting 
children. These changes were directed toward bringing Florida law in 
closer alignment with Federal law, and simplifying the work of 
professionals in the field and the courts who serve our children.
    Florida is not the only state with a successful CIP initiative. The 
American Bar Association (ABA) Center on Children and the Law publishes 
annual reports compiling the innovations that have been accomplished 
across the country as a result of the Federal funding. For example, 
Illinois has implemented a parent education program to inform parents 
about the dependency process; Massachusetts is designing a streamlined 
appeals process; Michigan has improved the search for fathers in 
dependency actions; Vermont has teamed ``graduate'' parents of the 
dependency system with new parents entering the system to serve as 
mentors; and, Philadelphia has established a special adoptions court to 
expedite this process to finalize placement for children. These are but 
a few of the examples that illustrate the investment outcomes for the 
CIP project.
    2. I understand you have recently asked a couple of judges in 
Florida who were not putting the best interests of children first to 
stop handling child abuse cases. As a judge yourself, can you provide 
us with some insight on how States can better work with the Court 
system to make sure we are all fighting toward the same goals--safety 
and permanence for our foster children?
    Our Department works closely with the judiciary throughout the 
State of Florida. Our Department recently requested a couple of judges 
to not hear cases involving dependency because we believed that there 
was clear bias against the Department on the part of these judges and 
that their bias had a direct effect on the Department's ability to 
protect abused, neglected, and abandoned children. This request was 
granted and the judges in question were reassigned.
    At the same time and in the same area of the state that two judges 
were taken off the dependency bench, two other judges were working with 
the Department to concentrate on a permanency project which resulted in 
78 children obtaining permanency who had been in the Department's care 
greater than one year.
    Another way the judiciary has partnered with our Department is by 
participating with our staff in training our child welfare attorneys. 
Judge Daniel P. Dawson and Judge Julianne Piggotte are currently 
working with our Child Welfare Attorneys and the Professional 
Development Center to create a training video for our staff on 
``advanced trial skills''. In addition, throughout Florida, Department 
staff is having periodic meetings with the Judiciary and other 
stakeholders to discuss systemic barriers to obtaining permanency and 
protecting children in our care.
    For example, in Orlando the dependency judges and Department staff 
agreed to an Administrative Order assigning cases to judges by 
Department service center. This change permits our Family Safety 
Counselors to appear before only one of the judges in Orlando. This 
change will make better use of the time of our attorneys and Family 
Safety counselors by limiting their court time.
    I have maintained my relationships with my colleagues on the bench 
and we continue to look for more effective ways to protect children. 
Communication and education among the stakeholders in the dependency 
system is a key to working toward the same goals. Again, the CIP has 
been central to accomplishing these objectives. Some of the on-going 
activities to promote education and communication are:
    A. The CIP convenes court improvement liaisons from every judicial 
circuit to monitor the statewide implementation of local initiatives 
and provide a forum for information sharing. The Department of Children 
and Families has similarly established court liaison contacts inside 
the Department for each judicial circuit, encouraging communication 
between the courts and the social service agency and facilitating early 
and creative resolution of problems which may arise.
    B. The statewide CIP office publishes a bulletin quarterly for 
distribution to child protection communities around the state. This 
bulletin features court improvement innovations.
    C. A Web site and Web Conferencing System for various groups has 
been established to encourage information sharing and collaboration 
among child protection professionals.
    D. The statewide CIP office provides ongoing technical assistance 
to Guardian ad Litem (GAL) programs with various projects such as the 
implementation of an automated case and volunteers management system, 
the revisions to the volunteer training manual, and the development of 
an accompanying instructor's guide.
    E. The CIP office also distributes bi-monthly packets for chief 
judges and dependency court judges to keep the courts apprized of 
current child protection issues. This office prepares and distributes 
training and reference materials, which provide the most recent 
references to changing statutes and rules.
    3. You discuss the services funded under the Safe and Stable 
Families program, saying ``As a result of this funding, success rates 
in several major IV-B programs, (defined as meaning no abuse, neglect 
or threatened harm at case closure) climbed to 98 percent in the year 
2000.'' To what do you attribute this increased success?
    There are several factors, to which we attribute the success of 
some of our major programs. Promoting Safe and Stable grant funds were 
used to provide wrap-around services for the children. Florida funded 
Protective Services, Family Builders, Intensive Crisis Counseling and 
Housekeep/Homemaker Programs as well as other services in the continuum 
of care with these funds.
    Florida has increased the number of Protective Investigators and 
Protective Services staff in the field. Not only have we been able to 
provide them with better training but also with more access to support 
services for the families they serve.
            Very truly yours,
                                 Judge Kathleen A. Kearney,
                                                          Secretary

                                <F-dash>


            Maryland Department of Human Resources,
                                  Baltimore, Maryland 21201
                                                       May 24, 2001
Hon. Wally Herger,
Chairman, Subcommittee on Human Resources, House of Representatives, 
        2268 Rayburn House Office Building, Washington DC 20515.
    Dear Congressman Herger: Thank you for the opportunity to respond 
to your questions regarding my testimony on the Promoting Safe and 
Stable Families Program. Below are my responses to your inquiries.
    1. In your testimony, you described the waiver Maryland operates to 
cover substance abuse treatment.
    Maryland's Title IV-E Demonstration Project is designed to prevent 
unnecessary out-of-home placements and to reduce the length of stay of 
children in foster care by providing substance abuse treatment and 
support services to families through a team approach. The project is in 
its initial implementation phase. Various multidisciplinary treatment 
teams have assembled and are completing their cross-training. While 
concurrent identification of potential clients for random assignment is 
underway, to date child welfare clients have not been serviced by the 
Title IV-E Demonstration Project.
    Although this project is just in its early stages, Maryland has had 
some positive experience with providing treatment services to families 
in the child welfare system through a State funded pilot project. This 
program, authorized by (Maryland) Senate Bill 512, provides substance 
abuse services to 300 families annually from seven jurisdictions. The 
program, initiated in October 1997, offers treatment and services to 
mothers of children who, at birth, have a toxicology screen that is 
positive for heroin or cocaine.
    Some of our experience with this pilot program has encouraged us in 
the pursuit of the Waiver Demonstration Project.
    Question A. Can you tell us what percentage of the families 
receiving substance abuse treatment are able to prevent their children 
from being placed in foster care?
    Response: In the SB 512 pilot program, percentages have varied by 
jurisdiction, often dependent on the accessibility of treatment. In 
Baltimore City, of the women referred to the program who went into 
treatment, 44% retained custody of their children. In the suburban and 
rural areas, this percentage is higher, 60%.
    The most significant barrier to success is availability, that is 
sufficiency of treatment ``slots'' or beds, and geographic 
accessibility. In addition, only a few residential facilities can 
accommodate a mother with her child(ren).
    Question B: After a few years of treatment are the parents still 
clean and sober?
    Response: Length of time in treatment varies. The most common is a 
28-day inpatient stay followed by aftercare on an outpatient basis. 
Relapse is common in the recovery process. In addition, most of these 
women have multiple needs for a variety of services--educational, 
vocational, mental health counseling, and housing as well as substance 
abuse treatment, in order to maintain their sobriety. Few programs can 
provide the wrap-around services needed to enable a woman to continue 
her recovery.
    Although data is not complete, some initial results are 
encouraging. Women (more than half) are choosing to enter treatment and 
of those most are successfully completing the 28-day programs. Many 
have expressed a strong desire to continue after their formal treatment 
has ended. If services can be provided when motivation is high, and 
continued as needed, lasting success should be possible.
    Question C. How long do parents in this program have before 
termination of parental rights is considered?
    Response: The Adoptions and Safe Families Act seeks to expedite 
permanency for children in the child welfare system. Parents are 
expected to comply with tasks designed to ameliorate the problems that 
brought the child into care and the agency is required to provide the 
services necessary to assist them. The goal of the Adoptions and Safe 
Families Act is to finalize a permanency plan for a child within 12 
months. Because the preferred permanency option is safe reunification 
with the parents, it is a requirement of the act that states provide 
the services necessary to effect that outcome. If the state fails to do 
so, the case cannot proceed to TPR and the child cannot proceed to 
permanency.
    2. I note in your description (pgs. 4-5) of the efforts of faith-
based organizations in Maryland to recruit adoptive homes for children 
that it requires ``nominal amounts of Promoting Safe and Stable 
Families Program funding'' to set up adoption support groups in 
churches.
    Question A. This is being done without any explicit ``charitable 
choice'' language in the Safe and Stable Families program language, 
correct?
    Response: That is correct. Maryland has voluntarily reached out to 
the faith community to garner their support in assisting the Department 
of Human Resources in its adoption recruitment efforts. We have learned 
that there are ties that bind us to the common cause of finding 
adoptive families for Maryland's waiting children.
    Question B. Have there been any of the concerns others claim when 
discussing this issue, for example, that church hiring practices are 
discriminatory or that churches might have to sacrifice some of their 
religious nature by accepting such funds?
    Response: There has never been any concern that church hiring 
practices are discriminatory or that those churches might have to 
sacrifice some of their religious nature by accepting government funds. 
In fact, the churches that we have developed partnerships with strongly 
believe that it is significant when the two powers (church and state) 
join forces in order to get children adopted. It is a unique effort 
that yields many positive results for the Church, the State and all of 
society. This state and church partnership is extremely beneficial in 
creating ``forever families'' in Maryland and across the country.
            Sincerely,
                                   Linda E. Mouzon,
                                         Executive Director
                                     Social Services Administration

                                <F-dash>


    Chapin Hall Center for Children, University of 
                                           Chicago,
                                    Chicago, Illinois 60637
                                                       May 25, 2001
    Question 1--I understand that a lot of research has been done by 
HHS and by others to evaluate whether family preservation and family 
support programs are effective in reducing the rate of foster care 
placements and the incidence of abuse and neglect. Will you briefly 
describe to this Subcommittee what this research tells us about whether 
certain approaches are more effective than others in achieving these 
important outcomes?
    As I mentioned in my testimony before the Committee, on June 18th a 
number of senior child welfare researchers will be meeting in 
Washington to discuss along with others the issues raised in this 
question. It is my hope that some further guidance will come out of 
that meeting.
    Briefly, the results from research designed to evaluate whether 
family preservation and support programs are effective are mixed, at 
best. On the whole, the national evaluation of family preservation and 
support programs (conducted by Westat, Chapin Hall, and James Bell) 
suggests that family preservation programs did not reduce the 
likelihood of placement. Although the findings from this study are 
important, I think it is useful to bear several issues in mind. Critics 
of the national study have noted that the family preservation programs 
studied as part of the national evaluation did not adhere to a uniform 
program model, even though the evaluators made a diligent effort to 
find programs that mimicked the original Homebuilder model. I would 
point out that it is not the evaluator's responsibility to enforce 
``model fidelity.'' Nevertheless, the issue raised does point to a 
basic weakness. In general, when evaluating program effectiveness, the 
more stable the intervention in terms of duration and type of 
activities undertaken, the more likely it is that any effect will be 
detected. Family preservation programs are subject to considerable 
variation when it comes to implementation. Even different workers 
practicing in the same jurisdiction bring a unique perspective to their 
treatment decisions. It may indeed be the case that the studies 
conducted to date have yet to detect an effect that is there.
    A second issue raised in the national evaluation of family 
preservation services, as well as in other, similar studies, is the 
issue of targeting. Family preservation programs are offered by design 
to those families with children who are thought to be at imminent risk 
of placement. However, the results of randomized experiments such as 
the national evaluation suggest that, in fact, careful targeting of 
these services is hard to accomplish. Evidence for this conclusion is 
found in the fact that placement rates among the ``control'' groups 
were ultimately quite low, a finding that is contraindicated by the 
fact that these are supposedly high-risk populations.
    Two studies suggest that family preservation services have been 
used effectively: The Michigan Families First program, evaluated by 
Betty Blythe and colleagues and the study of Intensive Family 
Preservation Services in North Carolina carried out by Ray Kirk. In 
their respective summaries, both studies discuss model fidelity and 
targeting among other issues at considerable length. And, both studies 
describe specific efforts to address these fundamental concerns in the 
program design. The findings, as I noted, suggest that the programs had 
a significant impact on placement rates.
    I would hasten to add, however, that the evidence might not be as 
compelling as the authors imply. In my review of the Michigan study, I 
could not find tests of statistical significance. The formal evaluation 
of the Michigan program involved only 202 cases, divided between the 
experimental and control groups. With a sample this small, it is 
possible that the differences observed were the result of random 
variation. I do not know that this is the case; however, without tests 
of statistical significance to consider, I remain somewhat circumspect 
about the conclusions. Also, the Michigan study reports a sizeable rate 
of attrition from the targeted sample. No data relating the impact of 
sample attrition on the composition of the treatment and control group 
are presented. Again, without these data, it is reasonable to withhold 
support for the study's conclusions.
    I would also like to see a more thorough analysis of the North 
Carolina data. In general, I thought the study was well constructed, 
but important questions remain. The study's author relies heavily on 
state statute to provide assurances that the fundamental program design 
was followed. I think this is a difficult case to make and akin to 
saying that because the speed limit is 65 mph, people drive 65 mph. 
Also, I think the statistical analysis presented in the study was 
somewhat incomplete in that results from multivariate models were not 
displayed. Judging from the study, it seems plausible that some of the 
findings might well evaporate in a model that weighs the influence of 
multiple factors simultaneously. To my knowledge this was not done, so 
again I would counsel caution with regard to the findings.
    I suspect that to lawmakers, disputes within the scientific 
community regarding whether this or that program is effective are a bit 
frustrating, especially when the safety of abused and neglected 
children is at stake. In response, I would note that there has been 
some progress with regard to knowledge development. With respect to 
what works, there are encouraging results from program interventions 
that have, in some sense, historical ties to family preservation 
services. Among very young children, the results from nurse home 
visitation programs are quite promising when their impact on abuse and 
neglect is assessed. Similarly, Multi-Systemic Therapy has been shown 
to reduce the need for hospitalization among adolescents. 
Notwithstanding the fact that these programs are not child welfare 
programs in the narrowest sense of the term, these findings are 
important for several reasons. First, the programs have been rigorously 
tested using randomized field trials. Although some disputes remain, 
the level of consensus as to their effectiveness is unusually high for 
social programs, especially when compared with more conventional child 
welfare programs. Second, the path to success has been remarkably 
similar. Both programs are characterized by their well-targeted 
populations, their clear program design, and their strict adherence to 
the underlying intervention model, features that have thus far been 
lacking in most family preservation programs. Third, the young children 
(under the age of one) and adolescents targeted by these programs 
represent the highest risk populations for placement into foster care. 
In other words, if family preservation services were more carefully 
targeted to the specific developmental needs of high-risk children and 
their families, I think the chances for success would be raised 
considerably.
    One final note. It is very hard to find defensible treatments for 
complex social problems such as child maltreatment. I mean this in 
spirit of your question; defensible treatments are those that have been 
rigorously tested. In the health sciences, when scientists search for 
treatments for complex medical conditions, success usually follows a 
period of trial and error. This is equally true in child welfare. To 
the extent that frustration is an overriding reaction to the 
evaluations of family preservation programs conducted thus far, it is 
important to remember that as a nation we are far closer to 
understanding what should be done than we would otherwise be had these 
studies not been completed. More to the point, the accumulation of 
knowledge that is useful to lawmakers has expanded tremendously since 
1993, the year family preservation services were first supported 
directly with Federal dollars. The challenge ahead is to use that 
knowledge wisely.
    Question 2--What data is collected to evaluate approaches 
authorized by Safe and Stable Families programs that are most effective 
in protecting children and achieving permanency? What is needed to 
provide more or better information--for example, better systems or more 
data elements?
    This is a surprisingly difficult question to answer. I would be 
reluctant to say that all the data that could be collected and used to 
improve child welfare services are currently being collected in one 
form or another. However, I would be equally reluctant to say that data 
collection beyond what is currently collected is necessary at this 
precise moment. I say this because I believe data collection in the 
absence of a clear, coherent strategy is unlikely to yield an efficient 
use of public funds. Put another way, I think the utility of existing 
resources ought to be explored more fully first. I make this 
distinction because in my work with states that have automated data, I 
have found that these resources are generally underutilized. Until such 
time when the information that can be gleaned from existing SACWIS-type 
systems is exploited fully, I doubt whether new systems will offer much 
of an advantage in the near term. Of course, there is work that can be 
done to advance the field, so please allow me to advance a few ideas.
    As for the data that are currently gathered, state automated data 
systems are an important source of information, especially for answers 
to questions that address broad trends in the utilization of services--
a perspective that can be used to understand the epidemiological 
dimension of service utilization. That is, the data can be use for 
detecting sub-populations that have high rates of abuse and neglect and 
high rates of placement. These data can be extremely important when 
services need to be targeted, much as I suggested above. However, 
automated state data alone cannot be used to answer questions about 
service effectiveness anymore than insurance claims alone can be used 
to identify effective medical treatments. For this, the automated data 
needs to be used in tandem with specific treatment research.
    Also, automated (or administrative) data typically do not capture 
adequate information about the delivery of preventive services, so this 
is an obvious weakness. Automated data in SACWIS systems can be 
improved if they are linked with other program data, especially 
Medicaid data, cash assistance payments, and other social program data 
(e.g., mental health). Researchers now do this routinely and states too 
have begun to build ``data warehouses.'' Work of this type should be 
expanded.
    Services and placement data need to have a better link to fiscal 
data, so that Federal, state, and local governments better understand 
the cost of providing services. Again, my work with states suggests 
that links between child level data and automated fiscal data are 
especially weak.
    The state waiver demonstration programs are another useful source 
of information about what works. But, how that knowledge is compiled 
and reviewed is a source of concern. There is considerable variation in 
the scientific quality of the evaluations now underway. And, states 
have expressed concerns about the stringent evaluation requirements as 
articulated by HHS. Some steps to ease those requirements have been 
taken, through legislative channels; however, the underlying issues 
point to the need for a national strategy. For the most part, the child 
welfare field as a whole has been reluctant to undertake randomized 
studies. The reluctance is understandable, but recent history has 
demonstrated that carefully planned studies do have value. Moreover, 
smaller scale studies of specifically targeted programs might now be 
the most appropriate course of action (in contrast to evaluations of 
large, sweeping programs where the chances of success are smaller). The 
waiver program could be an important stimulus for this type of study. 
At the same time, states need to learn the tools for understanding 
program effectiveness in an operational context. It is unlikely that 
randomized experiments can provide that understanding on a day-to-day 
basis. Thus, the information strategy needs to be shaped as an 
interlocking strategy--one that allocates resources to both well-
designed studies and management information.
    I also want to mention that the approach taken by HHS to the 
Federal outcomes has some flaws that should be addressed. Generally, 
the flaws are tied to how specific outcomes are measured and not to 
specific outcomes per se. For example, consider Federal outcome 5.1, 
Reduce Time in Foster Care to Adoption. The outcome is obviously 
central to our understanding of how well the child welfare system is 
working. The problem arises in how this indicator of performance is 
measured. The current methodology is based on the experiences of 
children who exited care in a given year. Although thereis a certain 
intuitive appeal to tracking adoption performance by studying what 
happens to the children who exit, the truth is that an approach that 
considers only those children who exit care will usually misrepresent 
actual performance. The reason for this has to do with the fact that 
the experiences of children who have not exited are not factored into 
the measure. Alternative approaches exist, and there is a broad 
consensus within the research community that these alternative measures 
ought to be adopted. Officials at HHS are aware of the issues; efforts 
to initiate changes should gain a sense of urgency, especially since 
some states have turned to these alternative measures. I have a 
technical paper that describes the underlying issue, if staff of the 
Subcommittee would be interested in a more detailed discussion.
    Question 3.--In your opinion, is $6 million per year the right 
amount of funding for research and evaluations?
    No, I do not think $6 million is adequate. A conservative estimate 
of the Federal investment in child welfare services is $6 billion. If 
this is true, then the investment in research and development stands at 
about one-tenth of 1 percent of the program budget. The Subcommittee 
would be hard pressed to find a chief executive officer of a leading 
edge company who commits so few resources to research and development. 
Also, for comparison purposes, consider the fact that R&D expenditures 
as a percentage of the total Federal budget authority stands at 
approximately 7.7 percent (NSF, 2001). That figure is considerably 
higher than the R&D budget for education, training, employment, and 
social services, which stands at seven-tenths of one percent. However, 
if the R&D budget for child welfare were to increase to just the level 
allocated for social services generally, the budget would increase to 
$42 million. Clearly, $6 million is inadequate.
    Moreover, I would say that the time is right to increase 
investments in our ``knowledge'' infrastructure. As I noted earlier, 
significant new sources of data have been developed over that past 
decade (e.g., NCANDS, AFCARS, the Multistate Foster Care Data Archive, 
and the National Study of Child and Adolescent Well-being). However, to 
take full advantage of these resources, the data must be leveraged. To 
do this, we have to design and carry out more focused research that 
explores treatment efficacy. At the same time, we have to understand 
the factors that account for the variation in state and local 
performance. For example, over time the child and family service 
reviews will highlight the fact that states perform differently. If the 
underlying dynamic that drives performance is tied to ``best 
practices'' at an organizational level (or some other practice domain), 
then research that extracts those practices has to be carried out. 
Otherwise, the various technologies that lead to better service 
delivery cannot be transferred from one jurisdiction to another. In 
short, learning cannot take place.
    As is the case with information resources generally (Question #2), 
I think a prudent step would be to develop a national strategy for 
research and development. Notwithstanding the very important strides 
taken over the past decade, there are serious gaps in what we know. A 
national strategy would serve to articulate a set of priorities for 
knowledge development. Otherwise, the research is likely to evolve in a 
haphazard, less efficient way.
    Question 4.--What are your recommendations for changes, if any, to 
this program as we reauthorize it?
    As I suggested in my testimony, I believe legislative language can 
and should be developed that provides incentives to states that target 
services to families and children based on need. Presently, the 
language stresses services (family preservation, family support, time-
limited reunification, and post-adoption) and outcomes. My concern is 
that the current language does not reflect a sensitivity to need. To 
the extent that family preservation services intended to lower 
placement rates should be structured differently for at-risk children 
under the age 5 as compared to adolescents, the failure to adjust 
strategies based on need leads to undifferentiated service designs that 
are inherently less effective. Right now, there is little in the 
Federal statute that encourages more of this type of thinking on the 
part of states.
    Introducing need into the ``equation'' has certain advantages. If 
need is combined with a focus on outcomes as the driving force behind 
the design of service delivery systems, then the allocation of 
resources for this or that type of service can be de-emphasized. 
Insofar as states find the existing language restrictive, the emphasis 
on needs/outcomes would provide states the flexibility to focus on the 
blend of services best suited to local conditions, provided the state 
continues to meet expectations vis a vis outcomes. The Federal 
monitoring system in place (subject to its improvement) will provide 
HHS with the tools it needs to judge state performance within this 
context. I also believe that using need as a deciding element in the 
design of service strategies will help to minimize the heavy reliance 
on ideology as a way to promote the development of services. As a 
nation, we should be focused on reducing the incidence of maltreatment, 
the rate of placement into foster care, the time required to reach 
permanency for children who are placed, the likelihood of reentry into 
foster care, the disruption of other post-permanency living 
arrangements, and the well-being of children generally. And, we should 
focus on providing the mix of services that yields these outcomes.
    I also think that focusing on need provides the opportunity for the 
Federal government to expand the use incentives in its relationship 
with states. Although sanctions are an important tool, I think the time 
has come to rely on a more positive approach to state compliance with 
national priorities. In recent years, states have become much more 
focused on theiraccountability. The tendency will only spread and 
intensify. The Federal government can accelerate this process with a 
careful blend of incentives and sanctions, with an emphasis on 
incentives. One approach would be to set aside some portion of the 
Title IV-B, subpart II funds as part of a pool of resources that can be 
used as incentive funds pursuant to a state application that connects 
need, services, and outcomes in a state strategy. The details that 
define how state and local dollars would be matched are something that 
would have to be laid out.
    I also believe that language permitting the reinvestment of Title 
IV-E funds into programs that reduce the demand for foster care ought 
to be pursued. I have written extensively on the subject of 
reinvestment (transferability is the term used in other contexts) and I 
would be happy to share those works with the Subcommittee. In the 
present context, reinvestment would provide a permanent legislative 
structure for the state waiver demonstration program. Again, as I said 
in my testimony, states that have operated successful waiver 
demonstrations need a mechanism by which to negotiate a continuation of 
those programs. Relying solely on the waiver language locks states into 
an arrangement better suited to testing new ideas, rather than bringing 
successful programs to scale. Nesting the waiver program within a 
broader reinvestment strategy would permit the testing of smaller, 
well-targeted programs using rigorous evaluation standards. The 
reinvestment strategy would provide an over-arching framework for 
bringing successful demonstration projects to scale.
    Finally, as a technical amendment to the existing law, I would urge 
a change to the adoption incentives. The current language uses the 
number of adoptions as the basis for issuing Federal incentive 
payments. Although the number of adoptions is easily measured, it can 
be shown that the time it takes to complete adoptions can actually slow 
even as the number of adoptions increases. It can also be shown that in 
jurisdictions that have improved their adoption process (i.e., the time 
it takes to complete adoptions, on average), the number of adoptions 
could actually go down. If the goal of the incentive program is to 
promote better practice (e.g., reducing the time to permanency), then 
the federal government should build its incentives around how long 
adoptions take. If states have an adoption backlog, the improved 
process will produce a larger number of adoptions, but the reverse need 
not be true. Obviously, Federal incentives should not be meted out when 
the number of adoptions rises but the process itself slows; however, 
there is now no guarantee that this could not or has not happened.
    Question 5.--States are instructed to expend ``significant 
amounts'' of the allocation under the Safe and Stable Families program 
for each of the four program purposes. How is the ``significant 
amounts'' instruction enforced?
    My understanding is that the ``significant amounts'' language is 
defined in the program instructions. These instructions define 
significant amounts as 20% for each of the service types. States that 
deviate from these significant amounts must justify their spending in 
their Title IV-B plan. The approval of those plans involves a 
negotiation with HHS. To my knowledge, no state plan has been turned 
down, although this is not to suggest that states have not felt 
constrained in their approach to spending those dollars. Also, I do not 
know of any state that has been sanctioned as a result of how their 
Subpart II money was spent.
            Sincerely,
                                        Fred Wulczyn, Ph.D.
                                                    Research Fellow
                             Casey Family Services,
                                 Shelton, Connecticut 06484
                                                       May 24, 2001
Hon. Wally Herger,
Chairman, Subcommittee on Human Resources, Committee on Ways and Means, 
        House of Representatives, Congress of the United States, 1102 
        Longworth House Office Building, Washington, D.C. 20515-6348.
    Dear Congressman Herger: I have received your letter of May 16, 
requesting additional information related to the testimony presented 
last week regarding the Safe and Stable Families Program. We are 
pleased to provide the following additional information and 
perspectives.
    You will find that I have organized our input to correspond 
directly with your specific inquiries.

    1. Your point is well taken that we must not close the books on 
these families as soon as the ink is dry on their adoption papers. From 
what I read in your testimony, it doesn't sound like these approaches 
are too expensive. For example, Maine has been able to provide services 
in a cost-neutral way through a waiver. Please comment.

    Many of the effective services and supports for adoptive families 
are inexpensive. Adoptive parent support groups are an excellent 
example of one low-cost way to continue to support adoptive families; 
educational workshops to help adoptive families deal with the specific 
challenges that children present or to anticipate problems that might 
arise as the child grows older is another such support. Other services, 
such as on-going counseling and respite for adoptive parents, or summer 
camps for children, cost somewhat more, but are still relatively 
inexpensive. More intensive services such as residential treatment are 
needed by far fewer children and for relatively short periods of time, 
but do cost more--more than most adoptive families can handle on their 
own. It is important to understand that there is no set formula for 
when these services will be needed, nor to what extent. Overall, your 
observation is exactly right: Most of these approaches are not 
expensive, and they are certainly less costly than returning children 
to the foster care system.
    With regard to the waiver in the state of Maine, services are 
expected to be delivered in a manner that necessitates no new 
allocations of funding. Moreover, we believe that the program will 
provide cost-benefits and demonstrate that this kind of investment in 
preventive services ultimately results in cost savings. By allowing 
Title IV-E funds to be used flexibly in combination with Medicaid 
reimbursement for case management, it has been possible to provide a 
continuum of services that include prevention as well as treatment. In 
addition to individual and family counseling to address various 
behavioral and emotional problems, the program also provides support 
groups for parents and children, educational workshops that address 
adoption related issues and activities that promote better 
understanding about adoption in the community. The hope is that by 
providing these services before crises occur, future savings will be 
realized by a reduced number of days of hospitalization and other, 
expensive forms of care for these adopted youth, and possibly by a 
lower disruption rate for the families served. In collaboration, the 
Muskie Institute at the University of Southern Maine, Casey Family 
Services and the Maine Department of Human Services have developed a 
particularly strong research component that will provide the data 
needed to document benefits and associated costs within the next three 
to four years.

    2. Do you think more states would be interested in seeking out 
waivers like the one Maine is operating, especially if they were able 
to transfer funds across child welfare programs (from Title IV-E to 
Title IV-B) for the purpose of providing post-adoptive services?

    At the recent national post-adoption conference convened by Casey 
Family Services in Washington, D.C., state adoption directors from 
across the nation were uniform in the expression of their need and 
desire to find creative ways to finance post-adoption services. It is 
very likely that many states would be interested in considering waivers 
similar to the one in Maine that would allow greater flexibility in the 
use of Title IV-E dollars. It is critical, however, that we not 
restrict the availability of these funds for other needed services to 
vulnerable families and children.
    We would urge that the Maine program designed jointly by the State 
Department of Human Resources, the Muskie Institute and Casey Family 
Services, be made readily available to all states. This program is 
proving successful both in responding to the needs of families and 
children following adoption and ensuring that state and Federal funds 
are used responsibly.
    We anticipate that the number of foster children needing adoption 
is going to continue to rise for the near future. The availability of 
quality post-adoption services is one essential key in encouraging 
families to step forward to offer a stable, nurturing family for these 
children who have experienced so much trauma in their young lives. At 
the same time, a number of private, non-profit agencies who are capable 
of offering excellent services to adoptive families continually 
struggle financially to find ways to fund and maintain such services.
    Fees collected from the families often cannot cover the costs, 
since many of the families have only modest incomes. Insurance often 
does not pay for any of the cost or will pay for the child's services, 
but not for the services the family may need. For example, in family 
counseling or therapy, the child's therapy may be paid for, but the 
family's participation would not be covered. Increased flexibility for 
states would present an outstanding opportunity for a cost-effective 
public-private partnership in every state depending on its needs. 
Flexibility would enhance the capability and stability of private, non-
profit agencies committed to serving these families while at the same 
time greatly expand post-adoption resources for adoptive families and 
children.
    Even at this early stage, we believe that the IV-E waiver program 
in Maine offers strong evidence of the potential benefit and value of 
this approach to flexibility in funding. We would welcome expansion of 
the demonstration program to allow other states to benefit sooner 
rather than later. Broadening the reach of the waiver program could be 
accomplished relatively easily by the U.S. Department of Health and 
Human Services through a regulatory change.

    3. (We will respond to each of the three parts of this question.)

    A. Do you support the President's proposal to increase Safe and 
Stable Families Program funds by 65 percent or $200 million per year?

    Casey Family Services would welcome any action that would enhance 
services and supports in order to strengthen fragile families. During 
President Bush's tenure as Governor of Texas, his administration took a 
leadership role in looking at innovative ways to improve the plight of 
children in foster care who either needed to return home or to find new 
permanent, loving families through adoption. It is encouraging to us 
that he is now able to express his concern for children in these same 
circumstances who can be found in every state throughout the country. 
We certainly support the President's recommendation for increasing the 
funds available to the Safe and Stable Families Program. However, it is 
very important that other human service programs, such as Title XX, not 
be cut in order to fund this increase since these other programs are 
also providing vital services to similarly vulnerable families and 
children.

    B. Should Congress consider relaxing the language that now requires 
states to spend at least 20 percent of their Federal funds in each of 
four areas?

    Congress should avoid any action that might ultimately de-fund any 
of the four clusters of services outlined in the act. We may want to 
consider looking differently at the clusters and dividing them into two 
parts such as: adoption support/reunification and family support/family 
preservation as a way to offer more flexibility and still insure 
funding for all areas.
    Families who adopt need to be able to count on the fact that help 
will be available when they need it. Even with the current percentages, 
the 20 percent for adoption is for ``adoption promotion,'' not just for 
post-adoption services. It is our understanding that some states are 
using a considerable portion of the 20 percent for recruitment of 
families, which is also important, but reduces the earmarked dollars 
for post-adoption support. To do away with the percentages might well 
jeopardize future funding for adoption, already a small program.

    C. Are there other changes that would give States more flexibility 
to meet the greatest needs? What would you recommend?

    It is important to maintain flexibility in funding streams. The 
Adoption Opportunities Grants program has a proven track record in 
helping states move ahead in post-adoption services despite a lack of 
resources. Combining this program with the flexibility of the IV-E 
waiver program would achieve sustainability for those services that 
have proven effective. At the same time, however, states still need to 
maintain accountability to ensure that the funds are used in the most 
efficient, appropriate manner. This may help to focus attention on the 
important issue of data collection related to the experience of the 
states in responding to adoptive families' needs. In terms of the way 
systems operate, this is one of the areas that receive the least 
attention. Earmarks do help to ensure funding. We must fund all parts 
of the system in some balanced fashion if we are to prevent children 
from having to return to foster care.

    4. How many adoptive families, like Sonya Merrill, are single 
parents? Does that raise any special issues for your programs?

    According to the U.S. Department of Health and Human Services, 33 
percent of all children adopted from foster care are adopted by single 
parents. Research indicates that most single adoptive parents are 
female and are most likely to adopt older children than infants. As a 
group, the single parent adopters of U.S. children tend to adopt 
``special needs'' children who, in addition to being older, tend to be 
minority and/or handicapped children, and almost all have suffered 
abuse and neglect before being removed from their birth families. 
Single adults are, therefore, a critical resource for the children 
waiting in foster care.
    The needs of single adoptive parents are similar to those of all 
adoptive parents in many respects. A strong support system is even more 
critical for the single parent. Often family, friends, or a church can 
provide many of the needed supports. When these resources are not 
readily available, community service agencies must be called upon to 
provide that network of care and support. The need for assurance of 
continued financial support and medical services may be even more vital 
for the single parent, since there is no spouse to rely on in times of 
economic instability.

    5. To what does Casey attribute the dramatic increase in the number 
of finalized adoptions of children in foster care, a 28 percent 
increase between 1998 and 1999 alone?

    A number of key factors contribute to this dramatic increase. 
Congress has been supportive of measures targeted to doubling the 
number of foster children adopted from approximately 27,000 per year in 
1997, to 54,000 per year by the year 2002. The passage by Congress of 
the landmark Adoption and Safe Families Act of 1997 (AFSA) has been 
pivotal in raising the level of discussion by policymakers in Congress 
and in state legislatures, at the gubernatorial level in many states, 
and at the highest levels of public agencies across the country.
    Typically, since the number of children in foster care and the 
number needing adoption is quite small relative to the number of 
welfare recipients or Medicaid recipients, for example, the issue of 
the need for these thousands of children to have permanent families has 
not been deemed a top priority. ASFA gave impetus to the U.S. 
Department of Health and Human Services and every state to look 
carefully at what was being done to ensure the timely adoption of 
children in care who cannot return to their families of origin. It 
provided the impetus for setting specific targeted outcomes for states 
to achieve and rewarded states that were able to achieve these 
outcomes.
    It is when Congress, the Administration, the philanthropic 
community, and every state work collectively with public and private 
agencies toward the goal of permanency for every child that effective 
action becomes a reality. Systems don't change quickly or easily, so it 
is imperative that such a focus be maintained for a significant period 
of time in order to achieve the ultimate goals.
    When the goal of doubling the number of adoptions is achieved in 
2002, we will not have finished our job. There are 118,000 children in 
foster care today in need of, and eligible for, adoption. The number is 
expected to go even higher over the next year. It is essential that 
Congress, the Executive Branch at both the federal and states levels, 
and federal and state agencies across the country stay the course until 
the goal of permanency for every child who needs a family is achieved.

    6. Please tell us more about the Connecticut program that you 
referenced in your testimony, and results that you have seen.

    Casey Family Services provides post-adoption services in 
Connecticut through our Bridgeport and Hartford Divisions. 
Additionally, we have post-adoption programs in Vermont, New Hampshire, 
Rhode Island, and Maine. The programs generally consist of information 
and referral services; counseling for the children, parents, and the 
family as a whole; advocacy to help families obtain the services they 
need particularly from the education and mental health systems; 
educational workshops and training for adoptive parents and community 
professionals and community education about adoption and the needs of 
adoptive families. Staff give presentations at various community 
agencies such as libraries, schools, mental health facilities, and go 
to other community gathering places such as festivals, fairs and malls 
to set up information tables and educate the community about adoption.
    We have experienced very positive feedback from the agencies and 
community groups with whom we have worked. In Vermont, for example, a 
result of our training with community mental health centers is that a 
question will be placed on the intake form that asks if the client is 
adopted. In the past, a counselor may not have known that a client was 
adopted and not made the connection between the problem being 
experienced and its relation to the adoption.
    In the schools, teachers appreciate understanding more about the 
needs of adopted children and how some class assignments may be 
insensitive to their needs. For example, when teachers ask children to 
bring in baby pictures, they need to know that children adopted from 
the foster care system may not have any baby or birth family pictures. 
By exercising awareness and understanding, teachers can make the 
assignment less stressful and more sensitive to adopted children. 
Increased community awareness will result in more caring and supportive 
environments for adoptive parents and children.
    Congressman Herger, Casey Family Services deeply appreciates your 
interest in this important area. We are grateful for this opportunity 
to share our experience and insights in greater detail. I hope that we 
have been able to provide useful information in response to your 
inquiries.
    Thank you, again, for the privilege of presenting testimony at the 
May 10th Hearing on the Safe and Stable Families Program. If other 
questions arise in the future, please consider Casey Family Services as 
a resource.
            Sincerely,
                                          Raymond L. Torres
                                                 Executive Director

                                <F-dash>


    [Submissions for the record follow:]
    Statement of Eva J. Klain, and Martha W. Barnett, American Bar 
              Association, Center on Children and the Law
    Mr. Chairman and members of the Subcommittee: I am Eva J. Klain, an 
attorney with the American Bar Association Center on Children and the 
Law, where I serve as Director of Court Improvement. On behalf of 
Martha W. Barnett, President of the American Bar Association (ABA), I 
am pleased to submit this statement to express our strong support for 
reauthorizing programs that are working to achieve systemic improvement 
of our nation's juvenile dependency court systems, so that all children 
who have been the victims of abuse and neglect can achieve safety and 
permanency and enjoy the stability and love of family.
    The ABA has for many years devoted considerable attention to 
improving court processes affecting children in foster care. In 1980, 
the ABA House of Delegates adopted a resolution in support of passage 
of the federal Adoption Assistance and Child Welfare Act of 1980, P.L. 
96-272, 42 U.S.C. Sec. Sec. 620-629, 670-679. In 1988, the ABA House of 
Delegates further called for substantial amendments to that Act to 
strengthen the role of the legal system and ensure more consistent 
services for children, including creation of federal fiscal incentives 
to courts to reduce or limit delays in foster care litigation and 
improve court rules governing foster care cases. In February 1997, the 
ABA House approved a recommendation supporting federal legislation to 
remove barriers to adoption.
    The ABA Center on Children and the Law has been actively involved 
with improving the handling of child abuse and neglect proceedings for 
many years, developing model statutes and court rules, providing 
technical assistance to states, and developing legal manuals for 
attorneys and judges.\1\ The Center has also provided extensive 
training throughout the United States to help courts and child welfare 
agencies comply with the mandates of the Adoption and Safe Families Act 
of 1997 (ASFA). The ABA has testified before the Subcommittee on Human 
Resources and other Congressional Committees on numerous occasions on 
this and related subjects.
---------------------------------------------------------------------------
    \1\ As provided by the House Rules requiring disclosure of relevant 
federal grants, the ABA Center on Children and the Law received funds 
from the State Justice Institute to develop assessment materials for 
state courts to use in conducting their court improvement self-
assessments (Evaluating the Administration of Justice in Foster Care 
Cases; $39,618). It also subcontracted along with the National Center 
For State Courts with the Michigan Supreme Court, State Court 
Administrative Office (Michigan State Probate Court Assessment: 
Handling Foster Care and Adoption Cases/US Department of Health and 
Human Services; $107,170) and the California Judicial Council (National 
Center for State Courts/US Department of Health and Human Services; 
$26,800). These subcontracts funded ABA staff who conducted portions of 
the court assessments for Michigan and California. In addition, the 
Center addresses court improvement, among other issues, through the 
National Child Welfare Resource Center on Legal and Judicial Issues (US 
Department of Health and Human Services; $800,000).
---------------------------------------------------------------------------
    The courts are vital to achieving permanency for children in foster 
care and other out-of-home placements, and especially to the 
expeditious adoption of children who cannot return home. Our statement 
addresses the progress being made as a result of the federal court 
improvement grants appropriated by Congress under the 1993 Omnibus 
Budget Reconciliation Act to the highest courts in each state and 
reauthorized under ASFA-and the opportunities they provide for systemic 
improvements.
    By enacting the Court Improvement Program (CIP), Congress 
recognized that improved state court proceedings in foster care and 
adoption cases is critically important to abused and neglected children 
and their families. The court improvement grants enable each state to 
develop and implement its own plan for systemic court reform. All 50 
states and the District of Columbia have chosen to actively participate 
in the Court Improvement Program. This is a testament to the need for 
the Program and to its initial success.
    The American Bar Association urges the Subcommittee to recommend 
that Congress extend Title IV-B, Subpart 2 of the Social Security Act, 
with an increase in the $10 million annual set aside for court 
improvement under the Promoting Safe and Stable Families program. The 
funding of Title IV-B, Subpart 2 overall has increased considerably 
since its enactment in 1993. Expanding the court improvement set aside 
would allow courts, which have not seen an increase since 1994, to 
further improve their processes for the benefit of the children and 
families that come before them. Such an increase would also correspond 
well with the President's request for more funding in the budget for 
Title IV-B, Subpart 2.
The Importance of the Federal Court Improvement Program (CIP)
    CIP is essential to the safety and well being of children in foster 
care. On any given day in our nation's juvenile dependency courts, 
judges are called upon to decide issues of vital importance to 
thousands of children and their families. Court decisions in abuse and 
neglect cases are often of a ``life and death'' nature because courts 
must determine whether children will be safe at home or in specific 
placements. Courts must also at the same time think of the long-term 
and make difficult decisions about whether children's ties with 
parents, siblings and other relatives will be maintained or forever 
severed. Moreover, they must evaluate the provision of services, 
including medical, psychological and educational services, to children 
in foster care to ensure that permanency plans can be implemented 
quickly.
    Unfortunately, juvenile courts continue to need specific, directed 
assistance to improve their functioning. In numerous courts throughout 
this country, judicial and attorney caseloads continue to be so high 
that emergency removal hearings, foster care review hearings, and other 
pertinent court reviews too often last no longer than five or ten 
minutes. Overcrowded dockets, inefficient case scheduling systems 
(causing social workers and others to waste precious time waiting for 
cases to be heard), overburdened or unprepared attorneys, and frequent 
rotation of judges who may or may not have expertise or interest in 
child welfare law, all contribute to significant delays in achieving 
permanency for children in foster care and are a primary obstacle to 
the placement of children with adoptive families.
    Without well-functioning court systems, otherwise effective case 
plans or the provision of social services alone cannot bring about the 
timely adoption of abused and neglected children who are unable to 
return home. Well-functioning courts are essential to achieving good 
results for abused and neglected children. When a child protection 
agency seeks to remove a child from a dangerous home situation, the 
agency cannot make this decision on its own. It is ultimately the judge 
who must hear and weigh the evidence and decide what steps are 
necessary to keep the child safe. Similarly, when parents ask for a 
child in foster care to be returned home, the agency alone cannot 
ensure the child's safety. The court must decide whether and when the 
child will return. Finally, when a child cannot safely return home, the 
agency itself cannot achieve a timely alternative permanent placement 
such as adoption. The court must decide whether to terminate the 
parents' rights and approve the child's adoption. All these decisions 
must be carefully considered and made on a timely basis that serves the 
needs of vulnerable children.
    Real improvement in the court system requires a better-organized 
approach to child abuse and neglect proceedings, including improved 
caseflow management, a highly disciplined process of reviewing cases in 
a timely and comprehensive manner, the appointment or election of 
judges who are educated on child welfare law and related concerns, the 
appointment of skilled attorneys for children, and sufficient numbers 
of judges to give cases the attention they warrant. The Court 
Improvement Program funded by Congress is designed to help states to 
accomplish these important goals.
    Over the past seven years, the Court Improvement Program has 
allowed state courts to honestly assess how well they are handling 
child abuse and neglect cases and direct their reforms and resources to 
priority issues of concern. The court improvement grants have allowed 
states the ``luxury'' of a detailed look into their own practices and 
how they compare with the best practices available for responding to 
child abuse and neglect cases. Many states have compared their findings 
to the standards on model court practice and procedure endorsed by the 
National Conference of Chief Justices, National Council of Juvenile and 
Family Court Judges, and the American Bar Association. Known as the 
Resource Guidelines: Improving Court Practice in Child Abuse and 
Neglect Cases (hereinafter Resource Guidelines),\2\ they ``are 
recommended for use by judges, court personnel, social service workers, 
attorneys and related professionals [to] ensure that as many children 
as possible have stable, caring, and supportive families, not only 
during their early years, but for a lifetime.\3\
---------------------------------------------------------------------------
    \2\ National Council of Juvenile and Family Court Judges, 
Publication Development Committee, Victims of Child Abuse Project, 
Honorable David E. Grossman, Chairman, Resource Guidelines: Improving 
Court Practice in Child Abuse and Neglect Cases (Reno, Nevada: National 
Council of Juvenile and Family Court Judges 1995).
    \3\ Ibid, 8.
---------------------------------------------------------------------------
    The overriding principle underlying the Resource Guidelines is that 
child abuse and neglect cases must be a court priority if timely and 
thoughtful case decision-making is to occur in the cases of our most 
vulnerable children. Approaching the standard of quality mandated by 
the Guidelines presents a major challenge to all court participants 
involved with juvenile court improvement.
    CIP is essential to the success of the Adoption and Safe Families 
Act (ASFA). Over two decades ago, Congress enacted the Adoption 
Assistance and Child Welfare Act (AACWA) to combat the harm children 
experience when left ``adrift'' in the child welfare system. The Act 
clarified and expanded the role of courts and child welfare agencies in 
achieving stable, permanent placements for children committed to state 
care. It required courts to determine whether agencies made reasonable 
efforts to ensure that children are not unnecessarily separated from 
their families when appropriate services can keep them together, 
conduct foster care review hearings, and to hold decision making 
hearings to ensure that children are placed into permanent homes.
    While the Adoption Assistance and Child Welfare Act resulted in 
assuring accountability for children in foster care in many important 
respects, it did not achieve all of its goals. Since its enactment in 
1980, the number of child abuse cases brought to the attention of state 
courts has greatly increased, as has the difficulty and complexity of 
those cases. While children's average length of stay in foster care was 
reduced after the enactment of AACWA, much greater reductions are 
possible. While the number of adoptions increased, far more children 
should be placed into adoptive homes.
    As a result of a growing consensus that AACWA needed to be 
strengthened, Congress enacted the Adoption and Safe Families Act 
(ASFA) in 1997. ASFA was meant to achieve greater safety and permanency 
for abused and neglected children. It did this, in part, by expanding 
and clarifying the role of courts. ASFA modified reasonable efforts 
requirements to increase the courts' focus on child safety, health, and 
well-being, and to more strongly promote adoption for those children 
who cannot safely return home. It required a judicial ``permanency 
hearing'' to protect children from needless drift in foster care. ASFA 
set time limits for the filing of petitions for the termination of 
parental rights and required early filing of such petitions in some of 
the most extreme cases.
    The intent behind ASFA, including the new requirements imposed on 
courts, was to decrease the amount of time children remain in foster 
care, thereby reducing ``foster care drift,'' and to increase the speed 
with which decisions on permanency are made on behalf of the child. To 
help ensure that the new requirements for courts are implemented 
effectively, the court improvement grants are essential to the success 
of the Adoption and Safe Families Act.
State Courts' Self-Assessments
    As required by the federal court improvement grants, states 
completed detailed self-assessments to evaluate the quality of their 
court process and identify obstacles to achieving timely permanency 
plans for children. To collect data, states relied on written surveys, 
site visits, detailed interviews with court participants, court 
observation, case file review, focus groups and a variety of other 
information gathering methods.
    All grant recipients established advisory committees to provide 
guidance to the projects. The Advisory Committees are composed of a 
wide spectrum of individuals involved in local court processes, 
including judges, judicial administrators, attorneys representing 
children and parents, foster parents, former foster children, Court 
Appointed Special Advocates (CASAs), members of citizen foster care 
review boards, and the staff of government social service agencies. 
Participation often requires a commitment of volunteer time and effort, 
as well as a commitment of resources from the state. The inclusiveness 
of the advisory committees provides additional strength to these 
projects by ensuring broad-based community involvement and the 
identification of unique, effective local court practices.
    These assessments confirmed and documented widespread problems in 
court proceedings affecting abused and neglected children throughout 
the United States. They set goals for improvement. Their findings have 
been the basis for the states' court improvement goals and plans.\4\
---------------------------------------------------------------------------
    \4\ State Court Assessments 1995-1998: Dependency Proceedings, 
Volumes I-IV. Edited by Veronica Hemrich. Washington, DC: ABA Center on 
Children and the Law, 1999.
---------------------------------------------------------------------------
Successes and Future Potential of Court Improvement Efforts
    With the help of court improvement funds, many state courts have 
speeded court decisions in child welfare cases. Using CIP funds, many 
states have redesigned their court hearings to more carefully consider 
children's safety and other individual needs. Many CIP projects have 
helped revise state laws and court procedures to carry out the intent 
and spirit of ASFA. In addition, many CIP projects have created and 
provided training on performance standards for judges and lawyers, 
including automated systems to measure court performance such as 
timeliness of decisions.\5\
---------------------------------------------------------------------------
    \5\ See Rauber, Diane Boyd, Robert Lancour, and Sharon S. England. 
Court Improvement Progress Report 2000. Edited by Veronica Hemrich. 
Washington, DC: ABA Center on Children and the Law, 2000.
---------------------------------------------------------------------------
    Improving the quality of court hearings remains a priority for many 
states. A crucial component of such improvements is the need to address 
the problematic quality of legal representation of children in many 
jurisdictions. The Resource Guidelines view access to competent legal 
representation for all parties to juvenile court proceedings (e.g., 
social services agency, children and parents) to be essential to the 
effective functioning of juvenile and family courts.\6\ Highly skilled 
and diligent attorneys are instrumental in ensuring that judges have 
the evidence, documentary and testimonial, that they need to make well-
considered judgments about the lives of children and their families.\7\ 
Recognizing the need for improved representation, many CIP projects 
such as Georgia, Arkansas and Connecticut developed standards of 
practice for judges and attorneys working on juvenile cases. Maryland, 
for instance, now includes Guidelines of Advocacy for attorneys 
representing children in child welfare-related cases as an appendix to 
its court rules. New Mexico developed model contracts addressing the 
appointment and compensation of guardians ad litem.
---------------------------------------------------------------------------
    \6\ National Council of Juvenile and Family Court Judges, Resource 
Guidelines, 22.
    \7\ Ibid.
---------------------------------------------------------------------------
    Many states implemented innovative approaches to reform. The 
following are several examples:
    <bullet> Demonstration projects to create one or two ``high 
functioning'' courts within the state. When these projects are 
successful, the state may implement similar model systems throughout 
the state.
    <bullet> Development of regular long-term training curricula for 
new judges, attorneys, case workers, and CASA volunteers to educate 
them about child welfare law and basics principles of child 
development. Training should be regular, continual (i.e., not one time 
only) and mandatory.
    <bullet> Creation of legal manuals for judges, attorneys, and child 
advocates.
    <bullet> On-site technical assistance on improving court 
calendaring practices, caseflow management and consistent information 
systems.
    So far, most court improvement projects have instituted reforms 
that are both realistic and systemic. Some states have pursued and 
acquired additional funding through state legislative appropriations. 
All these reforms allow children to move through the court process more 
quickly, enabling courts to achieve permanency in the placement of 
foster children and adoption for those children who cannot return home.
    One of the most valuable outcomes of the Court Improvement Program 
is the resultant ability for states to share information and replicate 
the successful reforms and innovative strategies implemented in other 
states. This process generates knowledge and energy among those who 
work in the court system and who often face difficult cases on a daily 
basis. It has revitalized the often-overwhelmed system itself.
    As a result of the Court Improvement Program, many more resources 
specifically addressing systemic court reform are now available. These 
include the ABA Center on Children and the Law's bimonthly newsletter, 
Child CourtWorks; a yearly Court Improvement Progress Report, which 
includes all the state contacts for the CIP projects; a catalogue of 
resources, manuals and benchbooks produced by the CIP projects 
themselves; an active and informative ``child-court'' listserv 
discussion group; and numerous websites addressing court improvement. 
The National Council of Juvenile and Family Court Judges has also 
produced many valuable resources on court improvement, including 
technical assistance bulletins on specific reform issues, a compilation 
of ``Bragging Rights'' of CIP accomplishments, and specific trainings 
and publications.
    The process of assessing court practices has resulted in additional 
benefits as well. The ability to focus closely on this often-neglected 
area of court functioning has raised the visibility of dependency 
courts and children's issues at the highest levels of the state court 
systems, including the highest appellate courts and administrative 
offices. The assessments provide statewide information that 
administrative offices can use to standardize proceedings and promote a 
consistent review of cases and provision of services.
    The Court Improvement Program also has allowed many state's 
administrative offices of the courts to establish protocols and 
procedures to better gather information of their own performance in the 
future. With improved computer technology and information management 
systems, courts will be able to track children through the system, 
determine whether they are being placed in permanent homes, match 
adoptive families with foster children, and identify where delays 
continue to exist in the court process. The involvement of social 
service agencies on the project advisory committees and as subjects of 
surveys, site visits and interviews is making those agencies rethink 
their own policies and procedures related to the court process.
    An additional aspect of improved court proceedings is better 
treatment of individuals while they are in the courthouse. Families are 
not being served well when they must wait an entire morning or even a 
whole day for a five-minute hearing. Families are not served well when 
they have their case continued because a social worker or attorney is 
not present. Conversely, when courts hold timely and in-depth hearings 
and judges take the time to communicate clearly with children, 
families, and social workers, such actions convey the message that 
abuse and neglect cases are taken seriously, that children and families 
are treated with dignity, and that the court's orders are to be obeyed.
The Need for Continued Federal Support of State Court Improvement 
        Efforts
    The Court Improvement Program is producing sound results across the 
country. These modest grants are causing States to intensify their 
focus on child abuse and neglect proceedings in a way that was 
previously impossible. Continued CIP funding is needed, however, to 
maintain the momentum of court reform efforts through continuing 
emphasis from the States' highest courts. The funding would ensure that 
staff in each state's Administrative Office of Courts, which are 
connected to the state supreme courts and through which most CIP grants 
are administered, are dedicated to this specific issue.
    Furthermore, progress on reforms is incomplete in all states; that 
is, none has finished implementing all its recommended reforms. No 
state is yet strong in all areas of court functioning, and progress is 
often uneven within and among the states. Some states have high 
functioning courts in certain cities or counties but not in all, while 
some states have progressed much further than others on statewide 
reforms. Courts must continue to evaluate and improve the process by 
which they place children with loving and nurturing adoptive families, 
reunify children with their families, and achieve permanency for 
children who have often been shuttled from one foster home to another. 
Continued federal support is warranted and needed for these reforms to 
continue.
    Congress has made only a very modest investment in helping courts 
perform their required role in dependency and foster care cases. The 
federal government currently spends billions of dollars each year to 
improve states' protection of abused and neglected children. These 
funds help pay for needed services such as foster care, adoption, 
efforts to safeguard families, and reporting and investigation of child 
abuse and neglect. Yet the Court Improvement Program receives only 10 
million dollars per year to strengthen court proceedings for abused and 
neglected children. It is clear that additional funding can help 
achieve significant court improvements.
    While court improvement serves to reduce children's length of stay 
in foster care and is operating in a highly cost-effective manner to 
reduce federal and state costs, it requires additional resources, for 
additional judicial staff, training and education, and enhanced 
judicial competence through better recruitment, training and judicial 
assignment practices. Implementation of the state-based court 
improvement recommendations can go a long way to achieving those goals. 
Much remains to be done. Most courts still need to readjust their 
levels of staff to allow more thorough hearings and further reductions 
in delays. Most courts still need to provide more consistent education 
for judges and lawyers on child welfare issues. And most state court 
systems still need to fund experimental pilot projects, with expert, 
neutral evaluators, to show the extent to which court performance can 
be improved and how such improvement can benefit children.
The Court Improvement Program Should be Reauthorized and the Set Aside 
        Should Be Increased
    The American Bar Association urges the Subcommittee to recommend 
that Congress extend Title IV-B, Subpart 2 of the Social Security Act, 
including the court improvement set aside from the Promoting Safe and 
Stable Families program. We also strongly urge that the Subcommittee 
recommend a substantial increase in the current $10 million annual set 
aside for court improvement. Expanding the court improvement set aside 
would allow courts to further speed their decision making progress, 
more carefully oversee child safety, and implement more truly 
experimental programs. Increasing the monies for the Court Improvement 
Program will not require any increase in the appropriations for Title 
IV-B, Subpart 2, because CIP is a set aside from the appropriation for 
Subpart 2.
    In closing, the ABA urges your strong support for reauthorizing and 
expanding the Court Improvement Program, to support the states as they 
move forward with their court system reforms so that all children who 
are victims of abuse and neglect achieve permanency and experience 
secure, stable and loving homes.

                                <F-dash>


Statement of David K. Byers, Conference of State Court Administrators, 
                          Arlington, Virginia

Introduction

    Mr. Chairman and Members of the Subcommittee, my statement is 
submitted on behalf of the Conference of State Court Administrators 
(COSCA). I thank you for the opportunity to provide you with 
information for the record on the reauthorization of the Promoting Safe 
and Stable Families (PSSF) Program.
    The points that I want to make in this testimony are:
    <bullet> The Conference of State Court Administrators wants to 
commend Congress for its efforts to improve the protections available 
to children through the enactment of the Promoting Safe and Stable 
Families Program and the Adoption and Safe Families Act (ASFA).
    <bullet> It is our belief that the state court systems and judges 
are the key to effective implementation of PSSF and ASFA.
    <bullet> ASFA significantly increased the responsibilites of the 
state courts in handling child protection issues, but did not provide 
the state court systems with additional resources to assist them in 
meeting the new demands.
    <bullet> State court systems need additional resources to provide 
training and technical assistance to the local courts and judges so 
that they can effectively implement the provisions of PSSF and ASFA.
    <bullet> Specifically, we are requesting that funding for the Court 
Improvement Program (CIP), which is a set aside within PSSF, also be 
maintained in the reauthorization.

Conference of State Court Administrators (COSCA)

    I submit this testimony for the record as the current President of 
the Conference of State Court Administrators (COSCA). COSCA was 
organized in 1953 and is dedicated to the improvement of state court 
systems. Its membership consists of the principal court administrative 
officer in each of the fifty states, the District of Columbia, the 
Commonwealth of Puerto Rico, the Commonwealth of the Northern Mariana 
Islands, and the Territories of American Samoa, Guam, and the Virgin 
Islands. COSCA is a nonprofit corporation endeavoring to increase the 
efficiency and fairness of the nation's state court systems. As you 
know, state courts handle 97% of all judicial proceedings in the 
country. The purposes of COSCA are:
    <bullet> To encourage the formulation of fundamental policies, 
principles, and standards for state court administration;
    <bullet> To facilitate cooperation, consultation, and exchange of 
information by and among national, state, and local offices and 
organizations directly concerned with court administration;
    <bullet> To foster the utilization of the principles and techniques 
of modern management in the field of judicial administration; and
    <bullet> To improve administrative practices and procedures and to 
increase the efficiency and effectiveness of all courts.

I. Support for the Reauthorization of the Court Improvement Program

    COSCA has established the effective implementation of ASFA as one 
of their highest priorities. The last two pages of this testimony is a 
copy of a resolution that was adopted by COSCA that supports the 
reauthorization of CIP.
    In 1993, Congress created this grant program to assist state courts 
in improving their handling of child abuse and neglect cases. Unlike 
most federal grant programs, Congress explicitly recognized the effect 
of a federal mandate on the state judicial systems and provided for the 
funds to go directly to the highest court in each state, instead of 
funneled through a state executive agency. Congress authorized $10 
million annually for three years for federal CIP grants to the highest 
court in each state for judicial improvement efforts. Congress required 
that each state use their CIP funds in the first year to conduct an 
assessment, identify problems in processing child abuse and neglect 
cases, and develop strategies for addressing those identified problems. 
Second and third year CIP funds could be used to complete the 
assessment and/or begin implementation of system improvements. Based on 
the success of these initial efforts, Congress subsequently extended 
CIP funding through FY 2001. The 107th Congress must act this year to 
reauthorize the CIP program, if it is to continue.
State Participation
    The CIP program is a voluntary program. It speaks well for the 
program that all fifty states and the District of Columbia are 
currently participating in the CIP grant program. A wide variety of 
strategies for improvements have been implemented. The following is a 
very small sample of some of the innovations prompted by CIP funds.\1\

Training and Education

    All judicial officers in Arizona who are new to handling abuse and 
neglect cases are required to attend a Dependency Curriculum Training 
Program. To assist judges who receive mid-year assignments, a Distance 
Learning Program has been developed and is available through the State 
Intranet.

Model Courts

    The New York Family Court in Manhattan developed a specialized 
docket to implement reforms, including extensive use of pre-trial 
conferencing, creating dispositional orders, outlining appropriate 
service plans for children and parents, providing automated delivery of 
court orders to case planners, monitoring and ensuring compliance with 
court orders, and establishing specific time lines for progress reports 
and permanency hearings. The model court has a reduced caseload. In 
addition, one judge hears all abandonment cases to fast track cases for 
infants and young children who enter foster care and for whom 
reunification is unlikely.

Court Appointed Special Advocate (CASA) Programs

    CASA volunteers serve as guardians ad litem in Delaware. They 
represent the best interests of foster children and are responsible for 
advising the court when there is a conflict between a child's best 
interests and the child's wishes. Delaware continues to expand CASA 
programs in the state.

Court Rules/Legislation

    Minnesota has rewritten its Juvenile Protection Rules, which were 
last revised in 1982. The revision brought the state into compliance 
with the Adoption and Safe Families Act (ASFA) of 1997 (P.L. 105-89). 
The new rules established a ``child protection timeline'' for court 
proceedings, beginning with the child's removal and ending with 
permanency for the child.

Case Management

    The use of case managers in the juvenile courts has proven to be an 
invaluable resource to the Colorado courts. Case management 
conferences, coordinated and facilitated by case managers, provide a 
less formal environment than the courtroom in which the case manager 
can educate parents and their attorneys about the court process, and 
communicate the court's expectations. In addition, case managers are 
responsible for tracking and monitoring child abuse and neglect 
caseloads to ensure compliance with statutory and ``best practice'' 
time frames.

Legal Representation of Children

    Arkansas developed standards of representation for their attorneys 
ad litem. The standards require the attorneys ad litem to obtain a 
training certificate and clinical prerequisites prior to appointment. 
Thereafter, four additional continuing education credits are required 
annually. Additionally, the standards establish a maximum caseload 
level.

Notice

    To facilitate the timely progression of cases when the identity 
and/or address of a parent in an abuse and neglect case are not known, 
Michigan has implemented a protocol. The protocol requires that every 
petition requesting removal of a child include the name and address of 
both parents. When a name and/or address is not known, the court is 
responsible for ensuring that diligent efforts are made to determine 
the identity and/or locate the parent, so the parent can be given 
notice of the abuse and neglect proceedings.

Review Teams

    Louisiana implemented a facilitation team in Baton Rouge to conduct 
periodic meetings with decision-makers in the major agencies involved 
in abuse and neglect cases to troubleshoot and solve problems.

Automated Data Collection

    Mississippi is developing an automated tracking system (MYKIDS) for 
data collection. MYKIDS will be an Internet-based system that permits 
the courts to access the statewide database for foster children. The 
system will also assist with scheduling and the electronic issuance of 
orders.

Guidelines and Standardized Forms

    Florida is developing a judicial bench book for the handling of 
abuse and neglect cases. The bench book will be available in hard copy 
and on CD-ROM. The bench book will be distributed statewide to all 
judges and will be a resource for judicial training programs.

Alternative Dispute Resolution

    Alaska implemented a pilot mediation program, primarily to handle 
termination cases and pre-adjudication cases. While mediation services 
are available at any point in the life of the case, emphasis is on 
contested cases and early in the process.
    As the aforementioned examples indicate, state courts have met the 
challenge of Congress. They completed comprehensive assessments of how 
they handled child abuse and neglect cases. They identified not only 
the problems, but also developed and implemented innovative solutions 
for improving court processes and procedures. Children across the 
country have benefited from this funding, as courts have been able to 
improve and expedite the processing of child abuse and neglect cases 
with the goal of placing children in permanent and safe homes.
    In reality, the amount of CIP funds each state receives is not 
large. States, however, have combined the CIP funds with state and 
local dollars to make sweeping changes in the way they handle child 
abuse and neglect cases. The initiatives described in this testimony 
provide a very small sampling of how states have been able to leverage 
the CIP funds. The availability of CIP funds has stimulated a synergy 
among judicial, executive, and private resources that has resulted in 
broad changes in how state courts handle child abuse and neglect cases. 
The process, however, is not over. The CIP funds continue to be a 
critical factor in improving the attention these children need.

II. The Court Role in Child Welfare Proceedings

    Our interest in this issue grows out of our longstanding 
involvement with federal efforts to protect children in danger of abuse 
and neglect. The enactment of the Adoption Assistance and Child Welfare 
Act of 1980 (P.L. 96-272) vested a unique and critical responsibility 
with the courts to oversee the protection of children in child abuse 
and neglect situations. For the first time, the 1980 Act required 
courts to review and evaluate state welfare agencies' actions. Further, 
courts were required to make judicial determinations that the state 
agencies had made ``reasonable efforts'' to prevent the removal of 
children from their homes, to reunify children with their families 
after a foster care placement, and to provide permanent homes for 
children who cannot be reunited with their families. Congress also 
required courts to hold dispositional hearings no later than eighteen 
months after a child's original placement and hold a hearing every 
twelve months thereafter to review progress on the permanency plan. 
States in which the reasonable efforts findings were not made and 
properly documented and in which the time frames for hearings were not 
met could be sanctioned with the loss of federal funding.
    In 1997, Congress concluded that the promises of the 1980 Act were 
not realized and passage of ASFA now holds new promises for children 
who are vulnerable to abuse and neglect. To realize these promises, 
however, Congress needs to recognize and provide adequate support for 
the needs of the institutions critical to ASFA implementation: the 
courts.

Impact of ASFA on the Courts

    The effect of the new mandates on courts has been to increase the 
workload of the courts because of the added judicial determinations and 
longer hearings needed to resolve the complex issues required by the 
Act. The following represents the highlights of the new mandates and 
their impact on the courts.
    <bullet> Judges are required to make the child's health and safety 
the primary standard for determining a state's reasonable efforts to 
keep the child in the home or reunify the child and the parents.
    <bullet> Judges are required to make judicial determinations of 
when reasonable efforts to prevent removal and reunify the family are 
not required because of egregious circumstances.
    <bullet> Judges are required to make the difficult decisions 
pertaining to the termination of parental rights in cases where a child 
has been in foster care for fifteen consecutive or fifteen of the 
twenty-two most recent months. In the cases where an exception to the 
fifteen-month rule is requested, judges must determine whether the 
compelling reasons are sufficient not to file the petition.
    <bullet> Judges are required to conduct hearings on the permanency 
plans that have been developed by state child protection agencies no 
later than twelve months after a child enters care, six months earlier 
than had been required in the past.
    <bullet> Judges are required to insure that the procedural rights 
of foster parents, pre-adoptive parents, and relative caretakers are 
protected and that they are notified of hearings and have the 
opportunity to be heard at all hearings.
    <bullet> Judges are required to review the placement of a foster 
child every twelve months and to determine when the child will be 
returned to his or her parents or placed for adoption or with a 
relative or with a legal guardian.
    Additionally, ASFA strengthened the courts' oversight authority in 
reviewing the work of the child protection agency staff. The combined 
result of the ASFA changes is more complex and significantly longer 
court hearings.
    Congress enacted the Adoption and Safe Families Act (ASFA) of 1997 
(P.L. 105-89) in response to the concerns that the child protection 
system was not adequately addressing the needs of abused and 
neglectedchildren. The Act was designed to address two major concerns 
(1) the safety of children in all decisions and (2) the need to find 
permanent homes in a timely manner for children who have been removed 
from their homes. The changes brought about by ASFA are positive and 
will bring about better results for children.
    In my state the results of implementing this act has resulted in 
dramatic improvements:

------------------------------------------------------------------------
                 Before                               After
------------------------------------------------------------------------
First hearing in 90 days...............  First hearing in 5-7 days
70% of cases continued.................  No continuance policy
3.2 year in court system...............  1.6 years in court system
------------------------------------------------------------------------

    We support implementation of ASFA. Our concern is with ensuring 
that courts have the resources necessary to implement the Act, not with 
its provisions. We believe that these changes are necessary to insure 
better results for children. We share your belief that the health and 
safety of our children should be given the highest priority when 
deciding the difficult issues pertaining to the termination of parental 
rights and the removal of children from their homes and families.

COSCA Recommendations

    We encourage you to reauthorize the CIP program. State courts have 
effectively leveraged these dollars to make systemic improvements to 
court processes and procedures. These improvements have positively 
impacted the safety and well being for children in need of protection 
and who are in state custody. Our work, however, is not completed. The 
CIP funds are critical to continued improvement and the effective 
implementation of ASFA.
    The amount of CIP funds set aside within the PSSF program has 
remained at $10 million dollars per year since the initial 
authorization in 1993, while the funding for PSSF has steadily grown. 
We are aware that President George W. Bush has proposed an additional 
$200 million be added to the existing $305 million PSSF program in his 
FY 2002 budget. We ask your consideration in allocating a portion of 
President Bush proposed $200 million increase to the PSSF program to 
increasing the CIP program funding to $20 million per year. We believe 
that this will be a solid investment that will greatly assist state 
courts to protect children and expeditiously move them toward safe and 
permanent homes.
    Thank you for giving COSCA, and through it the state judges of our 
country, an opportunity to be heard on this important issue.

                CONFERENCE OF STATE COURT ADMINISTRATORS

 Resolution 1--In Support of Reauthorization of the Court Improvement 
                                Project

    Whereas, the Conference of State Court Administrators recognize the 
importance of moving children in state custody to permanent and safe 
homes as quickly as possible through the efficient and effective 
handling of child abuse and neglect cases by the nation's courts; and
    Whereas, in 1993, Congress created the Court Improvement Project 
(CIP), a grant program to assist state courts in improving their 
handling of child abuse and neglect cases. By passage of this 
legislation, Congress explicitly recognized the effect of federal 
mandates on the state judicial systems and provided funds directly to 
the highest court in each state; and
    Whereas, Congress required that each state use their CIP funds in 
the first year to conduct an assessment, identify problems in 
processing child abuse and neglect cases, and develop strategies for 
addressing those identified problems. Subsequent year CIP funds have 
been to implement system improvements and evaluate the effectiveness of 
the improvements; and
    Whereas, State courts have met the challenge of Congress. They 
completed comprehensive and honest assessments and developed and 
implemented innovative solutions for improving court processes and 
procedures. Children across the country have benefited by this funding, 
as courts have been able to improve and expedite the processing of 
child abuse and neglect cases with the goal of placing children in 
permanent and safe homes; and
    Whereas, the amount of CIP funds each state receives is not large. 
States, however, have combined the CIP funds with state and local 
dollars to make sweeping changes in the way they handle child abuse and 
neglect cases. The availability of CIP funds has stimulated a synergy 
among judicial, executive, and private resources that has resulted in 
broad changes in how state courts handle child abuse and neglect cases. 
The process, however, is not over. The CIP funds continue to be a 
critical factor in improving the attention these cases need;
    Now, therefore, be it resolved that the Conference urges Congress 
to reauthorize the Court Improvement Project beginning with FY 2002 and 
consider increasing the level of funding to assist state courts in 
implementing the provisions of the Adoption and Safe Families Act 
(ASFA) of 1997 (P. L. 105-89).
    Adopted as proposed by the Courts, Children and Family Committees 
of the Conference of State Court Administrators in Phoenix, AZ at the 
Midyear Meeting on December 8, 2000.

                                <F-dash>


 Statement of Priscilla Martens, National Family Preservation Network, 
                              Buhl, Idaho
    The mission of National Family Preservation Network (NFPN) is to 
serve as the primary national voice for the preservation of families 
through Intensive Family Preservation Services and reunification 
services. Our belief is that children deserve to remain safely with 
their families when possible and that all efforts must be made to 
reunite children with their families when it is safe to do so.
    NFPN provides the vision, leadership, training, tools, and 
resources to assist policy makers and practitioners to build on a 
family's strengths and to preserve family bonds so children can be 
protected and nurtured at home. As such, we are vitally interested in 
government policies, research, and funding of family preservation and 
reunification services. We are grateful for this opportunity to express 
our views regarding the Safe and Stable Families Program and the 
research on the effectiveness of family preservation programs.
    Intensive Family Preservation Services (IFPS) have been widely 
used, replicated, and studied for over two decades. There is general 
agreement that these services
          <bullet> have an excellent safety record in keeping families 
        together,
          <bullet> provide a wide array of services with emphasis on 
        building skills,
          <bullet> improve family functioning,
          <bullet> free up child welfare caseworkers to work with 
        families whose children are in out-of-home placements, and
          <bullet> report high levels of satisfaction from program 
        participants.
    There is less agreement on the effectiveness of IFPS in preventing 
placements with most researchers agreeing that findings are equivocal. 
However, it is not surprising that findings would be equivocal based on 
the commonality of problems with the research. All of these problems 
are reflected in the current Evaluation of Family Preservation and 
Reunification programs: Interim Report conducted in the states of 
Kentucky, New Jersey, and Tennessee and include:
      <bullet> Fidelity to the model--programs failed to adhere to the 
model in at least three critical areas: first contact within 24 hours, 
``front loading'' of services in the first week, and contacts with 
families on weekends.
      <bullet> Targeting families--placement of a child should be 
imminent but most families did not meet this definition.
      <bullet> Random assignment--caseworkers were reluctant to assign 
families to a control group if families would receive no services so 
did not always comply with random assignment requirements.
      <bullet> Sample size--less than two-thirds of the intended number 
of families were studied.
      <bullet> Treatment services for control group--some families in 
the control group received other intensive services; at one site these 
services were provided by staff trained by IFPS providers.
    New research conducted by Dr. Ray Kirk at the University of North 
Carolina, taking into account all of the problems mentioned above, 
compared over 1,200 children whose families received IFPS with 110,000 
children whose families did not receive these services. IFPS 
outperformed traditional child welfare services in every case by 
reducing the number of placements or delaying placements. When multiple 
risk factors were present, IFPS was increasingly effective at 
preventing placement when compared to the rest of the child welfare 
system.
    IFPS providers have welcomed evaluation of their programs while 
occasionally pointing out that the rest of the child welfare system is 
mostly not evaluated. NFPN takes the position that expanding IFPS would 
aid the entire child welfare system currently overwhelmed with 
increasing caseloads, a high turnover rate in caseworkers, disparity in 
the number of foster and adoptive children compared to the number of 
foster and adoptive homes available, and an increasing number of child 
deaths in the system. Used correctly, intensive family preservation 
services
          <bullet> provide for close monitoring of high risk families 
        while teaching skills to family members in order to help them 
        make needed changes,
          <bullet> prevent unnecessary placement to free up scarce 
        foster and adoptive homes for children who do require temporary 
        or permanent placement,
          <bullet> reduce caseloads and thus provide incentives to 
        lower the turnover rate in caseworkers,
          <bullet> allow caseworkers more time to work on permanent 
        plans for children who cannot return home, and
          <bullet> save $3.00 on placement services for every dollar 
        spent providing IFPS.
    Saturation of IFPS in a region or state has consistently 
demonstrated improved management of child protective caseloads, 
reduction of child deaths in the system, and cost savings as has been 
demonstrated at various times in Alabama, Michigan, North Carolina, New 
York City, and Missouri.
    President Bush's proposal to increase funding for the Safe and 
Stable Families Program is well timed. The child welfare system needs a 
strong infusion of resources to prevent its collapse. NFPN urges 
Congress to increase funds for the Safe and Stable Families Program and 
to put the bulk of these funds into intensive family preservation and 
reunification services as this will have the most immediate and 
greatest beneficial impact on the child welfare system.

                                <F-dash>


      Statement of Prevent Child Abuse America, Chicago, Illinois
    Prevent Child Abuse America appreciates this opportunity to submit 
its recommendations on the reauthorization of the Promoting Safe and 
Stables Families program (Title IV-B, Subpart 2 of the Social Security 
Act) to Chairman Herger and the other distinguished members of the 
Subcommittee on Human Resources of the House Ways and Means Committee. 
We hope that this testimony will be of assistance as Chairman Herger 
leads the process of evaluating whether funds currently allocated--and 
proposed to be allocated--under the Promoting Safe and Stable Families 
program serve those in greatest need.
    For nearly 30 years, Prevent Child Abuse America has led the way in 
building awareness of, providing education on, and developing and 
disseminating proven and effective tools for preventing child abuse and 
neglect. Working with 39 chapters in 38 states and the District of 
Columbia, we represent a vast network of children and families, family 
support workers, and volunteers--all dedicated to serving as a resource 
to individuals in their role as parents and caregivers.
    Much of our work on the community level is supported by the 
Promoting Safe and Stable Families program, which dedicates 20 percent 
of its federal funds to family support programs. Prevent Child Abuse 
America's family support efforts include such programs as parent 
education and mutual self-help support groups, respite child care, home 
visiting services for new parents, and family resource centers. These 
programs also connect families to additional resources and 
opportunities in their community.
    Common to all of Prevent Child Abuse America's family support 
initiatives is the goal of promoting competencies and behaviors that 
will increase a parent's ability to successfully nurture his/her child. 
Another critical aim of these programs is to have a mitigating effect 
on the increasing social isolation and vulnerability experienced by 
families in today's society.
    In short, these programs help respond and reach out to parents who 
are seeking the support they need to prevent child abuse and neglect 
before it ever occurs, which is why we are in full support of re-
authorizing and increasing funding for the Promoting Safe and Stable 
Families program.
    As you are well aware, each year more than 3 million children are 
reported as abused or neglected in the United States, and more than 1 
million of these reports are substantiated. We also know that abuse and 
neglect exacts an enormous toll on children. Among other personal 
costs, children who are victims of abuse and neglect suffer higher 
rates of school failure, feelings of worthlessness, aggressive 
behavior, detention, and incarceration.
    We also know that child abuse and neglect are causing a substantial 
drain on our social, health, and judicial services. In April, Prevent 
Child Abuse America released a landmark study, which looked at the cost 
we incur as a country every year as a direct or indirect result of 
child abuse and neglect. We discovered that today--and every other day 
this year--child abuse and neglect will cost the American taxpayer $258 
million, which is more than $94 billion annually. Put another way, the 
consequences of child abuse and neglect cost every American family more 
than $1,400 each year.
    It is unconscionable to accept these costs to our country and to 
vulnerable children when, so often, they can be prevented. Even more 
unconscionable is that these financial and personal costs will 
continue, as long as prevention programs remain grossly underfunded.
    While each American family pays more than $1,400 per year as a 
result of child abuse and neglect, families only pay the equivalent of 
$1.06 for programs aimed at prevention. Currently, primary prevention 
programs--that is, programs that prevent child abuse and neglect before 
they ever occur--are funded at $32.8 million, compared to at least $6 
billion for secondary prevention, intervention, treatment, and out-of-
home placements.
    We do not mean to imply that the costs of services for treatment 
and intervention are too high or that theservices themselves are not 
essential; but, there is a tremendous imbalance between what we invest 
on the front end to prevent abuse and neglect before it happens and 
what we spend as a consequence after abuse or neglect has occurred.
    To echo the words spoken by Majority Whip Tom DeLay on the House 
Floor in recognition of April as Child Abuse Prevention Month: ``It is 
also [our] hope that the facts and consequences of abuse and neglect 
will create a national consensus that underscores the importance of 
prevention.''
    To us, prevention means more than preventing placement into the 
foster care system--it means stopping abuse and neglect before it ever 
occurs.
    For this reason, we ask that you maintain the current funding 
requirements of the Promoting Safe and Stable Families program at 20 
percent for family support, family preservation, adoption, and family 
reunification services. This still leaves states with the flexibility 
to direct 20 percent of funding to where they feel it is most needed.
    We also want you to know that Prevent Child Abuse America and other 
organizations are asking the Appropriations Committees to consider 
targeting $50 million of the Administration's $200 million proposed 
increase to the Promoting Safe and Stable Families program to the Child 
Abuse Prevention and Treatment Act (CAPTA).
    As you know, President Bush proposes to decrease CAPTA funding by 
$18 million for fiscal year 2002. However, CAPTA represents the only 
source of federally dedicated funding for primary prevention. While the 
Promoting Safe and Stable Families program funds can be used for 
prevention, it often is used for what might more accurately be 
described as secondary prevention--that is, responding once a child is 
already known to the child welfare system, not working with families to 
keep the child from ever getting to that point.
    Setting aside $50 million of the President's proposed $200 million 
increase would help local communities prevent abuse and neglect from 
happening in the first place, thereby preventing a vicious cycle of 
abused and neglected children growing up to perpetuate destructive 
behaviors, such as abusing and neglecting their own children--a vicious 
cycle that continues to demand more and more from taxpayers.
    President Bush's proposal to increase the Promoting Safe and Stable 
Families program by an additional $200 million for fiscal year 2002 
gives us hope. We are also encouraged by his remarks during the signing 
of the proclamation designating April as Child Abuse Prevention Month:

          Prevention remains the best defense for our children. State 
        Community-Based Family Resource and Support programs sponsor 
        activities promoting public awareness about child abuse and 
        information on how to stop it . . . By speaking out against 
        child abuse and neglect and cultivating an environment that 
        nurtures and strengthens families, we can give boys and girls 
        the safe, stable, and loving homes they need.

    The President's specific citation of Community-Based Family 
Resource and Support programs, which are funded at $32.8 million 
through Title II of CAPTA and are the only federal funds devoted 
exclusively to child abuse and neglect primary prevention, sends a 
powerful message. His outspoken support for community-based prevention 
programs, in contrast with the current limited federal spending for 
these efforts, compel us to believe that increased support for primary 
prevention efforts would be congruent with his objectives.
    Prevention truly is the best defense for our nation's children, as 
the President so astutely pointed out. If we continue to ignore that 
truth, the price tag of child abuse and neglect will continue to grow 
along with the suffering of children and families.
    Increasing the potency of CAPTA's prevention programs with an 
infusion of $50 million could help put an end not only to child abuse 
and neglect, but also to the continual need to increase funding for 
secondary prevention, intervention, treatment, and out-of-home 
placements.
    By re-authorizing the Promoting Safe and Stable Families program, 
maintaining its spending requirements, and targeting a portion of 
President Bush's proposed increase to CAPTA prevention programs, we 
would be providing our communities with unprecedented support in their 
efforts to prevent--perhaps, even stop--the abuse and neglect of our 
nation's children.

                                   - 
</pre></body></html>
